Copies of this report may be obtained
from the U.S. Department of Labor,
Office of Inspector General,
Room S-5506
200 Constitution Avenue NW.,
Washington. D.C. 20210.
Semiannual Report of the
InspectorGeneral
U.S. Department of Labor
Office of Inspector General
J. Brian Hyland
Inspector General


April 1, 1984--September   30, 1984
                               TABLE     OF CONTENTS


Inspector       General's     Message     ..............             i

Overview        .......................                            iii

Office     of Audit     ....................                         1

Office     of   Investigations          ...............             57

Office of Resource   Management    and
  Legislative  Assessment     ...............                       79

Office     of Labor     Racketeering        .............           97

Money    Owed    to   the   Department      .............          109

Appendix        .......................                            113

    Selected    Statistics    ................                     115
    Summary    of Audit Activity      of DOL Programs      .....   117
    Summary    of Audit Activity      of ETA Programs      .....   119
    Summary    of Audit Resolution       Activity     .......      120
    Status of Audit Resolution         Actions    on
      April i, 1984--Balance         of Unresolved
      Audits     .....................                             124
    Status of Unresolved       Audit Reports      as of
       September    30, 1984     .........                         126
    Unresolved    Audits Over 6 Months        Precluded
       From Resolution     .................                       128
    Summary    of Audit Reports      Issued During the
       Current   Reporting   Period      ............              131
    List of Final Audit Reports          Issued    ........        133
                    INSPECTOR   GENERAL   WS MESSAGE


 This report marks the completion     of six years of operation
 for this Office   of Inspector  General.     It is a period  that        I
 believe  has been marked   by challenge   and change,  by great
 progress  as well as some continuing     problems.

The Inspector     General    Act of 1978 has signaled      the advent of
a new era of relationships        within    agencies  and the
culmination    of Congressional      concern    about the way the
government    operates    and manages    the resources    with which   it
has been entrusted°        While  I believe     that the Congressional
desire  for a new awareness       and a new way of operation       has
been mainly    realized,    progress   must continue     to be made both
in terms of our own activities         as well as those of the
various   agencies   of this Department°

During   my tenure as Inspector General,  I have sought to
focus on those issues and programs    that I believe  need
attention.

My concern    from the perspective      of OIG operations     has been
to try to do our own job more effectively          and efficiently.
In this regard,     I have striven    to introduce    improved
management    information,    tracking,   and control    systems within
my Office°     I have also streamlined      our national     field
office   structures    and concentrated    on achieving    clear
measurable    results°

My objectives     with regard to the Department        have been to
open lines of communications,        build effective     working
relationships,     and involve    all elements    of the Department    in
a coordinated     effort to improve     operational    effectiveness
while combatting     waste,   fraud and abuse°      Progress    toward
these objectives      has been steady,    and we are able to point
to real, sustained      improvements    in many areas, including
program   operations,    clarification    of legislation     and
regulations,    and an increased     sensitivity    to fraud, waste,
abuse, and mismanagement       issues.

In this regards     I am appreciative    of the support  and
cooperation    from the Secretary,    the Under Secretary,   and top
management    of the Department    for the work of the Office   of
Inspector   General.    That support   has made our task far
easier   than it otherwise    might have been°




                                 -i-
Finally,  I wish      to acknowledge  the dedication    and fine work
of the employees       in the Office  of Inspector   General   and
their activities       for the six months  that are contained      in
this report°




Inspector   General




                                  - ii -
                                   OVERVIEW


 This six-month      reporting    period    has seen the continuation          of
 efforts  toward    improving     program    administration       and
management    within    the Department       of Labor     (DOL).     This is in
contrast   to earlier      periods,    when the OIG was committing
most of its resources         to the statutorily        mandated     financial
and compliance      audits    of the CETA program.          Continued
emphasis   was directed       toward operational        revZews    of major
DOL programs     within    the Employment      and Training
Administration       (ETA) and the Employment         Standards
Administration       (ESA), as well as the Office           of the Assistant
Secretary    for Administration        and Management        (OASAM).     New
attention    was focused      on the Occupational        Safety    and Health
Administration.        We have also placed        increasing      emphasis    on
prevention    activities      through    training    designed     to sensitize
supervisors     and employees      to fraud, waste,        abuse,    and
mismanagement      issues   and to provide       greater    front-end     review
of accounting      and financial      systems    that are currently        under
development.


EMPLOYMENT     AND   TRAINING   ADMINISTRATION

The Office    of Audit advised    ETA on the closeout       of the $53.7
billion   Comprehensive   Employment    and Training     Act (CETA)
program.    They conducted    reviews   of the phasing      down of 107
selected   CETA sites, yielding     disallowances      and requested
repayment    of $16.5 million.     Followup    reviews   of CETA sites
identified    in the phasedown    reviews   yielded    $i million    in
funds returned    to the Department     while   the auditors     were on
site and about $46.5 million       in additional     costs identified
for return to the Department.         (See the section      beginning   at
page 3.)

With the demise     of CETA, the Government's        primary   job
training   program,    also administered      by ETA, becomes     the Job
Training   Partnership     Act (JTPA).     The Office    of Management
and Budget     (OMB) defines   JTPA as a "block grant"        program,
and during    this reporting    period,    the Office    of Audit
discovered    inconsistent    and conflicting     Federal    standards
governing    the administration      of "block grants."       They
advised   OMB of their perceptions       and the need to apply
consistent    administrative     standards    to all Federal     grants;  a
discussion    of this problem     is contained    in Chapter     2 of the
Office   of Audit section     of this report.

The Office   of Audit also conducted    reviews  of cash
management   in the JTPA program,   resulting   in an innovative
approach   to cash management,  calling   for up-front   transfer
of discounted   funds to grantees.     (See the section   beginning
at page 6.)

                                    -iii-
 In the Job Corps program,     ETA has taken positive       steps to
implement    recommendations   made in an extensive      series of
audits covered     in our last semiannual     report.    ETA also
agreed  to study the feasibility       of alternative    approaches  to
solving Job Corps problems,       including   increasing   linkages
between   Job Corps and JTPA.      Audit has recommended      that Job
Corps establish     a Job Corps Study Committee       to analyze Job
Corps fiscal    accountability   and program    delivery   problems.
(See the section     beginning  at page 9.)

Audit established       a joint task force with the Deputy
Assistant    Secretary    for Employment     and Training     to pursue
implementation     of strategies     for correcting     long-standing
weaknesses    identified    in past audit reports       of the
Unemployment     Insurance    program°    Also in Unemployment
Insurance,    the Office    of Audit conducted      a computer    match of
Federal   payrolls    in eight agencies      (including    Labor) against
unemployment     insurance    payments   in 14 states.      The match
revealed   that 1,137 Federal       employees   may possibly     have
received   $609,361     in unemployment    insurance    benefits   while
simultaneously      receiving   Federal   paychecks°      (See the
section   beginning    at page 12.)

The Office    of Investigation      has taken particular       interest   in
the Unemployment      Insurance    program°     In recent years,
violations    in the Unemployment        Insurance   program   have
included   fictitious     employer/employee      schemes   in which
potentially    high dollar     loss can result.       The Office    of
Investigations     has continued     a joint Office of Audit and
Office   of Investigations      project    to detect,    investigate,    and
prosecute   these cases using information          in the State
Employment   Security    Agencies'     data bases to develop       profiles
of these types of violations.


DEPARTMENTAL     MANAGEMENT

Broad efforts      continued    in two major     areas:    management
initiatives     under the umbrella       of Reform    '88, and internal
controls    tied to OMB Circular       A-123 and the Federal
Managers'    Financial     Integrity   Act.    Within    this framework
special   attention     was focused    on four topics:        cash
management,     debt collection,      procurement,     and ADP
management°      All but one--debt       collection--received       some
attention    in our previous      semiannual     report°     Significant
here is the number of improvements            noted as a result of
departmental     efforts,    particularly     those steps taken in the
procurement     area to meet the goals of Reform            '88.   (See the
section   beginning     at page 16o)




                                   -iv-
EMPLOYMENT    STANDARDS    ADMINISTRATION

This program    has received    a great deal of attention     from the
OIG, most notably     in the area of workers'    compensation.
This level of involvement       continues  with specific   efforts
during this reporting     period    in the areas of Federal
employees'   compensation    and black lung benefits.

Workers'    compensation   programs   administered    by ESA have
suffered    from fraud perpetrated      by both claimants     and
employees.      We have sought to combat such practices,          both
through   our investigatory     activities,    and through    programs
to increase     the awareness   of employees.      In cooperation     with
top managers     of ESA's Office    of Workers'   Compensation
Programs,    OIG's Office    of Resource   Management    and
Legislative     Assessment   (ORMLA) undertook    an important     fraud
prevention    initiative   through   implementation    of an integrity
awareness    program   for the staff of ESA's Federal        Employees'
Compensation     Act (FECA) program.      The awareness    program    is
premised   on the fact that most employees        are not fully
knowledgeable     of the laws and rules governing       their
behavior,    and are often unaware      of the serious    consequences
of violating     such standards.     ESA intends    to continue    to
conduct   this training    for its FECA offices,      and to include
ESA organizations      in addition   to the FECA program      in future
sessions.      (See the discussion    beginning   at page 80.)

Noteworthy    regulatory     reforms that OIG supported         were final
regulations    providing     for the suspension      and debarment     of
certain   medical    providers    from participation       in the FECA
program.     However,    improvements     are still needed to apply
benefits   more equitably       and enhance    program   management.      In
this regard,     ESA continues      unsuccessfully     to advocate   a
departmental     legislative     proposal   while much needed reforms
could be brought      about through      the publication     of
regulations    on medical     fee schedules     and administrative
procedures.     While we continue        to support    the legislative
proposal,   we do not believe        ESA should defer regulatory
action in deference       to possible     legislation.

The most significant      of the legislative     and regulatory
issues raised during this reporting         period   involved   FECA,
and was contained     in a report sent through       the Secretary     of
Labor to the Congress      under Section    5(d) of the Inspector
General   Act.   Section   5(d) requires    that we report any
particularly    serious   problem   or deficiency    to the Secretary,
who must transmit     that report to Congress--together         with any
comments--within     seven calendar    days.    This so-called     "seven
day report" was prompted       by court interpretations       of a U.S.
Court of Appeals     decision   under FECA.     Since the court of
appeals   decision   in this case could jeopardize        many other
cases, we requested      congressional   action on a single section

                                    m v --
of the comprehensive        amendments    to FECA     the Department      had
sent   to Congress     on July   27, 1983o      While    the 98th    Congres s
did not take     action    on either   the comprehensive         FECA
amendments    package     or the specific     section     highlighted     in
our  seven   day   report,   we remain    fully    supportive     of the need
for such   reform    when   the FECA   amendments      are resubmitted       at
the start     of the 99th    Congress.    (The discussion           of the
D_o_r_e_ycase  begins    on page  82; discussion   of FECA          regulations
begins    on page   28.)

Worth   highlighting       in the FECA program         is work    conducted    by
the Department       of Defense      in an audit     of Defense
administration       of responsibilities         under   FECA   and the
so-called     "chargeback"      system    that pays     FECA   costs.     Also
noteworthy      is the continued       development      of the FECA
program's     enhanced    ADP   system,    known   as "Level      II."    (For
discussion      of these    matters,    see sections       beginning    at pages
29 and    31 °)



OCCUPATIONAL      SAFETY AND HEALTH    ADMINISTRATION
MINE   SAFETY   AND HEALTH  ADMINISTRATION

Of special    significance    during    the   reporting     period   is the
fact  that  OIG began     the first    comprehensive      audit    of OSHA.
Major  research    efforts   have   been   directed     to identification
of topics   which   warrant   further     audit   coverage°

In MSHA    a follow-up       review    of the Agency's      Approval    and
Certification       Center    turned    up serious     problems°     The center
tests   "evaluate      products     used   in the mines      to ensure   they
are safe° "      The   initial    review     in October    1981   had contained
a series    of i0 recommendations;            to date,    the Agency    has
completed     corrective      action    on only    five.     OIG estimates
that   the Agency      loses   over    $3 million     per year    as a result
of its failure       to implement       just   one of OIG's
recommendations°



LAB OR- MANAGEMENT    STANDARDS                                                   •
PENSION    AND WELFARE    BENEFITS


A major    reorganization   of       the offices    administering       this
critical    area has demanded         serious   attention    from    OIGo    Most
notable    was   our participation       in the Executive        Steering
Committee     to oversee     the changes     brought     about   by the
separation     of the organizational         components      responsible      for
labor-management        relations    and pension      and employee      welfare
benefit    programs     (once   in a single     Agency    known    as the
Labor-Management        Services   Administration--LMSA)o            The Deputy
Inspector     General     is serving    as vice-chairman        of the Pension
and Welfare      Benefits    Program   Working     Group,    which   was


                                       -vi-
organized   to recommend  improvements    in the Department's
enforcement   of the Employee   Retirement   Income Security       Act
of 1974.    (See the section beginning     at page 38.)

Of course,    cases invoiving     the labor-management     area played
the central    role of the Office of Labor Racketeering           (OLR)
in OIG.    OLR's efforts     resulted   in the indictment     of 52
individuals,     the conviction    of 61, court ordered     fines
amounting   to $135,000,     restitution    of $90,000   to employee
benefit   plans,    and assessment    of tax penalties    and
additional    liabilities    against   malefactors   totaling
$130,000.     The most significant      cases are detailed     in the
OLR section,     beginning   at page 97.


OTHER   AREAS

Officials   responsible    for implementing    Department   of Labor
programs   agreed to a number of audit recommendations          for
improving   management   efficiencies,    resulting   in annual
savings   of approximately    $5.2 million    (see discussion
beginning   at page 51).

In matters    relating   to auditing     practices,  the Office  of
Audit commented      upon disparities     in standards  for audit
resolution,     registering    disagreement    with the General
Accounting    Office's    definition    of audit resolution   (see
section   beginning    at page 47).

Internally,    the Office   of Audit has made significant
improvements    in operations,    among them:    increased    use of
advanced   auditing   techniques;   a shift in emphasis      for
monitoring   ADP systems    from post-implementation      auditing   to
proactive   monitoring;    and use of statistical     profiles   and
models   to improve   audit resource   allocations    (see Chapter    4
of the Office of Audit section).

The Office of Resource    Management   and Legislative     Assessment
(ORMLA),  concurrent  with its awareness      program  for ESA, has
also been developing    an expanded   session   of its awareness
program.   The program,   to be conducted     jointly  with OASAM,
relates  to the Department's    internal   controls   program.

Section   4(a) of the Inspector     General   Act of 1978 requires
the OIG to review legislative       and regulatory    proposals    and
to make recommendations.       During this reporting      period,
ORMLA reviewed    more than 300 items.       Among these was the
"seven day report"     on the D_Q3Le4_case (mentioned     above).
Also addressed    was a longstanding     legislative   issue of
continued   importance--the    need for law enforcement       authority
for special    agents assigned   to our Office     of Labor


                                -vii-
Racketeering°      Also notable    during this reporting      period has
been the strong support       the Department     has given for
So 2090s a bill that would grant limited           law enforcement
authority   to these special     agents°     Support   of this bill,
the Department     indicated,   would signal     its commitment    to
combatting    labor racketeering     and protecting     the reports   and
benefits   of American    workers°     (Further   discussion   of this
issue is contained      in the ORMLA section      beginning   at page
85.)

As part of the effort to improve          OIG operations       and
efficiency,     ORMLA is undertaking      some initiatives       in the ADP
field that can serve to increase          productivity      and improve
the efficiency      of OIG operations°       The acquisition       of ADP
hardware    and softwarer     following   a detailed     OIG ADP Master
Plans and the training        of more than 50 auditors        and
investigators     to fully utilize      the OIG's microcomputers         in
the field has been an important          initiative°      Additional
measures   have been the installation         of minicomputers       in the
OIG headquarters      and two regions_      with installation       in the
remaining    four regions     scheduled   during the next reporting
period.    The data based management         system,   which will reduce
costs by bringing       existing   OIG information     systems     in-houser
will be coupled      with a communications       network   to link OIG's
system   terminals    together    and allow    for the efficient
transfer_    compilation_     and analysis    of data°      (See page 89
for the beginning       of discussion    of this topic°)

Mindful   of the intent   of Congress     in passing    the Inspector
General   Act of 1978_ that the independence         the Inspectors
General   be assured_   we have taken several       positive    steps in
the personnel    and budget    areas°    These actions_     described
more fully in the ORMLA section         of this report     (beginning  on
page 94)_ have been driven by an effort          to eliminate     any
appearance   of the potential      for OIG budget and staffing
needs to be determined      or manipulated     by the agencies
subject   to our direct   audit and investigative        authority°
Other steps to further      foster    OIG independence    have been and
are being taken in the areas of budget and staffing,
personnels   and legal   support°




                                  -viii-
                                 OFFICE    OF AUDIT

During    this reporting   period,  466               audits of program  activ-
ities,    grants,  and contracts   were               issued.  Of these:

     --      49 were     performed       by OIG       auditors;

     --      159 by contract          auditors        under    OIG's     direct
             supervision;

     --      41 by    state    and    local     government        auditors;

     --      213    by CPA    firms     hired    by    the    grantee;     and

     --      4 by    other    Federal     audit       agencies.

Of the 466 audit reports     issued this period,    72 were program
audits,   261 were financial   and compliance   audits including
special   purpose reviews,   and 12 were preaward    audits.    In
addition,   121 audits were conducted     under OMB Circular
A-102, Attachment    P, provisions.    The Department    of Labor
was the cognizant    agency  for 80 of these audits.

The Office    of Audit section    of this semiannual     report is
divided   into four chapters.      Chapter   1 contains   information
on audit activities     in the program     areas within   the Depart-
ment.   Chapter   2 is a discussion     of what we have found to be
impairments    to effective   grant management.      Audit resolution
during  the period    is covered   in Chapter   3, and internal     im-
provements    by the Office of Audit are in Chapter        4.   Money
owed to the Department      of Labor is reported     separately   later
in this report followed      by the appendix    which contains    nu-
merical   tables on audit activity      including   audit reports
issued and audit reports      resolved.


                    Chapter    1 -- Activities           by    Program


EMPLOYMENT    AND     TRAINING       ADMINISTRATION

The Employment    and Training   Administration      (ETA) administers
programs   to enhance  employment    opportunities     and provide
temporary   benefits  to the unemployed.       This mission    is ac-
complished   through  four major programs:        the Job Training
Partnership   Act (JTPA) which replaced       the Comprehensive
Employment   and Training   Act (CETA) on October       i, 1983; the
Employment   Service;  Unemployment     Insurance    (UI); and Job
Corps.




                                         -i-
The Federal   funds involved     in ETA programs   comprise  the ma-
jority of the Department's      expenditures.     For Fiscal  Year
1984, ETA's outlay     level is projected     as $33.8 billion.     Of
that amount,   $3.3 billion    was for the CETA and JTPA programs
and $25.8 billion    was for the Unemployment      Trust Fund.     ETA
programs  are characterized     by a large decentralized     delivery
system except    for those programs,    like the Job Corps,     that
are administered    nationally.

Our major activity       during   this reporting   period was our ad-
visory   role in closing      out the $53.7 billion     CETA program,
the largest     employment    and training   program   in history.     As
a result,    the closeout     of CETA attained    a degree   of fiscal
integrity    never before     achieved  in the closeout     of Depart-
ment of Labor programs.

We focused   major  audit attention    on the new Job Training
Partnership   Act (JTPA) program.      In response   to the Inspec-
tor General   Act which   places  emphasis   on prevention   of fraud
and abuse, we believe     that the Inspector    General   has an ac-
tive role in ensuring     that the administration     of JTPA is
efficient   and effective.

In reviewing    JTPA, we have discovered      what we believe    to be
inconsistent    and conflicting    Federal   standards  governing    the
administration     of grants which will result in confusion         over
accountability     for Federal   funds.    We have advised   OMB of
our perceptions     and the need to apply consistent       adminis-
trative   standards    to all Federal   grants.    The discussion    of
this very important      issue is in Chapter     2 of this semiannual
report.

We completed   a major cash management       review  in JTPA.    Our
review   found inefficiencies     in the management    of cash.    We
are considering    an innovative    approach   to cash management
which calls for up-front      transfer   of discounted   Federal
funds to grantees.     We are working     with ETA to explore     the
feasibility   of this approach     and hope to be able to ascer-
tain if all Federal    grant funds could ultimately       be handled
in this manner.

In the Job Corps and Unemployment     Insurance   programs,  we
have continued   to work very closely    with ETA's management    in
solving major   internal  control and management     system defi-
ciencies  identified   in prior reviews.

    --    Emanating   from our recent    series of Job Corps
          reviews,   we have recommended     that ETA establish    a
          study group to devise     a plan to improve     Job Corps'
          accountability    and strengthen    relationships   with
          state and local entities     administering     JTPA funds.


                                 -2-
      --       The Deputy Assistant   Secretary   for ETA has accepted
               our proposal  to establish   a joint ETA/OIG  task
               force to resolve  problems   surfaced  in our prior UI
               reports.


               Comprehensive      Employment       and   Training   Act

On October    I, 1983, the Comprehensive        Employment    and Train-
ing Act (CETA) ceased program         operations.     Funding   for
administrative     activities   associated    with closing     down CETA
was extended    until July 31, 1984.        At that point,     the larg-
est employment    and training     program   ever operated     in the
nation--S53.7    billion   expended    over a 10-year     period by 470
prime sponsors    and tens of thousands       of subgrantees--came       to
an end.

The closeout     of CETA has been a massive        effort   for both ETA
and OIG.     Because   CETA was the largest       employment   and train-
ing program     ever operated    in the nation,      it was necessary     to
devote   tremendous    audit resources     to ensure    the fiscal    in-
tegrity   of the closeout.       We believe,     however,   the audit
resources    have been well spent.        Within   the last year, ETA
has closed or settled       approximately     1,600 grant plans and
subparts;    OIG has forwarded     more than 700 audit reports         to
ETA for action;      and ETA has issued and OIG has reviewed
findings   and determinations      disallowing     inappropriate     expen-
ditures   of approximately      $85 million.      In addition,    the CETA
closeout   process    has resulted    in the voluntary      return of ap-
proximately     $50 million    in excess   cash by prime sponsors.

Throughout    this closeout     period,  we worked   with ETA offi-
cials by providing      them audit support     to ensure   that Federal
assets were properly       protected.    The results    of the joint
effort   clearly   demonstrate     that fiscal  responsibility    and
program   management    go hand in hand in the Department       of
Labor.    The coordination      and cooperation    between  OIG and ETA
staff was exemplary.

Our   active     advisory      strategy     for   CETA   closeout   included:

      --    ensuring  scheduled   audits of CETA prime   sponsors
            and subgrantees   were performed   and findings   proper -
            ly resolved;

      --   performing    phasedown reviews of 107 selected   prime
           sponsors   to identify  asset, liability,  and fund
           balances   for ETA's use in closeout;




                                          -3-
     --     conducting  special  CETA followup  reviews  at
            prime sponsors   with potentially  serious  closeout
            problems;  and

     --     conducting   audits  or   reviews   of any special
            situations   identified    during   the closeout   process.


Phasedown    Reviews

Our phasedown     reviews were designed       to identify    and verify
asset, liability,       and fund account    balances    of selected
prime sponsors     and their subgrantees.        Traditionally,
governmental     auditing   has been directed      exclusively    to
verification     of revenue    and expenditure     items.    However,
when closing    a major program,      revenues   and expenditures,
although   important,     do not capture    the necessary     accounta-
bility   required    to ensure   adequate   fiscal    information    for
closeout.     By using the asset/liability         approach,   we were
able to concentrate       on the money and receivables        grantees
owed the Federal      Government   as well as the funds the Federal
Government    owed the various     grantees.

We selected    107 sites for phasedown      reviews  which,    based on
known or suspected     problems,   posed the greatest      risk of
closeout   problems.    Although    the audit resources     expended   on
phasedown    reviews were significant      ($7 million),    the payoff
was exceptional°     As a result of our reviews,        ETA has dis-
allowed   and requested    repayment   of $16.6 million     from the
CETA grantees.

We discovered   the following     potential     problems   which   existed
during  our review:

    --      Ca__.  Prime sponsor   financial  reports   to ETA
            showed a total of $19o5 million    in cash balances
            which did not reconcile    to cash balances   shown on
            prime sponsor records   examined  on site°

    --      Indirect  Cost_°   Prime sponsor  records  showed        $23°5
            million  in potential   indirect costs which had         not
            been charged   to the Federal Government°

    --      Property.    $1.9 million   of CETA-purchased    property
            was either   unreported   or improperly   reported.

    --      _F_.             $37.8 million   in receivables was
            identified   which   should be turned over to the
            Federal  Government    at closeout.




                                -4-
     --      Payables.      $13.7 million in unliquidated  and
             unrecorded    prime sponsor payables   had to be
             addressed    prior to closeout.

     --      Audit Resolution.     $134.9 million    of prime §ponsor
             and subgrantee   audit findings   had   not yet been
             addressed.

     --      Other Potential Assets  and    Liabilities.   $13.7
             million had to be addressed     prior to closeout.


Additional     Reviews

Based on the     significant  findings  identified     in the   phase-
down reviews,     we extended  our audit work to:

     --      perform   followup   reviews at 52 prime sponsor    sites
             where   significant   problems affecting   closeout  were
             identified    during the phasedown   review and

     --      review a separate   sample of CETA balance    of state
             prime sponsors  since only a few such sponsors     were
             included  in the initial   phasedown reviews.

The reviews   covered   time periods    beyond   those included in
the phasedown    reviews,   in some instances     to the end of pro-
gram funding,    and identified    additional    amounts which we
believe  should be returned     to DOL.

The auditors     concentrated   on issues   raised during phasedown
but were alert to other instances        of improper    or unallowable
charges   to the CETA program.       We provided    ETA with immediate
audit feedback     on actions   taken by the prime sponsors      to
address   issues    raised in the phasedown     report affecting    pro-
gram closeout.       This enabled   ETA to issue more valid find-
ings and determinations.        ETA was, therefore,     able to satis-
factorily    resolve many audit findings      prior to closeout     of
the grants.

The additional      reviews also required      a significant   invest-
ment of resources       ($3 million);    however,   $I million  was re-
 turned while    the auditors    were on site and approximately
$46.5   million   in additional     assets and questionable     costs
were identified      for resolution     by ETA.    (Many of these re-
ports were in the process        of being issued at the end of our
 reporting   period and will not be reflected         in the tables
 shown in the appendix      to this report.)




                                  -5-
                     Job   Training      Partnership     Act

similar    to CETA, the purpose       of the Job Training    Partnership
Act (JTPA) is to provide         job training   to economically     dis-
advantaged     individuals    and individuals    with barriers    to
employment     to assist them in obtaining       productive   employ-
ment.    However,    unlike CETA where funds were granted         to
about 470 state and local units of government,             the Secretary
grants JTPA funds to 57 states          and entities   who distribute
funds to service      delivery    areas, thus giving    the states
greater   responsibility      and flexibility    than existed    under
CETA.    The increased     state role for JTPA has led OMB to
consider    JTPA a "block grant. "

Since JTPA replaced       CETA on October     i, 1983, we have con-
tinued to define      and implement     the Inspector   General's    role
in ensuring    fund accountability       and fiscal   integrity
throughout    the program.       In so doing, we examined     the Fed-
eral standards     for the administration       of block grants     and
concluded   they are ambiguous       and may unnecessarily      compli-
Cate and impair     grantee    accountability    for Federal    funds.
This important     issue impacts     on the administration      of all
Federal   grants.    For that reason,      we have included     a sepa-
rate discussion     of grant administration       issues   in Chapter    2
of this semiannual       report.

 We completed   and reported   on a major nationwide     review of
 cash management    as we continued   field research    into various
 other components    of the JTPA program.      This broad-based
 field research   will ultimately    target areas for other major
 OIG reviews.    From the cash management      review,  we are con-
 sidering  a new approach    to Federal   grantee   cash management,
which   we plan to study jointly     with ETA.


Inspector    General's     Role--JTPA     as   a Block   Grant

 Some s£ates   do not have a clear understanding        of the Inspec-
 tor General's   role in JTPA because      of the treatment     of the
 program   as a block grant.     Although   we explained    this role
 in:our previous    semiannual   report,   questions   continue   to be
 raised.    For this reason,    we recently    issued a policy paper
to ETA which    clarifies    the Inspector   General's    role in
 administering   JTPA.    The major points of our policy position
 are:

     --     The Inspector   General   Act and OMB Circular     A-73
            give the Inspector    General   the responsibility     for
            conducting  audits   of Federal   programs.




                                   -6-
       --    Audits   conducted   by the Inspector    General   will be
             nationwide    in perspective,    and the scope of the
             audits will go beyond financial       and compliance     into
             the economy,    efficiency,   and effectiveness      of oper-
             ations   including   reviews  of program    results.

       --    The Inspector   General   will oversee      financial  and
             compliance  audits   conducted  by the      states and
             review audits for acceptability.

       --   The Inspector    General   will be actively    involved  in
            audit   resolution   and followup   and will incorporate
            reviews   of internal    control  systems  into this proc-
            ess.

       --   The Inspector  General  will      continue    to   emphasize
            coordination  with ETA.


Cash    Management

Our recent    review of cash management       in the JTPA program
disclosed    that the U.S. Treasury      is incurring    substantial
interest   costs because     of additional    borrowing   as a result
of inefficient     cash management    practices    by JTPA grantees.
The review,    which was based on a statistical         sample of 19
states and 127 service       delivery  areas,    showed that the U.S.
Treasury   would incur $7.5 to $8.7 million          of additional
interest   costs during     the first year of the JTPA program
unless   conditions    change.

To make reviews    of cash management       practices    more efficient
and comprehensive,     we recommended     that ETA coordinate        with
other Federal    agencies    in reviewing    cash management       prac-
tices entitywide.      We also recommended       coordination      with
other Federal    agencies    to use techniques      contained    in
Treasury  regulations     that would    simplify    letter-of-credit
funding  through   consolidation     and centralization       within
Federal  and state agencies.                                      _    ....

ETA officials     agreed   that cash management     impr0vements     are
needed.    However,    they felt that only the Treasury         Depart-
ment should coordinate        activities  involving    multiple    Federal
agencies.     ETA officials     also noted that they cannot mandate
that states and service        delivery  areas adhere     to our recom-
mendations.      We believe,    however,  that states and service
delivery    areas, as well as other Federal        agencies,    are in-
terested   in improving     cash management    and would voluntarily
test new methods      to minimize    cash balances.      Such an ap-
proach to improving      cash management     is discussed    below.



                                  -7-
A Plan   for   Effective   Cash   Management

Our review of cash management       in the JTPA and other DOL
programs  surfaces   the question    as to whether    the current
Federal  approach   of attempting    to manage   cash held by
grantees  is effective°     Unnecessary    additional    interest
costs continue    to occur in spite of concerted       Federal
emphasis  on and monitoring     of cash management.

ETA and OIG have emphasized         the need for good cash manage-
ment by grantees      for many years.      In 1974, we issued an
audit report on nationwide         cash management    of State Employ-
ment Security     Agency    (SESA) funds disclosing     that SESAs
maintained    average    daily cash balances     of $54.8 million    re-
sulting   in interest     costs to the Federal     Government    of $3.5
million°     The findings     in this report increased      audit activ-
ityr program     agency monitoring,     and grantee    staff time devo-
ted to cash management.         The Treasury   Department    issued a
circular   requiring     that requests    for funds be timed to meet
current   needs so that cash on hand will be minimized.             How-
ever_ our recent      review of cash management       in the JTPA pro-
gram shows that the attempts         to manage   cash from the Federal
level have not been effective°

Although    ETA has done a great deal to institute            changes    and
make cash management      practices    of its grantees      more effi-
cient and effective,      we believe    that ETA and all Federal
agencies   are at a distinct      disadvantage     in attempting      to
manage   cash held by grantees°        Better   cash management      would
result   if the Federal    Government     placed this responsibility
on the party that has control         of the cash--the      grantee.
This can be accomplished       by providing     grant funds up front
to the grantees     discounted    by an appropriate      interest     rate
factor.    Discounting    interest    up front would provide        gran-
tees the incentive      to efficiently     manage   cash and penalize
only the grantee,     not the Federal      Government,     if cash was
not efficiently    managed°     Such an approach,       which is consis-
tent with New Federalism       and the block grant concept,          would
save substantial     interest   and administrative       costs.

The Deputy    Assistant  Secretary   for ETA has expressed    an
interest   in this approach    and has agreed   to join us in
studying   its feasibility°     Consideration   is being given to a
pilot study using JTPA grantees       on a voluntary   basis.    We
plan to submit our proposed      approach   to the Department    of
Treasury   official   who serves on the Joint Federal/State       Cash
Management   Task Force°




                                  -8-
Current   and   Future   JTPA   Audit    Projects

We are currently     reviewing  participant   eligibility   in the
JTPA program.     The review,   in a statistical    sample of 80
service delivery     areas, will determine    whether   the program
is serving   those individuals    whom the Act intended,     i.e.,
those persons    economically   disadvantaged    or with serious
barriers   to employment.

Concurrent    with the eligibility        review,   at the same loca-
tions, we are researching        three other components         of JTPA
operations    to determine    whether     audits of these areas would
be appropriate.       First, we are researching          the accuracy   of
the service    delivery    areas' classification        of costs.     Class-
ification   of costs is important        because    of certain    restric-
tions on costs imposed       by the Act.       For example,     the Act
limits a maximum      of 15 percent     of funds for administrative
costs.    Second,   we are researching        service   delivery   area
training   contracts    to service     providers    to gather    informa-
tion regarding     the cost effectiveness         of such contracts.
Third, we are reviewing        service   delivery     area operations     to
determine   whether    there is an adequate        separation    of duties
to minimize    fraud and abuse in financial           operations.


                                 Job    Corps

The Job Corps provides        programs    of education,    vocational
training,   work experience,       and counseling     to disadvantaged
youth aged 16-21.        The program     is designed   to assist young
individuals    who need and can benefit         from an unusually
intensive    program,    operated   in a group setting,       to become
more responsible,       employable,    and productive    citizens.
Funding   for Fiscal Year 1984 was approximatly            $600 million.
In the previous     semiannual     report, we reported      the results
of an extensive     series of audits of the Job Corps program
which emphasized      Job Corps'     intake and placement      process   for
corpsmembers     and center operations.         The audits    identified
major deficiencies       and significant     problems   in the operation
of the Job Corps program.          However,    at the time of our last
semiannual    report,    ETA had not responded       to our recommen-
dations   to improve     internal   controls    and management     systems.

ETA has taken positive    actions    to address    the problems
identified  in our prior reviews.       Additionally,     ETA has
agreed to study the feasibility       of alternative     approaches   to
Job Corps problems   including    increasing    linkages   between   Job
Corps and JTPA.    We are continuing     reviews    in Job Corps
which will assist management      in improving    the economy    and
efficiency  of the program°



                                   -9-
Job   Corps _ Response   to   Past   Recommendations

Job Corps management     directed    their regional    directors   to
devote  special  attention    during   the annual    center  reviews  to
the following   operational    and managerial     problem   areas that
OIG found to be prevalent      in Job Corps nationwide:

Center   Operator    Procurement  -- OIG recommended     that Job
Corps refine     their on-site   monitoring   procedures    to identify
procurement    weaknesses    on an ongoing   basis.   Job Corps will
now be reviewing      contractor  compliance   with specific    pro-
curement    requirements°

Center   Financial    Management    -- OIG recommended    that Job
Corps  establish     more effective     monitoring  of the centers'
financial    management    activity.     To the extent permitted    by
the technical     expertise    available    to the teams conducting
annual   center   reviews,   Job Corps will examine      the adequacy
of supporting     documentation     for financial   transactions   and
accuracy   of financial     reports    and records.

Contractor    Personnel   Standards   -- OIG recommended   that Job
Corps   perform   ongoing  reviews   of the contractors'   compliance
with the professional      and managerial   staff qualifications
 stipulated   in their contracts.      The annual   center reviews
will include    an examination     of staff qualifications    to
ensure    that contract   terms are being met°

Corpsmember  Services  -- OIG recommended      that Job Corps moni-
tor the delivery   and documentation    of services     provided   to
corpsmembers  by center operators.      Annual   center    reviews
will focus on the timely    provisions   of services     as well as
the adequacy  of documentation    maintained°

Government    Transportation     Requests    (GTR), Enrollee    Meal
Tickets,    and Living   and Readjustment      Allowances     -- OIG rec-
ommended   issuance    of specific    internal    control  procedures    to
improve   the fiscal    accountability     for these services.       Job
Corps incorporated      these   recommendations     into their annual
center   review process     and issued    requirements    for center
operators    to improve    internal   controls   over the issuance,
security,    accountability,     and return    of unused forms.

Outreach,    Screening_    and Placement    -- OIG made a series of
far-reaching     recommendations    dealing   with both the intake
and placement     process   for corpsmemberso      Job Corps has taken
limited   corrective    action through    instructions    to the field
and agrees    with OIG that the problems       detected  by our audits
can only be solved by systemwide         improvements   as discussed
below.



                                 -I0-
 Need   for    Systemwide   Improvements

  OIG concurs    with the corrective      actions    taken by Job Corps
  to the extent     that these will focus attention          on the specif-
: ic issues    raised in our audits.       However,     the magnitude    and
  complexity    of the problems     facing the program,       especially    in
  the areas of providing       outreach,   screening,      and placement
  services   for corpsmembers      and improving     fiscal   accounta-
 bility,    transcend   the recommendations       made by OIG and the
 corrective     actions   taken to date by the Job Corps Director.
 'We believe    that ETA must go beyond       revisions     to the annual
  center   review process     and develop    a mechanism     for the
  exchange   of ideas related      to basic substantive       changes   in
  the structure     of the program.

 As a forum for this exchange       and to overcome    significant   Job
 Corps staffing     and technical   background  limitations,     we have
 recommended    that a Job Corps Study Committee       be established
 to analyze   Job Corps'    fiscal accountability     and program
 delivery   problems.    The Deputy   Assistant   Secretary   for ETA
 has our recommendation      under advisement.

  In particular,     we are interested      in research     into the poten-
tial    economies    to be gained     through    establishing    linkages
  between   Job Corps and JTPA service         providers    for the deliv-
  ery of Job Corps services.          The Job Training      Partnership    Act
  encourages    such linkages     between   Job Corps and entities        ad-
  ministering    programs    under JTPA.      Developing    these linkages
  may possibly     resolve many of the fiscal accountability            and
  service   delivery    problems   surfaced    in our audits.       It will
  also integrate     the Job Corps program        more completely     into
  the nation's     primary   training   vehicle,     the JTPA system.


 Current      Initiatives

 In an effort    to provide     further   information     to Job Corps,      we
 are currently     performing    financial    and compliance      audits at
 a sample of 44 Job Corps centers.            Because    of the reduction
 in the amount of funds available          for contract      audits and to
 provide   the same level of audit coverage           as in the past, we
 are using statistical       sampling    techniques    on these financial
 and compliance     audits   to reduce audit costs by $3 million.
 (For a discussion      of the use of advanced        audit techniques,
 see page 53.)      These audits will emphasize:           (i) followup    to
 prior audit recommendations;           (2) the GTR and living        allow-
 ance payment    process;    and (3) the contractor         property   man-
 agement   system.     We are also reviewing       the eligibility      de-
 termination    process    for active    corpsmembers.




                                    -ii-
                             National     Programs

              Indian   and    Native   American   Program   and
             Migrant   and    Seasonal   Farmworkers    Program


 The purpose    of the Indian and Native       American    Program   is to
 provide   job training    to economically     disadvantaged     and un-
 employed   Indian and Native      American   persons.     The Migrant
 and Seasonal    Farmworkers    Program   provides   those same oppor-
 tunities   to migrant    and seasonal    farmworkers    who are unem-
 ployed   or underemployed    in the agriculture       industry.     In the
 past, the services     offered    in these programs     have been pro-
vided    by grantees   funded   under the CETA program.         Most of
 these same grantees     will continue      to provide   many of these
 services   under JTPA.

As a part of our ongoing         audit work, we have audited        the
 Indian and Native      American    grantees   and the migrant     and
seasonal    farmworker     grantees   and worked with ETA to resolve
these audits.       We conducted     42 audits totaling      $78.8 million
audited   with $6.0 million       in audit exceptions.        ETA has
taken quick action to resolve           these audits and to reduce
weaknesses     that result     in questioned    costs.    One of these
actions    includes    developing    financial    management   training
and technical      assistance    for grantees°

Because   we see this as a major prevention         effort and a ser-
vice to the grantees,       we are working    closely  with ETA in
developing    the training    and technical    assistance°     The
training   will consist     of workshops   and on-site    visits   to
selected    grantees.    We are in the process      of reviewing    in-
formation    contained    in our audit reports and ETA's moni-
toring reports      so that we can identify     common problem
areas.    We are also soliciting      grantee   suggestions    on areas
they believe     should be covered    in the training°


                  Unemployment       Insurance       Program

The Unemployment    Insurance     (UI) program   is a unique Federal-
state partnership    established     under the Social Security
Act.   Under this Federal-state       system,   each individual    state
has developed   programs    that are adapted     to conditions   pre-
vailing within   its jurisdiction.        As a result,   no two state
laws are alike.     The UI program     is administered    at the state
level by State Employment       Security   Agencies  in the 50 states
and three other entities       (the District    of Columbia,   Puerto
Rico, and the Virgin     Islands).     Throughout   this report,    the
term "state agency"    refers to the 50 states and the three
entities.


                                   -12-
In Fiscal Year 1984, about $16.4 billion        was paid in state
unemployment   benefits   and Federal-state    extended   benefits.
State agencies    collected   about $19 billion    in unemployment
insurance   tax revenues,    and the Department    of Labor advanced
about $3.9 billion     of Federal   funds in loans to states.

 During this period,   we have continued   our efforts    to promote
improved   economy  and efficiency   in the UI program.     An ETA/
 OIG task force was established    to address   major problems    we
 have identified   in the UI system.    We consider   this task
 force another major   step toward improved    fiscal  integrity    in
 the UI program.

We recently   issued a report identifying     improper   unemploy-
ment benefits   paid to employees   of seven Federal     agencies.
We believe  this report will serve to promote       improvements   to
Federal  and state controls   over unemployment     benefit   pay-
ments.   We also have underway    several   initiatives   designed
to further  enhance  the fiscal   integrity   of the UI system.


Joint     ETA/OIG   Task   Force

The Inspector    General   and the Deputy Assistant         Secretary    for
ETA jointly    announced   the establishment      of a task force to
pursue   implementation    strategies   for correcting       weaknesses
which were identified      in recent audit reports.          These re-
ports, discussed     in our prior semiannual        report,    identified
substantial    internal   control   deficiencies     and management
practice   inefficiencies     in the states'     operation    of several
major components     of the UI program.       The task force is ex-
pected to develop     options   for resolution     of these long-
standing   issues   including:

     --      Cash management--reducing     the loss of interest
             earnings   in the Unemployment    Trust Fund due to
             inefficient   cash management    practices.

     --      Reimbursable    employer   system--relieving     the
             financial   burden   on the Unemployment     Trust Fund
             resulting   from favored    tax treatment    given to
             certain   non-profit   employers   and state and local
             governments.

     --      Status determination--taking     advantage of various
             techniques  available   for states to identify
             employers  liable for UI tax.

     --      Field audit programs--improving    ineffective  state
             programs  to audit employers'   UI tax returns.



                                   -13-
     --    Delinquency    controls--strengthening         procedures     for
           handling   delinquent   employer   tax     accounts.

     --    Solvency--evaluating         the   adequacy  of current     tax
           and benefit   structure       to   ensure Unemployment      Trust
           Fund solvency.

We are optimistic  about the opportunity   which           this task
force offers to increase   economy, efficiency,            and the fiscal
integrity  of the UI system.


Improper   UI   Payments   to Federal     Employees

We completed    our review,    discussed   in our prior semiannual
report,   matching   Federal   payroll   information  against   unem-
ployment   benefit   payments.     The review utilized    computer
matching   methods   promoted   by the President's    Council   on
Integrity    and Efficiency.      Our objective   was to determine
the extent of overpayment       and claimant    fraud in the payment
of UI benefits     to Federal   employees.

We matched    payroll    information     for eight participating       Fed-
eral agencies     against    unemployment     benefit   payments   in 14
states for the period October           4, 1980, through     October   2,
1982.    Participating     Federal     agencies   were the Departments
of Agriculture,     Commerce,     Health    and Human Services,      Inte-
rior, Labor, and Treasury          (including    IRS); the Tennessee
Valley   Authority;    and the Veterans       Administration°      Partici-
pating states were selected          based on the number of total and
seasonal    employees   of participating        Federal  agencies.

The review    identified    potential   overpayments   of $609,361    for
1,137 Federal     employees    in seven of the agencies°       (The
Treasury   Department    elected    to review their employees     inde-
pendently.)     Included    among these overpayments     were 166
cases totaling     $79,889   for the Department     of Labor.    Over-
payments   were primarily      caused by claimants'    failure   to
report their earnings       and severance    payments  to the state UI
offices.

The report was supplied      to the participating      state agencies
to validate    the potential    overpayments   and make declarations
of overpayment     where appropriate.      The report was also pro-
vided to the Inspectors      General   of each participating      Fed-
eral agency to ensure     that appropriate     administrative     or
prosecutive    action is initiated.       These actions   will be co-
ordinated   with the Department      of Labor   Inspector   General.

To prevent or detect  such UI overpayments,  we recommended
that ETA strengthen  requirements  for timely and accurate


                                 -14-
completion    of the states u Request    for Wage and Separation
Information     (ES Form 931)o    We also recommended     that each
Federal   agency perform    a quarterly    review comparing   payroll
information    to the detailed    claimant   billing  information.

For these recommendations      to be fully effective      in reducing
the UI overpayments,      all Federal  agencies   should adopt these
administrative     and program  changes.    We have, therefore,
recommended    that ETA seek the appropriate      changes   in the
regulations    governing   the UI program°


Current   Initiatives

In our continuing      efforts    to improve   the effectiveness     and
fiscal   integrity    of the Unemployment      Insurance   program,   we
are currently     reviewing    the UI tax experience      rating system
and the Federal     share of the UI program.         Also, we are
developing    with our Office of Investigations          a statistical
model which profiles       employers    and claimants    to identify
fraud or internal      control    deficiencies   in the program.

Experience    Rating   -- Federal   law requires   each State to tax
employers   based on a system which levies the unemployment
insurance   tax in direct     relation   to the extent    of unemploy-
ment experienced      by employees   of individual    employers.     The
objectives    of an experience     rating system are to equitably
allocate   the costs of benefits       and to stabilize    employment
through   active employer     participation   in the eligibility
determination     process.    Our survey work indicates the       amount
of benefits    charged   through   experience  rating varies     sub-
stanially   among states.

The objectives     of our current     review are (I) to develop     an
index to accurately     measure    the degree of experience     rating
in all states and (2) to determine          the effect that the de-
gree of experience     rating has on both the equity of the tax
distribution    and employer    participation    in eligibility   de-
te rmi nati on.

Federal   Share of Unemployment        Insurance   Program   -- We are
currently    reviewing    the Federal    share of the UI program.
This share is comprised        of benefits    paid to ex-Federal       and
ex'military    personnel,     the Federal    portion   of the state
Extended   Benefits    programs,    and benefits     originating    from
the federally     funded Federal     Supplemental     Compensation     and
CETA Public Service       Employment    programs.     Our objectives     are
to determine     the validity,    timeliness,     and accuracy     of the
charges   reported    to the Department      of Labor.     We will also
determine   the accuracy      of the chargebacks      from the



                                  -15-
Department      to    the Federal   agency   whose   former   employees
collected      the    benefits.

Ultimately,     we plan to assess the adequacy     of the Depart-
ment's Governmentwide      system of controls    to ensure  that
Federal   agencies   provide   timely_ accurate,   and complete
claimant    information   to states for use in determining      bene-
fit entitlement.

Unemployment     Insurance    - Statistical      Model -- During      this
6-month   period,    we initiated     a project     to develop    a statis-
tical model which could be used by both audit and investi-
gations   to isolate     problems    in the Unemployment       Insurance
program.     This model operates        to identify    profiles     (average
characteristics)      of employers     and claimants°       Large statis-
tical deviations      from the average       may potentially      identify
fraud or internal      control    deficiencies      in the program°       For
example,    the model has the potential          to identify    nonexistent
(fictitious)     employers.     At the present       time, the model      is
undergoing    extensive    field testing.        The results of this
testing   will be incorporated        into the model and a second
field test will be initiated          during    the coming   6 months°
(See page 53 for a discussion          of advanced     audit techniques°)


DEPARTMENTAL         MANAGEMENT

The Assistant   Secretary   for Administration      and Management    is
responsible   for providing    leadership   and oversight     to the
Department   on administrative     and management    issues,   such OMB
initiatives   as Reform   '88, and implementation      of OMB Circu-
lar A-123 and the Federal      Managers'   Financial    Integrity  Act°

Reform   '88 refers to a set of activities,           initiated    by the
current   Administration,      that are aimed at instituting          last-
ing reforms    in the management       and administrative      processes
of the Federal     Government.      Closely   related to Reform       _88
are two internal      control   initiatives:      OMB Circular     A-123_
Internal   Controls,    and the Federal     Managers v Financial       In-
tegrity   Act.   Both require      that agencies     establish    effective
systems   of internal     controls   to safeguard     resources;    ensure
the accuracy    and reliability      of information;      ensure   adher-
ence to applicable      laws, regulations      and policies;     and pro-
mote operational      economy   and efficiency°

In line with assisting        the Department     in Reform   '88 and
internal    control    initiatives,   OIG performed     reviews  in four
major   areas:     (i) cash management;      (2) debt collection;
 (3) procurement;     and (4) ADP management°        We also continued
our efforts     in reviewing    corrective    action on internal     con-
trol weaknesses      and audit issues°     We issued letter      reports


                                    -16-
on travel     management  and   external  billings    and   financial    and
compliance     audit reports    on contracts°


                            Cash   Management

As outlined     in the previous    semiannual   reports   we partici-
pated in a Governmentwide       project   sponsored   by the Presi-
dent's   Council   on Integrity    and Efficiency    (PCIE) and coor-
dinated   by the Inspector    General    of the Department    of the
Treasury    to:

     --      determine   whether   the Federal    Departments   have
             efficient    and aggressive   cash collection     and
             deposit   programs,   including   appropriate    internal
             controls,    for the prompt deposit      of all cash
             receipts   into the U. So Treasury     and

     --      calculate   the extent of imputed interest   lost
             because   of current  collection and deposit
             procedures.

The perspective   of this review was from the Federal     level,
whereas  our review of cash management     discussed earlier
under the Employment   and Training   Administration  in the JTPA
program  was from the grantee   level°

Our review was performed      in the Office      of the Assistant  Sec-
retary for Administration      and Management      (OASAM) and in the
National   Office and several     regional    offices  of the Employ-
ment Standards   Administration      (ESA), Employment    and Training
Administration    (ETA), Mine Safety      and Health Administration
 (MSHA), Occupational    Safety and Health Administration
 (OSHA), and Office   of the Solicitor       (SOL)o

Our review showed that during        Fiscal Year 1983 inefficient
deposit   practices   and internal    control   weaknesses     in cash
collection    and deposit   procedures    resulted    in an imputed
annual   interest   loss to the Treasury      of $286,000°       In ad-
dition,   we concluded    that potential    annual    interest    savings
of approximately     $465,000,   subject   to cost benefit      analyses,
could be realized     by converting     to alternative     deposit   mech-
anisms,   such as lock boxes and electronic         funds transfers
 (wire transfers),    and by implementing      improvements     in cur-
rent cash deposit     practices.     Also, we identified       various
internal   control   weaknesses   in ESA, ETA, and OSHA and recom-
mended   that these Agencies:       (i) revise    current   procedures;
 (2) implement    a cash receipts    and deposits    monitoring     sys-
tem; and (3) adhere      to departmental    regulations     and proce-
dures.



                                   -17-
 The Department     took aggressive    corrective   actions   during our
 review   to improve    internal  controls   and current    cash deposit
 practices   and. made significant     progress   in converting    to
 lock boxes.     Specifically:

 :         --       ESA converted    to lock boxes in the Division     of
                    Longshore    and Harbor Workers'   Compensation   and the
                    Division   of Coal Mine Workers'    Compensation   which
                •   should   realize  an annual  interest   savings  of about
     _..            $220,000°

           --       ETA  instituted   more timely cash deposit        practices
                     at the regional    office   level which   should    realize
                     an estimated   annual   interest  savings   of $118,000o

 Further, ' the Department      is currently    analyzing   the feasi-
 bility  Of converting      to alternative     cash deposit   mechanisms
 in all ,other Agency     programs°     This could result      in an addi-
 £ional   annual   interest    savings  of up to $127,000o       Cost
 benefit ,analyses are being performed          in each program     to de-
 termine   whether   conversion     to alternative    cash deposit mech-
 anisms  are warranted      considering    potential   annual   interest
 savings and costs of conversion°


                                    Debt   Collection

One of the major     initiatives   of Reform   '88 is the aggressive
and rapid collection      of all debts due the Federal     Govern-
mento    The enactment    of the Debt Collection     Act of 1982 and
the subsequent    issuance   of the Federal    Claims Collection
Standards   by the U.S. General     Accounting   Office  and the
Department   of Justice    further  emphasize   the major signifi-
cance of the outstanding      debt problem°

 As of March 31, ETA reported       outstanding    receivables    total-
 ing $245.million      (43 percent  of the departmental      total) of
 which   $242 million    was classified   as delinquent     or in the
appeals    process    (77 percent  of departmental     total)o    Because
 of the significance      of the ETA receivablesF      we performed    a
 followup    review on the debt collection      findings    contained    in
 our August    1983 report on ETA's audit resolution         and debt
 collection    practices°

Our followup   review disclosed    that ETA has significantly
streamlined   its debt collection     operations   and is aggres-
sively collecting    debts owed.    However,    ETA needed  to im-
Prove its debt collection     tracking    systemo   We found a gap
of approximately    18 months  between    the time the third demand
letter was mailed    to a debtor   and the time the debt again
came up for action    on the internal     debt management   report°


                                           -18-
At the end of the 18-month       period,   collection    actions,  in-
cluding   referrals   to the Department      of Justice,   were resumed
on a systematically     controlled    basis.    The result was that
the debt cases that did receive        attention    were often re-
stricted   to those grantees     and contractors     who were seeking
additional    Federal  funds°

We recommended     that the internal     debt management     report be
modified   to include     followup  actions  taken after the third
demand   letter.    ETA agreed with our recommendation         and took
action   to implement     this change   to ensure that•all     outstand-
ing debts,    including    those for which    three demand letters
have been issued,      will be systematically      controlled    and fol-
lowed up through     final collection     and disposition.

In addition    to our work in ETA, we are reviewing         the debt
collection    activities    of ESA's Black Lung Program,       ESA's
Federal   Employees'    Compensation    Act Program,    and the Occupa-
tional Safety     and Health Administration.        As of March 31,
these Agencies     had total outstanding      receivables   of approxi-
mately   $183 million     (32 percent   of the departmental     total)
of which $51 million       was classified   as either delinquent       or
in the appeals     process    (16 percent  of the departmental
total) .

We plan a subsequent      review of the debt appeals      process   at
the Solicitor's    Office   and the Administrative     Law Judges'
level.   These reviews     are essential   because  program    agencies
lose control   over multi-million     dollars   of receivables     once
they are appealed.


                                 Pr ocu rement

Fiscal   Year 1984 was a time of significant        •progress for the
Department    in meeting   the Reform    '88 goal for achieving     ef-
ficient   procurement    operations.     This progress   was made
through   the joint efforts     of departmental    management   and the
OIG, characterized     by close and continuous      liaison,   coordi-
nated projects    and workplan     development,   and positive   re-
sponses   to identified    problems.

During   Fiscal   Year   1984,    the    Department's       Procurement•Exec           -
utive:

    --     arranged   for legal         support     services   for __           ••_
           procurement   ;
    --     initiated   increased         emphasis     on   contract       adm_inis -
           tration;                                                   •




                                    -19-
       --      implemented       the       Federal       Acquisition        Regulations
               (FAR) ;

       --     initiated   a program   for                training     and    certifying
              procurement   officials;

       --     initiated   a program               for    consolidating        procurement
              activities;   and

       --     initiated  actions   which will culminate                        in the Pro-
              curement  Executive's    initial year-end                       certification
              of the adequacy    of the DOL procurement                        system.

During      this    period,     we    issued       reports    on    the     following:

       --     Cost    Allocation           Plans    and    Indirect       Cost   Rates

       --     The    Effectiveness           of    the    Procurement        Review   Board

       --     Year-End        Spending


Cost    Allocation       Plans       and    Indirect       Cost    Rates

We reviewed  a sample of indirect      cost proposals  and cost
allocation  plans submitted     to the Department's   Office  of
Cost Determination     (OCD) during  the period October    i, 1981,
through August   31, 1983, to determine     the Department's   vul-
nerability  in this area.     Two of the reviews were requested
by OCD, and two were proposals      and plans which had been
previously  negotiated    by OCD.

Our review showed that improved       departmental    processing   and
more audits   could result    in potential   savings   to the Federal
Government.    The following    table shows grantees      reviewed  and
the estimated   indirect   cost savings    to the Federal
Government  consisting   of (i) unallowable      expenses   contained
in the indirect    cost pools;    (2) inappropriate    allocation
bases; and (3) duplicative      charges   to Federal   programs:




                                            -20-
  ......              Potenti_l     Indirect      Cost   Savings

                                                                   Federal
Grantee                                                            Savings   i




City of Detroit
   Employment   and Training   Department                     $ 8,570,242
Florida   Department   of Labor and
  Employment    Security                                           2,820,663*
City of Cleveland                                                    821,071
Pinellas   County                                                    647,209*

Totals                                                        $12,859,185


* Negotiated    by     OCDo



In previous   audit reports,    we had recommended      for disallow-
ance $9°8 million     of costs charged     by the City of Detroit
during Fiscal    Years 1977 through     1981 which we believed
could possibly    be recovered   through    an indirect    cost rate.
In response,    the City of Detroit     submitted    an indirect    cost
allocation   plan and an indirect     cost rate proposal       for Fis-
cal Year 1980 totaling      $14 million    to offset   the $9.8 mil-
lion in disallowed     costs.   We found that only $1.3 million
of the $14 million     proposed  was allowable°       Therefore,    the
potential   savings   of $8°5 million    for the City of Detroit
shown in the table above represent         the $9o8 million     in dis-
allowed costs minus the $1o3 million         of allowable     indirect
costs for Fiscal Year 19800


The   Effectiveness      of   the   Procurement      Review   Board

We performed    an audit of the effectiveness        of the Procure-
ment Review Board     (PRB) in complying     with departmental     pro-
visions   and in promoting    competition.      PRB, an independent
panel of high-level     departmental    officials,    advises   the As-
sistant   Secretary  for Administration      and Management     and is
responsible    for reviewing   the Annual Advance      Procurement
Plans and certain    specified    proposed   purchases.     During Fis-
cal Year 1983, PRB reviewed       189 proposed    grants and con-
tracts estimated    to cost $148.2 million.

Our review showed that PRB generally      followed   departmental
guidelines   during its reviews.     Its denial  of proposed    non-
competitive   procurements  resulted   in procurement    avoidance
or competitive    contracts which  saved the Department      an


                                      -21-
estimated    $2.4 million.        However,    we found that the fol-
lowing   procurements      were not being submitted         for PRB
review:     (I) expert witness        contracts,     (2) Job Corps con-
struction    contracts,     and (3) proposed       procurements    by the
National    Occupational      Information     Coordination    Committee,    a
non-Department      entity    which    relies on the Department      to
process   its procurement        transactions.      We also found that
PRB needed     to improve     its documentation       of the reasons    why
it approved     noncompetitive       procurements.

The Department   agreed   with     our    recommendations      and   took   im-
mediate  corrective   action.


Year-End   Spending

During   this period,   we issued a final report on the results
of Fiscal Year 1983 year-end       spending  for the Employment  and
Training   Administration    (ETA).    Our review showed that ETA
was complying    with year-end    spending  requirements.


Projects   in   Process

We have a number    of procurement         reviews  in process  to meet
OIG's continuing    responsibility         for evaluating   the Depart-
ment's  implementation    of Reform        '88 initiatives.    These
reviews  include:

      --   evaluating    the Job Corps'   compliance          with the new
           ETA/Job   Corps procurement    procedures          in awarding
           contracts    for center  operations;

      --   reviewing      procurement staff qualifications    to
           determine      if they meet departmental   standards;

      --   evaluating   cost allocation    plans       and indirect   cost
           proposals  submitted    by state and        local entities
           that receive   departmental    funds;

      --   evaluating   the Office of Cost Determination's     ac-
           tivities   to determine  that cost proposals   result   in
           reasonable   and fair costs to the Federal   Govern-
           ment; and

      _-   evaluating   the Department's         compliance     with Federal
           and departmental    guidelines        on leasing     and purchas-
           ing of equipment.




                                   -22-
We will continue  to work closely   with departmental   manage-
ment in its efforts  to improve   the quality  of procurement
activities.


                            ADP   Inventories

Because   of concerns     raised by the Grace Commission        and Con-
gressional    committees,     we continued   to monitor    the Depart-
ment's  management     and oversight    of ADP.    We completed    a ver-
ification    of the Department's      inventories    of ADP resources
and found the inventories        of hardware,    software,    and infor-
mation   systems   to be inadequate.

Our review was performed       to determine   the accuracy   and use-
fulness   of the inventories     and to ensure    that the invento-
ries conform    to Federal    requirements.    We performed   physical
inventories   of ADP equipment      and verified   software  and ADP
systems   in the Bureau    of Labor Statistics      (BLS) and the Em-
ployment   and Training    Administration    (ETA) in Washington,
Philadelphia,    and San Francisco.

We found that the three inventories          did not present     an accu-
rate or adequate     listing    of the Department's    ADP resources.
None of the three inventories         contained   a total listing    of
DOL ADP resources,      and the hardware     inventory   contained    in-
accurate   information.      Almost   60 percent   of the equipment
identified   in our physical      inventory    of ETA and BLS hardware
resources   was not listed      in the DOL inventory.       For example,
we identified    1,050 hardware      items for BLS, while      the De-
partment's   inventory    only contained     381 items.

Although   the development      of the inventories      represents     an
initial   positive    step by the Department       toward management       of
its ADP resources,       the inventories    do not meet management's
needs to effectively       control  the acquisition,       maintenance,
and disposition     of ADP resources.       Each inventory       is missing
data elements     important    for effective    decision-making,       such
as location,    resource    life expectancy,     and responsible       offi-
cials.   Without    these elements,     the inventories       do not meet
current   Federal   ADP inventory     requirements     due to the lack
of required    data elements.      More work is needed        before   the
inventories    can be relied upon to provide          complete    and accu-
rate information.




                                   -23-
We recommended  that     the    Assistant       Secretary     for   Administra-
tion and Management:

     --    develop  a plan with documented    procedures   which
           contains  the methods    and time schedules   for estab-
           lishing  accurate   inventories  and maintaining    them
           on a current   basis;

     --    evaluate   the inventories   on a regular basis to
           determine    if management's  needs and Federal
           requirements    are met by the types of data being
           gathered;

     --    communicate    to each Agency          the    purpose    and    planned
           use of the    inventories;

     --    issue complete  written  instructions   and definitions
           to each Agency and office    on the information   to be
           compiled  for each inventory;

     --    direct each      Agency  to reverify  the          information  in
           the current      inventories  and revise           them accord-
           ingly;

     --    review Agency   submissions           for    reasonableness          of   the
           data submitted;   and

     --    verify  physical  inventory  data on a sample basis                        to
           confirm  the accuracy   of the information  submitted
           by the Agencies°

OASAM concurred    with our recommendations      and advised  us that
the revisions   to the inventories     are in process    but will not.
be completed   for another    2 years°    We responded   to the As-
sistant  Secretary    for Administration    and Management   that
this recurring   weakness    in management   of the Department's
ADP resources   will have to be reported       to the Secretary   in
the year-end   internal   control   reports until corrected°


      Internal   Controls      and   the    Financial     Integrity       Act

We are continuing     to work closely     with the Department      to en-
sure adherence     to OMB Circular    A-123   (Internal   Controls)   and
the Federal    Managers _ Financial     Integrity   Act°    All of our
reviews   underway   or planned    are specifically     designed   to
evaluate   internal   control   weaknesses_    especially    those iden-
tified   in Agencies'    internal   control   reports°




                                     -24-
We are currently     following   up with all the Agencies     to de-
termine whether    weaknesses   and corrective   action identified
in their Fiscal    Year 1983 reports have been corrected        and/or
will be included    in Fiscal Year 1984 Internal      Control   Re-
ports.   We will again be assisting      the Secretary    in His
yearend  certification     by assessing  the adequacy    of the
Agencys'  reports to the Secretary°


                                    Other

During this reporting   period,   we issued letter     reports on
the following:    (i) ILAB Travel   Office;    (2) Travel Agent
Billings;  and (3) External   Billings.     We also issued nine
financial  and compliance   audit reports on contracts       awarded
by the OASAM Office of Procurement.


Travel     Office

During an audit of the Department's        lease versus purchase     of
equipment  practices,   we noted that the Bureau       of Interna-
tional Labor Affairs     (ILAB) was leasing     an airline  teletic-
keting machine.     In addition,   ILAB had three staff assigned
to this office   at a total annual cost of approximately
$75,000.   Many of the activities     performed     by the ILAB of-
fice could be performed     by the GSA contract      travel agent
that is serving   the rest of the National       Office.   We recom-
mended that ILAB discontinue     operating     its own travel office
and that the Office of Personnel       evaluate   the justification
for the three positions.

ILAB concurred    with our findings   and is now using the con-
tract travel agent.       Two of the three positions   were elimi-
nated and the staff reassigned      as of October   1 to vacant
positions  within    ILAB.   Total recurring  savings will approx-
imate $56,000 per year.


Travel     Reviews

We evaluated  the Department's   internal   controls for proc-
essing bills submitted    by the travel   agent under contract   to
DOL in Washington,   D.C.   Our review  showed internal   controls
over travel were adequate.


External     Billings

We evaluated        the OASAM Chicago   Regional  Office's   procedures
and controls        over external  billings   in complying   with the


                                   -25-
Prompt Pay Act.    Our review disclosed that the region            was
not processing  payment  of bills in a timely manner.

Based upon our review, we estimate      that 63 percent  of all
invoices   paid in Fiscal Year 1982 were paid after the due
date and 25 percent    of all invoices   paid would be subject   to
a late interest   penalty.    The Prompt Pay Act requires   an in-
terest penalty   for invoices   not paid within   15 days of their
due dates.

We recommended     that management     (i) ensure   that adequate
written   procedures    for processing    invoices    and taking dis-
counts are prepared      and followed;     (2) ensure    that invoices
are received    and processed    timely;    and (3) pay interest     when
required.     The Regional   OASAM agreed with our recommenda-
tions and took action to revise the procedures             for proc-
essing invoices     and to ensure    that invoices     are processed
timely   including   paying a penalty     when required.


Financial     and   Compliance   Audits

We issued     nine financial    and compliance    audit reports   on
contracts     totaling   $4 million  awarded   by the Office    of Pro-
curement.      Questioned   costs totaled    $44,854.


EMPLOYMENT     STANDARDS    ADMINISTRATION

The Employment   Standards    Administration       (ESA) is composed    of
three offices:     the Office    of Workers'     Compensation    Programs
 (OWCP), the Wage and Hour Division         (Wage and Hour),     and the
Office  of Federal   Contract    Compliance    Programs    (OFCCP):

     --      OWCP administers    three laws providing     compensation
             and medical   benefits,  primarily    for on-the-job    in-
             juries and occupational     diseases,   to civilian    em-
             ployees   of the Federal  Government,    coal miners,    and
             longshore   and harbor workers.

    --       Wage and Hour enforces      minimum  wage and overtime
             standards,    establishes   wage and other standards   for
             Federal   contracts,    and enforces  aspects of other
             employment    standards   laws.

    --       OFCCP administers     an Executive   Order and portions
             of two statutes    which prohibit    Federal  contractors
             from engaging    in employment   discrimination    and
             which  require   affirmative   action to ensure equal
             employment   opportunity°



                                   -26-
We have been active   in OWCP's    Federal   Employees'   Compensa-
tion Act (FECA) program    in supporting     much needed    regulatory
reforms.   We are monitoring    the development     and implementa-
tion of a new ADP system.     We have also included       in this
report the results   of an important     Department    of Defense
audit of their FECA management      and of crossmatches      made of
FECA records with records    of the Office      of Personnel    Manage-
ment and the Tennessee   Valley   Authority°

In OWCP's Black Lung program,      we assisted    OWCP in resolving
the amount of reimbursements      to be made to the United Mine
Workers  of America   Health   and Retirement    Funds from the
Black Lung Disability     Trust Fund and audited      medical  bill
payments  which   are processed   by a contractor     for ESAo   We
will soon become involved      in the Longshore    and Harbor Work-
ers' Compensation    program   in assisting   with implementation
of new legislation.


            Federal   Employees   ' Compensation    Program

The Federal   Employees'    Compensation     Act (FECA) is the sole
form of workers'    compensation     available    for Federal    employ-
ees who suffer    on-the-job    injury    or occupational   disease.
The Department    of Labor is responsible        for administering     the
Act, but all Federal     employing     agencies   including   the Office
of Personnel   Management    and the Office      of Management    and
Budget  influence   how effectively       it is implemented°

To administer    the FECA Program      for Fiscal Year 1985, ESA has
requested   a nationwide     stlaffing level of 928 and a budget of
$46.9 million.      The request for the Federal        employees'    com-
pensation   benefits    totals slightly     less than $ioi billion,
of which   $856 million     represents    reimbursements    from other
Federal   agencies'    appropriations    or revenues°      Approximately
45,500 claimants     receive long-term      benefits   under FECA, and
about 1.4 million     payments    are expected    to be made in Fiscal
Year 1985.

During this reporting      period:    (I) final regulations     concern-
ing the suspension     and debarment     of certain medical     provid-
ers were published,     but legislative     and more regulatory
reforms are urgently      needed to address     long-standing    prob-
lems;   (2) recommendations     were made by Department       of Defense
(DOD) audit agencies      to improve management      of the adminis-
tration   of the FECA program      by DOD Agencies;     (3) we contin-
ued to monitor    the development      of a major new ADP system;
and (4) results of crossmatches         have been updated°




                                  -27-
Regulatory    and   Leglslatlve   Reform

We have repeatedly     urged regulatory     and legislative    action
to bring about much needed reforms         in FECA.    During this re-
porting  period,   final regulations     were published     on the sus-
pension   and debarment    of medical   providers;   however,    other
regulations   are still pending°      While OWCP continues       to fo-
cus their efforts    on legislative     reform   of FECA with no
action by Congress,     the publication     of regulations    would
bring about many of the reforms       sought by the legislation.
In past semiannual     reports,   we have advocated     the publi-
cation of regulations     on medical    fee schedules    and adminis-
trative  procedures°     We must again report that these regula-
tions have not been published       in final.

Suspension    and Debarment   -- Final   regulations    were published
governing    the exclusion   from participation     in the FECA pro-
gram of those providers      of medical   services   or supplies   who
defraud   the Government    or who engage    in certain    abusive bil-
ling, treatment,     or reporting   practices.

The debarment     regulations,   which we have strongly      advocated,
establish    procedures    which will enable OWCP to bar excluded
medical   providers    from the program   including    preventing   them
from seeking     payment   for services provided    under FECA.

Medical   Fee Schedules    -- For several    years,    OIG has stressed
regulations    which would establish     maximum    medical   fees for
specific   services   within  geographic    regions.     Medical  fee
schedules    could result in substantial       savings   and more con-
sistent   payments   to different   medical   providers.

In June 1984, ESA published        proposed   regulations   which would
prohibit    payments   above established     limits   for specific    ser-
vices and would      prohibit   the provider   from attempting     to
obtain   from the claimant      the difference    between  the amount
billed   and the amount paid by OWCPo         The 60-day public     com-
ment period,     scheduled    to end on August    6, was extended     to
October   5 to accommodate      all interested    parties.

Procedural    Regulations     -- Minimal    progress   has been made in
publishing   much needed      procedural    regulations.     The regula-
tions would    bring about a wide range of needed           changes  and
specifically     clarify    (i) the responsibilities       of the employ-
ing agencies;      (2) the claims filing process;         (3) responsi-
bilities   for returning      injured   employees    to work; and
 (4) claimants'     reporting   requirements.

A year ago we reported   in our semiannual   report that OWCP
anticipated   publishing the proposed  regulations   for public
comment°    We must again report that little   progress  has


                                  -28-
occurred and strongly        urge   publication   of   these   regulations
as soon as possible.

DOL FECA Legislative       Proposal   -- In our last several    semi-
annual   reports,   we supported    the comprehensive    FECA legisla-
tive proposal     developed    by the Department.     The proposal   was
designed   to apply benefits      under the Act more equitably      and
significantly     enhance management     of the FECA program.      The
proposal   was submitted     to but not introduced     in the 98th
Congress.

One section     of the legislative     proposal    addresses   a partic-
ular concern     of the OIG, the criminal       prosecution    of FECA
claimants    who are classified     as totally     disabled   and fail to
report or falsify      reports   of earnings.     As a result of a
court decision     in a case entitled      United   States Vo Dorey,
certain   recipients    of FECA compensation      have escaped     crimi-
nal prosecution     after making    false statements      to the Govern-
ment.    Details   on this case can be found on page 82 in the
Office of Resource      Management   and Legislative      Assessment's
section.


FECA   Chargeback   System

Although   OWCP administers     the FECA program,        the Department
of Labor does not generally        pay for FECA claims,        other than
its own.    Payments   made to FECA claimants         come from the Em-
ployees'   Compensation    Fund administered       by DOL and reim-
bursed,   as appropriate,     by the employing      agencies.      The
Department   of Labor annually       bills or "charges      back" compen-
sation payments    to the Federal      employing    agencies    for the
FECA benefits    expended   on their behalf       during the year.      Ap-
propriated   fund agencies     pay FECA costs from their annual
appropriations;    agencies    which    receive   income from operating
revenues,   such as the U.S. Postal Service,           have to pay FECA
benefits   out of funds otherwise        available    for services.

FECA costs to the employing    agencies   have been of great con-
Cern to both the employing   agencies    and OIG.   The Fiscal
Year 1984 chargeback   bill was over $876 million,     $56 million
higher  than for Fiscal Year 1982.      If this trend continues,
future fiscal year obligations     for FECA benefits   could soon
exceed  $i billion.

During this reporting     period,   DOD audit agencies       completed       a
major audit of DOD's FECA program        management    which demon-
strates the significant      role which    all Federal    employing
agencies   have with OWCP to ensure      economical    and efficient
management    of the FECA program.      DOD FECA costs had in-
creased   over 50 percent   between   chargeback    year 1979 ($205


                                    -29-
million)   and chargeback  year 1984 ($319 million)o      The audit
disclosed   that DOD Agencies   need to strengthen    FECA program
management   by providing  comprehensive,   consistently   applied
guidance   to:

       --     define  duties       and responsibilities    of FECA program
              administration        and employee   supervisory  personnel;

       --     distribute    chargeback          listings     to local service
              activities   and at DOD           Agencies     and ensure that the
              listings   are verified;

       --     establish       criteria    for    retaining     DOD   claim   files;

       --     implement       light   or limited      duty   work    programs;   and

       --     implement    a reemployment          program     for   long-term
              claimant s o

Some    of   the   specific     deficiencies       included:

       --     Claims   were not always    reviewed  for indications               of
              fraud,   and potentially    invalid  claims were not               re-
              ferred   for investigation°

       --     OWCP chargeback    data were          not always  used to moni-
              tor injury   cases, validate           FECA charges,  or to
              detect  fraud and abuse°

       --     Agency   claim files were not always available         for
              validating    OWCP chargeback    billings   and monitoring
              the progress     of injured  employees    to determine   when
              they can return     to work.

The Air Force auditors      reported   delays   by OWCP in taking     ac-
tion on $1o7 million     in potential     misbillings   which  the Air
Force had forwarded     to OWCP.     We interceded    and, as a re-
sult_ OWCP took action      to resolve most of the misbillings.
In addition,    the Air Force auditors      found that medical     pay-
ments for hearing    losses were based on inconclusive        medical
evidence°    OWCP is issuing     guidance    to its district   offices
to prevent   such future payments      and is also reviewing     its
policy   on the methods   used to assess hearing       loss and on
compensating   hearing   losses   occurring    prior to Federal    em-
pl oyment o

In conclusion,    the DOD findings    and recommendations    can
serve as a model    in acknowledging     the need to lower FECA
costs and in demonstrating      the importance   of coordination
between  OWCP and the employing      agencies.   The embezzlement
cases United   States. Vo Presider.t0 reported    by the Office   of


                                         -30-
Investigation   on page 62 is an example    of where the use                of
FECA chargeback   data by an employing   agency   to validate               FECA
charges  may have precluded  the fraud.


FECA    Level   II

FECA Level II is a major new ADP system       for OWCP to enhance
program   management.    In the previous  semiannual    report,  we
stated   that we would commit audit resources      to monitoring
the development     of the system.   Since that time, we have
made recommendations     to improve  the system   development   pro-
cess and to purchase     leased ADP equipment    for substantial
savings.

In January    1984, the Department     awarded    an 8-year contract
for up to $i01 million      to provide    computer   hardware  and
software    support  for the development      and implementation   of
the FECA Level II automated       system.     ESA's Fiscal Year 1986
budget   submission   estimates   that this system will cost $80
million   through   1990.

System Development  -- We reviewed     the initial     system design
described  in the Request   for Proposal    to ensure    that the
problems  and issues documented     by numerous    reviews in the
past were addressed   and resolved,    either   through    the auto-
mated system or manual    procedures.     Our review,     to date,
disclosed  that:

       --    The functional systems  specifications          for   FECA
             Level II are highly complex.

       --   Variations    exist in the descriptions        of processing
            among systems     flowcharts,   detail    flowcharts,   and
            pseudocode    (programming    code that illustrates      the
            general   flow of processing      logic).

       --    The level of   specificity  of    the flowcharts        varies
             considerably   from subsystem     to subsystem.

       --    ESA personnel   have    expended   considerable   effort  to
             explain  the system     intricacies    to the contractor.

       --    No major contractual  deliverables       have    been    met
             satisfactorily  by the contractor.

As a result, we issued a systems    development    review  report
in which we recommended   that ESA continue     its intensive   con-
tract monitoring  and oversight   efforts.    We also recommended
that ESA and the OASAM Office   of Procurement     review  the



                                    -31-
entire contract   schedule  of deliverables        with   the   contractor
and establish   revised milestones.

Purchase   of ADP Equipment    -- Our recently   completed   survey
of leased equipment     in the Department   impacts   on FECA auto-
mation.    During   this survey,  we noted that ESA could realize
considerable    savings  over the next 31 months     by purchasing,
rather than leasing,     ADP equipment.

ESA subsequently   purchased   tlhe equipment  along with a main-
tenance  agreement  for the remainder     of Fiscal Year 1984 and
two 1-year options    for Fiscal Years 1985 and 1986o     As a
result,  actual savings   are now estimated    to be close to $3
million.


FECA   Crossmatches

In past semiannual      reports,   we reported    crossmatch   results
of FECA records      to other compensation,      retirement,   and em-
ployment   records.     The purpose     of these crossmatches    was to
identify   FECA claimants     receiving    prohibited   dual benefits.
The following     discussion    updates the results     of our two
crossmatches     of FECA records     with records    of the Office   of
Personnel    Management    (OPM) and the Tennessee      Valley  Author-
ity (TVA)o

The first crossmatch   was conducted    in conjunction     with OWCP
and OPM.   The crossmatch   originally    identified   1,127 "raw
hits" of which 365 had been paid prohibited        dual benefits°
No prohibited   dual benefits  had been paid in the remaining
76 cases.    Of the 365 identified,    214 were identified     for
the first time by our match and 151 had been identified
prior to our match by OWCP or OPM.       Over 90 of the overpay-
ments have been recovered.

During   this reporting     period,  OWCP and OPM substantially
completed    resolution    of the ].,127 "raw hits."       OPM has the
responsibility     for determining    the amount of and collecting
the overpayments      on 153 of the 214 cases.        To date, OPM has
determined    overpayments    for 147 cases totaling       approximately
$4.5 million.      OWCP has the responsibility        for the remaining
61 cases.     OWCP has determined     overpayments     totaling   approx-
imately   $i.i million     for 54 of the 61 cases.        The remaining
cases require     further   OWCP action before     recovery    can be
initiated.

In forwarding  the information    on the overpayments    to its
field offices for corrective    action,   OWCP reiterated   our
past findings that recovery    action has not always been
prompt with claimants   remaining   on OWCP rolls for months


                                 -32-
after the offices    had evidence     necessary   to terminate   FECA
benefits.    We intend to follow      up on OWCP's progress     in col-
lecting   the overpayments     identified   by our crossmatch    as
part of our ongoing     review    of debt collection   practices    in
the Department.

OWCP and OPM have agreed    in principle    to continue   matching
records  as long as such matches     are cost effective°      The
next match is anticipated    early   in Fiscal Year 1985, and
matches  are projected  periodically    thereafter°     We intend        to
work closely  with OWCP and OPM on the first match°

Our second crossmatch     involved   matching   FECA records   to the
Tennessee  Valley   Authority    (TVA) wage and disability     retire-
ment benefit   systems   records.    The purpose was to identify
any claimants   who were receiving      both FECA compensation     and
TVA wages and/or    disability    retirement  benefits°

Four claimants   were identified     who received     both FECA com-
pensation  and TVA disability      retirement    benefits.    Overpay-
ments by TVA totaled     $19,555.    Two of the claimants      made
immediate  restitution     ($2,503),   and the other two claimants
are having portions    of their monthly      benefit   checks applied
to their overpayments.


                         BIaQ_   Lung   P_og_am

The Department   of Labor administers    Part C of the Black Lung
Benefits  Act.   The Act provides   monthly  compensation     and
medical  treatment  benefits  to coal miners totally      disabled
from pneumoconiosis   arising  from their employment      in or
around coal mines.    The Act also provides    for monthly     pay-
ments to eligible   surviving  dependents°    Benefit   costs are
paid by coal mine operators    or by the Black Lung Disability
Trust Fund if no coal mine operator      can be found responsible
for payment.

To administer   the Black Lung Program       for Fiscal Year 1985,
ESA has requested    a staffing    level of 425 and a budget of
$24.4 million.     The request    for the Black Lung Disability
Trust Fund for disabled      coal miners'    benefits  totaled    $659.8
million.   Approximately     93,900 claimants     are receiving
monthly  compensation    benefits    and an additional    106,400
miners are receiving     medical   benefits°

During this reporting    period,   OIG issued reports     on two re-
views undertaken    at the request   of the Division     of Coal Mine
Workers'  Compensation°     Both of.these    reviews were performed
by public accounting    firms under contract      to OIGo   In our
first review, we evaluated      the methodology    and assumptions


                                 -33-
made by the United Mine Workers         of America   Health    and Re-
tirement    Funds   (UMWF) to estimate    the amount of medical       pay-
ments to be billed to the Black Lung Disability             Trust Fund.
The estimate     covered   medical  payments   from January     1974
through   September    1984 made by UMWF to former miners who are
entitled    to receive medical     benefits  from the Black Lung
Disability    Trust Fund.      The auditors  found that the
methodology     and assumptions    used by UMWF were basically        cor-
rect; consequently,       OWCP has reimbursed    UMWF $58.2 million
as of September      30, 1984.

In our second review,     we examined   medical   bills processed
for payment   by Electronic   Data Systems    Federal    Corporation
 (EDS).  EDS is under contract: to the Department         of Labor to
receive,  process,   and prepare   for payment    medical    bills to
be paid from the Black Lung Disability        Trust Fund.       The cur-
rent contract   provides   for liquidated    damages    from EDS if,
based on an audit,    their error rate exceeds       two and one-half
percent  of the bills processed     since the last audit.

Our audit of a sample  of medical  bills processed   during  the
period from April 1 through   June 2, 1984, disclosed    a tenta-
tive error rate exceeding   the two and one-half   percent  trig-
ger.   We have issued our audit report to ESA.


      Longshore   and   Harbor   Workers'   Compensation    Program

The Longshore    and Harbor Workers'      Compensation      (LSHW) pro-
gram administers     and enforces   the processing      of claims and
payment   of benefits    to injured workers     covered    by the Long-
shoremen's   and Harbor    Workers'   Compensation     Act.    The Act
provides   compensation    to workers    for wages lost through       dis-
ability,   medical   treatment   and rehabilitation       services,   and
death benefits     to survivors   of workers.

On September    28, 1984, the President      signed into law the
Longshore    and Harbor Workers'    Compensation     Act Amendments  of
1984.    This legislation   makes important      reforms  in retaining
needed  protections    for injured   workers   and their families
while giving    employers,  insurers,    and the Department      the
means to more effectively      control   program   costs,   fraud, and
abuse.

We will work closely  with       OWCP during   the implementation    of
the legislation  to ensure       that appropriate    internal  controls
are incorporated  into the       implementing   procedures.




                                  -34-
OCCUPATIONAL       SAFETY   AND    HEALTH    ADMINISTRATION

The Occupational   Safety   and Health Act of 1970 (Act) was
enacted  to ensure  safe and healthful     working  conditions    for
working  men and women    in America.    The Occupational    Safety
and Health Administration      (0SHA) has the authority     to:1

    --       enforce    applicable      safety    and   health   standards;

    --       assist    and encourage  states   in their efforts           to
             ensure    safe and healthful   working   conditions;          and

    --       provide  for research,  information,   and training                in
             the field of occupational    safety  and health.

OSHA administers    its responsibilities      through  a network   of
regional   and district   offices.     In addition,   OSHA is sup-
posed to encourage    states   to establish    and maintain   occupa-
tional   safety and health    programs.    For Fiscal Year 1984,
OSHA had a budget    of $212.6 million     and a staff of 2,323°


Current     Initiatives

In May 1984, OIG began the first comprehensive           audit of OSHA
since the Inspector    General   Act of 1978.     We are attempting
to direct our early efforts      to 'reviews  which will be respon-
sive to OSHA management.       We are performing     comprehensive
research  of OSHA's laws, rules, and regulations;          organiza-
tional makeup;   and workload    to identify    those topics which
warrant  further  audit coverage.      Concurrently,     we are:

    --       meeting   with program     officials  to obtain   informa-
             tion needed to develop       a better understanding     of
             OSHA program     responsibilities,    priorities,   and
             available    systems   and resources;

    --       developing  an       inventory  of and plans to audit            OSHA
             New Directions        and state agency  grants and;

    --       reviewing    OSHA's  accomplishments     to date in trans-
             ferring   employee   safety   and health   program respon-
             sibilities    to state governments.


State     Grants

OSHA has 54 jurisdictions   for state grants,    including  the 50
States,  Guam, Puerto Rico, the Virgin    Islands,   and the Dis-
trict of Columbia.    These jurisdictions   receive   OSHA funds
for three purposes:


                                      -35-
       --    TWenty-five   jurisdictions    receive     matching grants
             to assist   in developing   their own      safety programs°

       --    Forty-seven    jurisdictions   are 90 percent  funded to
            •provide   consultation    to small employers  on how to
             improve   compliance   with OSHA regulations   and stand-
             ards o

       --    Forty-five   jurisdictions    will receive matching
             grants   to reimburse   the Bureau    of Labor Statistics
              (BLS) for the collection     of lost-workday   data for
             use in targeting    inspections    and for other pur-
             poses o

All OSHA grants      to states are audited    at the same time if a
state has more than one type of OSHA grant°          During   this
reporting   period,    OIG issued three financial    and compliance
audit reports     on OSHA state grants°     Funds audited    totaled
almost   $2o4 million    with no audit exceptions    noted°     In
addition,    six audits were performed     on OSHA/BLS   statistical
grants.    Funds audited     totaled $511,250   with no audit
exceptions    noted°


New    Directions     Grants   to Non-Profit    Institutions

Since Fiscal Year 1979, OSHA has awarded          New Directions
grants   to labor organizations,       employer  associations,    col-
leges and universities,       and other non-profit     organizations°
The grants are intended       to assist these groups in building
an institutional     competence    that provides   occupational     safe-
ty and health    services    among workers    and employees°     New
Directions   grantees    received   $608 million   in funding    in Fis-
cal Year 1984o

During   this reporting   period,   OIG issued financial     and com-
pliance   audits of three New Directions      grantees°    A total of
$1.4 million    was audited   resulting  in $99,534    in audit ex-
ceptions.


MINE   SAFETY   AND   HEALTH   ADMINISTRATION

The Mine Safety   and Health Administration    (MSHA) is respon-
sible for administering    the provisions   of the Federal  Mine
Safety and Health Act of 1977 in order to achieve       a safe and
healthful  environment   in the nationWs  mines°   For Fiscal
Year 1984, MSHA had a budget    of $151o4 million    and a staff
of 3,271.




                                    -36-
During this reporting period,  we          followed  up on a prior
audit issued on the MSHA Approval           and Certification  Center.


Followup   on Audit    of MSHA's    Approval    and   Certification
Center

we found that MSHA has not completed        action to implement     5
of the i0 recommendations      contained   in our prior audit
report issued in October      1981 on the Approval     and Certifi-
cation Center   at Triadelphia,     West Virginia.     The Center
ensures products    used in the mines are safe by testing         and
evaluating  products    to determine    if they meet safety    speci-
fications  prescribed    by the Secretary    of Labor.

Two significant      recommendations     were to:      (i) raise equip-
ment testing     fees to fully recover       costs and (2) implement         a
viable   quality    assurance    monitoring    program   for approved
mine safety equipment        once it is in the field.          Management's
inaction   on raising     equipment    testing    fees has resulted       in a
substantial    loss of revenues       in the 3-year period        since
issuance    of our prior audit report        in October     1981.     We
estimate   that the revenues       foregone    could have been over $3
million   a year.     As a result of increased         costs over the
years with very little corresponding             "fee" increases,      MSHA
is now recovering       under 10 cents on the dollar.

MSHA believed     that the equipment      testing  fees should be
revised   as part of efforts,       which began in late 1981, to
make substantive      improvements     in the over 20-year-old    MSHA
mining   regulations.      The purpose    of this comprehensive
regulatory    review was to reduce unnecessary         burdens  on the
mining   community    without   diminishing    the safety   and health
protection    afforded    the nation's    miners.

MSHA subsequently   decided   to update   the equipment     testing
fees as they changed    each of the regulations.        Unfortu-
nately,  3 years have elapsed    and not a single fee schedule
has been revised   to reflect   current   operating    costs.    As a
result of our followup    and the fact that it may take another
2 years to revise the overall      regulations,    MSHA has advised
us that they will consider     revising   their fee schedules
separate  and apart from the regulations.

Regarding   our recommendation     to implement  a quality   assur-
ance program,    we found that in the last four fiscal years
(1981-1984)   MSHA has field tested      345, or less than 2 per-
cent, of about 25,000 pieces       of mine equipment   approved   by
MSHA.   Moreover,   during the last 2 years, one out of every
eight pieces of equipment      tested was found to have critical
or major deficiencies.


                                   -37-
MSHA has developed    a computerized     approach  to selecting
specific  products   and manufacturers     for quality   assurance
checks_  but the system    is not yet fully operational°        In any
case, we plan to expand      our audit work in this area with
emphasis  on MSHA's   action   when a piece of equipment      is found
with critical   or major   deficiencies°


OFFICE   OF LABOR-_KNAGE_IENT   STANDARDS      AND
OFFICE   OF PENSION   AND WELFARE   BENEFIT     PROGRAMS

Until   recently,    the Labor-Management        Services   Administration
 (LMSA) was the umbrella       agency    within    the Department    respon-
sible for enforcing       two significant       statutes:     (I) the
Labor-Management      Reporting    and Disclosure      Act (LMRDA) of
1959 and (2) the Employee        Retirement      Income Security     Act
 (ERISA) of 1974o      For Fiscal     Year 1984, LMSA had a budget of
$62ol million     and a staff of 1,169o

The LMRDA    establishes    standards   for conducting     union elec-
tions and    contains   sanctions    for criminal   acts, such as
embezzling    union funds°      The Act also imposes      financial
reporting    and disclosure     requirements   on union officials,
employees,    and consultants     and contains    special    provisions
regarding    union trusteeship°       The LMRDA affects     an estimated
22 million    members,   in some 50,000 unions,       with combined
assets of    over $6 billion°

The ERISA regulates      private    employee   benefit    plans°    This
complex   statute   includes    provisions    for plan participation,
participant    vesting,    funding,    and benefits°      It also prohi-
bits certain    financial    transactions     involving    plan assets,
establishes    a standard    for investment      of plan assets,      and
imposes   financial    reporting    requirements    on plans°      Enforce-
ment of ERISA is shared        by the Department,      the Internal
Revenue   Service,   and the Pension      Benefit   Guaranty    Corpora-
tiono   ERISA now covers approximately           5 million   employee
benefit   plans with 50 million       employees    and assets    of over
$900 billion°

As discussed     in our last semiannual       report,   the Office    of
Audit had an extensive       survey of LMSA operations         underway
when, on January     20, 1984, the Secretary         of Labor signed an
order which    eliminated    LMSA and established       two replacement
organizations:      the Office    of Labor-Management       Standards
 (OLMS) responsible     for enforcing     LMRDA and the Office       of
Pension   and Welfare    Benefit    Programs    (PWBP) responsible      for
enforcing   ERISAo     The Office    of Labor-Management      Relations
Services   became   a separate    operating    agency   as the Bureau     of
Labor-Management     Relations    and Cooperative      Programs_



                                  -38-
Because   of our earlier      survey   in LMSA with resulting       signi-
ficant   recommendations      in the areas of resource       allocation
and enforcement,      the Secretary      asked OIG to participate       in
the Executive     Steering    Committee     to oversee   the reorgani-
zation.    The Administrator,        PWBP, requested     the Deputy
Inspector    General   serve as vice chairman         of the PWBP En-
forcement   Working    Group,    which was organized      to recommend
improvements     in the Department's        enforcement   of ERISA.

The PWBP Enforcement    Working  Group  issued its report to the
Executive   Steering  Committee  on July 30, 1984, and the
recommendations    are under consideration.      The report ad-
dresses   a multitude  of Agency  problems   which were concerns
of OIG and includes    proposals  to improve    PWBP's:

     --    civil    enforcement;

     --    relationships        with     other    offices      and    Federal
           agencies;

     --    information      systems   and        data   used    for    enforcement
           and public      disclosure;

     --     staff   training;      and

     --     evaluation     of   enforcement        results.

Of particular   interest   to OIG are proposals    that PWBP
improve  the effectiveness    of its limited   resources   by making
better use of independent     public accountants    and by estab-
lishing  a climate   more conducive  to ERISA enforcement.

Currently,    administrators     of all employee       benefit   plans with
100 or more participants        are required     annually    to obtain     a
certified    independent    audit.     The PWBP Enforcement        Working
Group has recommended       that independent       public   accountants,
in a manner prescribed       by the Department,        be required     to
notify   PWBP of (i) irregularities         discovered     during    a review
involving    plan funds and (2) other        "reportable      events"
indicating    an ERISA violation.         To ensure    the requirement       is
effective,    the Enforcement      Working   Group    has also recom-
mended   the Department     enforce    sanctions    against    accountants
and others that have filed inaccurate            or otherwise      mis-
leading   financial    statements     and management      reports.

 Similar   requirements   are now enforced     by Securities   and
 Exchange   Commission   (SEC) regulations     and are also required
 of accountants    who identify   irregularities    while auditing
 Federal   funds under OMB Circular     A-102.    Procedures
 governing    SEC's Rules of Practice    provide   a model which
 should   prove effective.    The information     provided   could be


                                         -39-
machine   processed,     thus improving  enforcement   results   and
reducing   the time now spent in reviewing       data to target
employee   benefit    plans for examination.     As annual   financial
reporting   requirements     are already  in place,  no additional
administrative     expense   to plan funds is anticipated.

The PWBP Enforcement     Working   Group also devoted       considerable
attention   to ways in which     PWBP can foster a climate        of
enforcement   among its field staff.        The Enforcement      Working
Group concluded    that enforcement     authority    was fragmented
throughout   the Agency,    among other offices      within   the
Department,   and among other Federal       agencies    involved    in
ERISA enforcement.

Within   PWBP, changes    are occurring     which   support   the need
for improving     enforcement    cohesiveness.      The reorganization
has given the Administrator        of PWBP direct     line authority
over field enforcement       personnel.     Also, PWBP's regional
office   structure    is being eliminated.       Area enforcement
offices   will now report directly        to the National     Office.     If
properly    implemented,    communication    should be improved       and
unnecessary     lines of administration      and review     eliminated.

Finally,   at the invitation     of OLMS and PWBP, staff from
OIG's Division    of Advanced   Audit Techniques     are partici-
pating on a committee     established    to reevaluate    LMRDA
enforcement   methods.     In this ongoing    project,   OIG is
providing   technical   support   in developing    a statistical
model  for use in enforcement      targeting.




                                  -40-
           Chapter   2 -- Impairments  to the Effective
                 Administration   of Federal Grants

 The standards    for administering    Federal   grants to state and
 local governments    are contained    in OMB Circular     A-102 with
 the related cost principles      contained    in OMB Circular   A-87.
 The stated purpose    of A-102 is to promulgate       standards  for
 establishing   consistency   and uniformity     among Federal
 agencies   in the administration     of grants to state and local
•governments.

OMB Circular     A-102 was revised     in 1981 to address       the multi-
tude of varying      and conflicting    requirements     which had
become burdensome       to state and local governments.          To
further   improve    grant management,     OMB currently      has a task
force exploring      options   to streamline    and improve     grant
management    through    revising   OMB Circular    A-102.     However,  as
A-102 is actually       being applied,    consistency    and uniformity
in grant administration        is not being achieved       because   OMB
has granted    exemptions     to both A-102 and A-87 for certain
types of granted      funds--"block    grants. " Consequently,
substantial    amounts    of Federal   funds are not subjected        to
the uniform    administrative     requirements    or cost principles
contained   in the OMB Circulars.

In the Department     of Labor alone,    approximately     $3 billion
in funds granted     to the states under the Job Training
Partnership    Act (JTPA) are not subject       to A-102's   uniform
administrative    requirements   because   OMB views the JTPA
program   as a "block grant. " Yet JTPA is not a typical           block
grant because    many of the administrative       provisions   of A-102
and A-87 are built into the Act or regulations.             On the
other hand, some of the administrative          standards   are not
addressed,   and many will likely not be addressed          by state
and local governments.       Our audit of systems      development    in
the JTPA program     found many instances     where adequate
administrative    standards   had not been established       by the
states.

The lack of uniformity     has created   some confusion   which can
adversely   affect fiscal   integrity   and impact on Federal   fund
accountability    for all grants in the following     areas:   audit
requirements,    audit resolution,    and cost principles.




                                 -41-
AUDIT   REQUIREMENTS


                              Current     Problems

JTPA imposes    on the state the responsibility       to prepare    or
have prepared    an independent   financial   and compliance     audit
of the state grant funds and the funds of its subrecipi-
ents.    The Act gives OMB the responsibility       to establish
guidance   for the proper   performance    of audits°

OMB issued audit guidelines        for block grants     in a paper
entitled,    "The Framework   for the Financial      and Compliance
Audits  of the Block Grants, " April       15, 1982o     These guide-
lines are applicable      to JTPA as well as to the nine block
grants  established    by the Omnibus    Budget   Reconciliation     Act
of 1981.     However,  the guidelines     in the OMB Audit Framework
Paper are different      from OMB's audit guidelines       contained    in
A-102.    Many state and local units of government,           as recip-
ients of both block and non-block        grants,   must deal with
both sets of guidelines.        This complicates    the audit process
and may cause conflicts      and an uncoordinated      audit effort
between   state and local governments       in auditing    block grants
and other Federal     funds°

Conflicts   and confusion     have arisen     among various     levels   of
JTPA recipients     in attempting    to reconcile      the audit re-
quirements   of the Act, regulations,         Circular   A-102,    and
OMB's Audit    Framework   Paper°    For example,      a state govern-
ment may require     specific   audits    of its JTPA subrecipients,
but a local unit of government         may not desire      to participate
since the local government        is being audited      under the single
audit concept    of OMB Circular     A-102, Attachment       Po   The pur-
pose of the single     audit concept      is to replace     grant-by-
grant audits with uniform       single,    organizationwide      audits°

OMB's guidance     appears   to give subrecipients    the     election  to
adopt the A-102     single audit procedures     for JTPA      and "be
considered    in compliance    with their accountability        obliga-
tions under the Act. " Yet the Governor,         who has      responsi-
bility   for audits,    may not consider   subrecipients'       A-102
audits   as satisfactory     to meet the stateUs   needs°        Unless
the Governor    elects   to fully accept   subrecipients      ° single
audits   under A-102,    duplicate  audits may continue        thereby
defeating    the purpose    of the single audit concept°


                Effect   of   Single    Audit   Legislatien

Our analysis   of the    "Single  Audit Act of 1984, _ which was
enacted  by Congress     and signed   into law after our reporting


                                   -42-
period,   indicates  that the legislation    should  ultimately
serve to eliminate    the types of problems    we have discussed.
However,   we cannot fully _ evaluate   the impact of this legis-
lation   until OMB, as required    by the Act, issues imple-
menting   policies,  procedures,   and guidelines.

The Act requires      each state and local government         receiving
$i00,000    or more per year in Federal       assistance    directly    or
indirectly    to obtain an annual      or biennial    independent
organizationwide      financial   and compliance    audit of its
operations.     Governments     receiving  more than $25,000       a year
but less than $i00,000       have the option of doing either         a
single   audit or continuing      to comply with existing       audit
requirements    mandated    under the applicable      Federal   assist-
ance program.      Recipients    of less than $25,000      a year from
the Federal    Government    must maintain    financial    records   but
are generally     exempt from the audit requirements.           The Act
is effective    for fiscal yearsbeginning         after December     31,
1984 •                               .

Audits   conducted    in accordance     with the Act "shall be in
lieu of any financial        and compliance    audit of any individual
Federal   assistance     program   which   a state or local government
is required     to conduct    under any other Federal        law or regu-
lation."     Presumably,    _JTPA audit requirements       contained    in
the Act, the regulations,         and OMB's Audit Framework        Paper
will be superseded       for the governmental       entities    for which
the Act applies.       However,    as noted,    certain   governmental
entities   are exempted,      and the JTPA audit requirements         may
still apply to some of these entities.

We will seek clarification      from OMB _with respect      to audit
requirements   for fiscal years beginning       before   December    31,
1984.    This will include   audits   of the first two program
years of JTPA.     Further, the   application    of the Act to JTPA
subrecipients    receiving less   than $i00,000     in Federal    funds
is not entirely    clear. . Apparently,    problems   will continue
to exist for JTPA subrecipients       receiving    $25,000   to
$i00,000.


AUDIT   RESOLUTION

OMB's guidelines     for audit resolution   of block grants,     which
are applicable     to JTPA, may impair the ability     of Federal
agencies    to meet the legal   requirement   to resolve  audits
within   180 days.    The flexibility   in terms of time given to
states to resolve     block grant audits appears     to impede the
Federal   agencies'   ability  to comply with the inflexible




                                  -43-
180-day    period  required  by law to resolve  all audit
reports.     This impediment   has set up a potential   conflict
between    Federal  agencies  and states.

The requirement      for Federal  agencies  to resolve   audits
within   180 days is provided     in the Supplemental    Appro-
priations    and Rescission    Act of 1980 and in OMB Circular
A-50.    These provisions     do not distinguish   between   block     and
non-block    grants.

On the other hand, block grant audit resolution             guidelines
in OMB's Audit Framework      Paper and the JTPA regulations          do
not fully take into account       or address    the relationship
between   the Federal   and state resolution       periods.     The OMB
Audit Framework    Paper gives states the primary          responsi-
bility   for audit resolution     and provides:       "Audit findings
and recommendations     should be resolved      within    a reasonable
time, as determined     by the state, unless Federal         statutes
require   an earlier   resolution."     The JTPA regulations       also
provide   for state audit resolution       within   a "timely
period."    However,   both require    that the Federal      Government
review the state's     resolution    for acceptability.

Since Federal    audit resolution    must occur within     180 daysr
the period for resolution      by the state must take place
within  this period   and must necessarily      be considerably   less
than 180 days in order to allow Federal         agencies   time to
review   the state resolution.      Consequently,    the resolution
period cannot    be "determined   by the state" as the OMB Audit
Framework   Paper provides    if Federal   resolution    is to occur
within  180 days.

In order to be consistent      with the 180-day     period  for
Federal   resolution,   some Federal    and state officials     are
interpreting    the "reasonable"    or "timely"    period  for state
audit resolution     to be 180 days which would occur before        and
be followed    by Federal   resolution.     This, however,   would
have the effect of extending       the period for audit resolution
to as much as one year,      i.e., 180 days for state resolution
followed   by 180 days for Federal      resolution.

An interpretation      that extends  audit resolution   beyond   180
days does not appear to be consistent       with the law or
Circular   A-50 nor does an interpretation      that Federal    audit
resolution    time frames are different    for block than for
non-block   grants.     We can find no authority    to permit   relief
to Federal    agencies   from the 180-day  resolution   period.

We have gone on record with the Employment     and Training
Administration   and have advised   OMB that we expect audit
reports   to be resolved within   the 180 days provided  by law


                                 -44-
                         ,',._?_,v:_,_.,,._
                                        v_ _ ,<_




and Circular   A-50.    Accordingly,     we intend to report      to the
Secretary   of Labor and Congress       in future semiannual      reports
any audits not appropriately        resolved within     180 days.
Because   of the conflicting     guidance   now in existence,      we
would anticipate    negative    state reaction      to Federal   pressure
to resolve JTPA audits within        specific    time frames.     It
seems that this puts £he Employment         and Training     Adminis-
tration   in a rather awkward     position    wth respect    to audit
resolution   of JTPA grants to states.         We believe    OMB needs
to clarify   its position    with respect     to Federal    agencies'
application   of the law and Circular       A-50 to block grants°


COST   PRINCIPLES

OMB has determined      that OMB Circular    A-87 does not apply to
block grants,     including   JTPA grants to states.      OMB Circular
A-87 establishes      cost principles   for determining    the reason-
ableness,    allowability,    and allocability    of costs charged   to
Federal   grants.     Such selective   application   of either A-102
or A-87 defeats      the intended  purpose   of the circulars    to
establish    uniform   standards  for all grantees.

OMB Circular    A-87 lists nine categories         of unallowable
costs.    The JTPA regulations      address    only entertainment      and
fines and penalties.        The remaining     seven categories      (bad
debts,   contingencies,     contributions     and donations,    Gover-
nor's expenses,      interest   and other financial      costs,   legis-
lative expenses,      and underrecovery     of costs under grant
agreements)    are not specifically       addressed   in the JTPA
regulations    although    certain  general    prohibitions    may cover
some of these.       Where state and local laws and guidelines
are also silent,      these types of costs may be viewed          as
allowable    charges    to JTPA or other block grants.

Auditors,   when faced with such costs of doubtful        propriety,
will be forced into evaluating       the appropriateness    against
some broad, general     standard   or establishing   their own
standards.    We would suggest     that it is far better to have
uniform   cost principles,    applicable   to all grantees,    which
are designed    to provide   some minimum   level of protection     for
the integrity    of Federal   funds.


CONCLUSION

We strongly    support OMB's recent efforts       to streamline   and
improve   OMB Circular   A-102.    However,   equal to or more
important   than the improvement     of specific    provisions   in
A-102   is the uniform   application    of the circular    to Federal
agencies   and programs.     We believe   consistency,    uniformity,


                                            -45-
 and the integrity    of Federal   funds will not be achieved
unless   exemptions   and exceptions    to Circulars  A-102 and
Circular   A-87 are eliminated.       In our opinion,  Department
Heads,   the Congress,    and OMB Should    all work toward estab-
lishing   and applying   one uniform    set of administrative
guidelines    to all grantees    in order to eliminate    the
impairments    to administration    that now exist.




                              -46-
                     Chapter    3 _    Audit    Resolutlon

During this reporting        period,   some major issues affecting
the way the Federal        Government    resolves   and follows   up on
auditors"    recommendations      were raised by GA0 while the level
of the Department      Os audit resolution      activity   continued   to
increase    for the fourth consecutive         semiannual   period.    The
Inspector    General"s     position   on the issues raised      by GAO is
discussed    below,    followed   by a synopsis     of resolution
activity    for the period      including   some significant     reso-
lution actions      reported    during this period     and savings    that
have resulted     from management      commitments    to use funds more
eff ici ently o


AUDIT   RESOLUTIO_     ISSUES   RAISED       BY GAO

In its report entitled        "Audits    of Federal     Programs:     Reasons
for the Disparity      Between    Costs Questioned       by Auditors     and
Amounts   Agencies    Disallow,"    August    8, 1984, GAO raised some
key issues regarding       the disparity      between    the definition      of
audit resolution      contained    in the Comptroller        General's
audit resolution      standard    and in the Supplemental         Appro-
priations    and Rescission     Act of 1980 and OMB Circular           A-50.
The Comptroller     General's     standard    states    that resolution      is
not completed     until corrective       action has been taken.          The
Supplemental    Appropriations       and Rescission      Act of 1980
states that _agreement        between    the audit organization        and
agency   management    on action     to be taken on reported         findings
and recommendations"       must be achieved       within    the 180-day
time limit and that corrective           actions    should proceed     as
rapidly   as possible°      The definition       of audit resolution        in
OMB Circular    A-50 is based on the Supplemental             Appropria-
tions and Rescission       Act as occurring       when the audit organi-
zation and agency      management     agree on actions       to be taken on
reported   findings    and recommendations.

We strongly    disagree   with GAO's definition    of audit reso-
lutiono   The definition      is contrary to the intent of the law
and, if enforced,     would result in a violation     of the law
each time corrective      action  is not completed   or a debt not
collected   within   180 days of issuance    of an audit report.

Implementation   of corrective     actions  usually  takes longer
than 180 days to achieve.       For example,    in resolving   audit
reports   on the Department's    contractors    and grantees,   the
decision-making   process   and negotiation     of individual   audit
final determinations    consume    nearly 120 days.     Implementa-
tion and verification     of corrective    actions  and completion




                                      -47-
of debt collection      activities      are   equally,   if not   more,   time
consuming o

In addition,    contractors   and grantees     have the right to
appeal   the contract/grant     officer's    determination°     Cur-
rently,   resolution   of appeals    averages    approximately     18
months,   while debt collection,       including    issuance   of
required   demand letters    and referrals     to the Department       of
Justice   and GAO, can easily     consume    another year°      Further,
the time required     by program    officials    to implement     recom-
mended program,    legislative,     or regulatory      reform can easily
exceed a year.

It is totally     impractical    to suggest    that all of these
actions   can be completed     within   180 days°     The effect of the
change in definition      would be to make it impossible        to
complete   "audit resolution"      within   the statutory   time limit.
The audit resolution      and followup     requirements   of the law
and OMB Circular     A-50 are viable,     have resulted    in dramatic
improvements    of the process,     and do not need to be revised.


AUDIT   RESOLUTION   ACTIVITY

During   this reporting    period,    610 audit reports     including
over 4,000    recommendations     totaling   $162.9 million     in ques-
tioned costs and costs recommended          for disallowance     were
resolved   by program    officials.     Of the total amount of mone-
tary audit exceptions,       $62.6 million    was disallowed     while
$100.3 million    was allowed.       In many instances,     the allowed
costs were the result of additional          supporting    documentation
provided   by the grantee.      Additionally,     the right of the
auditee   to appeal   the determination      to an Administrative      Law
Judge may eventually      result in the reduction       of the amount
reported   as disallowed    during this reporting       periodo

Overall,  the level of audit resolution   activity   continued   to
increase  over the previous  four semiannual   reporting   periods
as reflected  in the following   table:




                                 -48-
                         Audit   Resolution    Activity
                                   ($ millions)


     Pe ri od      Audi t Repo r ts                Amount            To tal
                     Resolved              _             Allowed


    3/31/83             341                     $63.9     $26.9       $90.8
    9/30/83             387                     $23.8     $67.2       $91.0
    3/31/84             412                     $58.2     $67.0      $125o2
    9/30/84             610                    $100.3     $62.6      $162.9



    Detailed  information      on audit resolution  activity   for      the
    period may be found       in the appendix  to this report.

\
    Significant    Resolution    Actions

    The following    illustrations  depict   some of the significant
    resolution  actions    taken by program   officials which   resulted
    in the disallowance     of costs claimed   by the Department's
    contractors   and grantees:

    Tennessee   Balance    of State   (Audit Report     NOo 04-4-079-
    03-345)   -- The Employment     and Training     Administration
    disallowed    $4.3 million    of the $5.9 million       in costs
    recommended    for disallowance     by the auditors.       The report
    was a rollup audit of all subgrantee          unresolved    questioned
    costs identified     in prior audits of 275 subgrantees.            Over
    $3 million    of the disallowed     costs were related       to ineli-
    gible participants.       Unauthorized    expenditures     and insuf-
    ficient   documentation    were associated     with $247,681     in
    administrative     costs, $219,951     in training    costs,   and
    $758,130   in other miscellaneous       charges.     The grant
    officer's   final determination      is under appeal.

    City of Cleveland       (Audit Report    No. 05-3-214-03-345)       -- The
    Employment    and Training     Administration     disallowed    $626,088
    of the $779,042      costs questioned     in the CETA phasedown       audit
    of the City of Cleveland.          The City of Cleveland      has
    refunded    $574,903    of the disallowed     costs to DOL from
    unexpended    subgrantee     cash held by the prime sponsor.          Of
    the remaining     amount disallowed,      $45,121    is related   to
    disallowed    subgrantee     costs which the City of Cleveland         has
    failed to collect,       and $6,064    is related   to interest    paid on
    leased   equipment    in violation    of OMB Circular     A-87.


                                      -49-
Suffolk   County     (Audit Report    Noo 02-3-179-03-345)        -- The
Employment     and Training    Administration       disallowed    $1,005,480
of the total      $1,125,858    in exceptions     in the audit of the
Suffolk   County    CETA program°       Of the disallowed      amount,
$935,600    is associated     with the contract       amounts   for three
contracts    with Eudemetrics,       InCo, where kickbacks        to the
county   commissioner     were involved     and prosecutions
resulted.     An additional      $50,572   was disallowed      for exces-
sive workmen's      compensation     charges,    and $19,308 was dis-
allowed   for ineligible      participants°       Further,    as a result
of the auditors'       recommendation,     the grantee     voluntarily
revised   its financial      status report to eliminate          $20,000  in
unsupported     unemployment     insurance    charges.

Institute    for Humanist      Studies    (Audit Report     NOo 11-2-263-
03-350)   -- The Employment        and Training     Administration
disallowed     $698,760    of the total $710,840        in cost excep-
tions.    Of the amount       disallowed,     $376,020   was associated
with subcontractor        or consultant     agreements     which were
incurred   without     required    contract    officer   approval;    $67,684
was related     to travel     and per diem charges       which were not
documented    or unallocable       to the contract;       $36,314 was
related   to salaries      charged    at budgeted    rather    than actual
amounts;    $50,000    was associated      with an unsubstantiated
contract   modification;       and $74,521 was associated         with other
unallowable     direct    costs°     In addition,    the Office    of Cost
Determination     sustained      $94,221   of a total $106,301
identified    by the auditors       as unallowable      based on the
applied   indirect     cost determination       rate°


Unresolved    Audit   Reports

As of September     30, 1984, 227 audit reports         including   $52.4
million   in audit exceptions      were unresolved°       Of these, 24
audit reports     remained   unresolved    over 180 days pending      the
conclusion    of ongoing    investigations,     and 1 preaward    audit
report was pending      the results     of contract   negotiations.
These 25 audit reports       account    for $6 million    of the total
unresolved    audit recommendations.        Except for the audit
reports   which were precluded       from resolution,     all audit
reports   were resolved     by the program     agencies   within  the
180-day   statutory    timeframe   established     by the Supplemental
Appropriations     and Rescission     Act of 1980o




                                  -50-
Management   Commitments   To   Use
Funds _ore   Efficiently

During   this reporting    period,   program   officials   and grantees
agreed   to implement    auditors'   recommendations     to improve
agency systems     and operations    and thereby    avoid unnecessary
expenditure    of program    and administrative     funds°    These
management    efficiencies    will result in annual      savings   of
approximately     $5.2 million°     Following   are examples     of the
management    efficiencies    which will be implemented:

Conversion    to Biweekly  UI Payments      (Audit Report NOo
06-3-517-03-315)     -- As a result of our audit,         which was
discussed    in the prior semiannual      report,    ten states are
planning   or have implemented     biweekly     rather than weekly
distribution    of UI checks to recipients        resulting    in an
estimated    $1.6 million  of annual     savings    in interest
payments   and administrative     costs.     Nine other states may
convert   to the biweekly   method    of payment     which may result
in an additional     $3.7 million   savings°

Cash Collection     and Deposit   Practices    in the Deper_ment     of
Labor   (Audit Report NOo 02-4-028-07-001)        -- The Employment
and Training    Administration    and Employment     Standards
Administration     have implemented    our recommended     cash deposit
practices   which resulted     in an estimated    annual   interest
savings   of $338,573°     Both Agencies    have taken action     to
more timely collect      and deposit   Federal   funds resulting     in
substantial    savings   to DOL.    (See also page 17o)

Lease vs Purchase    of DOL Equipment     -- Based on our recom-
mendations  in a letter    dated May 21, 1984,      to the Employment
Standards  Administration,     approximately     $3 million  in actual
savings will result from purchasing        rather than leasing     ADP
equipment  for the Federal     Employees'    Compensation   program.
 (See also page 32.)

Elimination    of ILAB Travel Office    (Audit Report   NOo 02-4-
098-07-001)    -- The OIG recommended    that ILAB discon-
tinue maintaining     their own travel   office   and use the DOL
travel office operated      under contract   with GSAo   Their
implementation    of our recommendation    has resulted    in $56,000
in annual   savings.     (See also page 25.)




                                 -51-
CETA Phasedown    Review   of Oklahoma    City Consortium     (Audit
Report No. 06-3-545-03-345)        -- Our CETA phasedown      review of
Oklahoma  City Consortium      disclosed   that a pending    contract
for record storage     space would be charged       in total to the
CETA program   when CETA records      comprised    only i0 percent    of
the storage   volume.    Charges    to CETA were revised     to reflect
the 10 percent    actual   usage which    resulted    in a one-time
saving of $211,666.




                                -52-
                  Chapter    4 --    Internal   Improvements

The Office    of Audit has made significant       progress   in the
past year to establish        systems which will result in. improve-
                                                                 &   ,

ments to our operations.         We now have a fulltime    dlvlslon
dedicated   to applying     ADP and mathematical/statistical
theory to our audits.         We have a major program    for training
our program    analyst    staff as auditors   to meet the ever-
increasing   demand    for audit work within    the Department.
Finally,   our contract     CPA auditors   are now required    to use
the GSA contract     airfare    rates resulting  in considerable
savings   on our contract      costs.


ADVANCED     AUDIT    TECHNIQUES

In our September     1983 semiannual     report, we reported      the
establishment     of a Division   of Advanced    Audit Techniques      to
enhance   our technical    capabilities.      Since that time, the
division   has made a significant      impact within     both OIG and
the Department.      The basic foundation      for applying    mathema-
tical/statistical     principles    and computer    technology    to the
audit process     has been developed.      Internal   policies    for
(i) the use of statistical       sampling    in auditing;    (2) the
disclosure    of statistical    sampling   results   in audit reports;
and (3) systems development       monitoring    and reporting
procedures    have been drafted.

The division   has been active    in monitoring    new systems
development   efforts,   in developing   statistical     profiles         of
program   data to detect   fraud in departmental      programs,          and
in outlining   future  initiatives.


New   ADP   Systems    Development

We are increasing      and expanding    the commitment    of our
resources   to prevention     activities    in the area of new ADP
system development.       We have shifted     our emphasis    from post
implementation     auditing   to proactive    monitoring.     We are
providing   up-front    assistance    and analysis    to achieve   cost
avoidance,   better project     management    controls,   and attention
to the importance      of internal    controls.    Our policy    is to
contribute   positively     to the installation      and implementation
of improved    computer-based     information    systems within    the
Department.

As examples  of our pre-implementation       work, we have per-
formed extensive,    in-depth   analysis   of the FECA Level II
development  project    (discussed   on page 31).    We believe  this
effort will result in the implementation         of an effective


                                     -53-
system   containing    audit trails and provide    OIG staff per-
sonnel with the technical       skills required   to perform   audits
of the program     using the automated    data bases.    We have also
provided   limited    support in evaluating   portions   of the Black
Lung bill payment      system recompetition   solicitation.     Our
work here has been related       to security  issues and documenta-
tion problems    with the existing    system  specifications.


Statistical     Profile/Hodel    Development

Our mathematical     statisticians     have concentrated     on exami-
ning the distributional       properties    of the data collected       in
support   of two major programs,       Unemployment    Insurance    and
Black Lung.     Using Unemployment      Insurance   data sets, we have
developed   a preliminary     statistical    profile/model    which    is
currently   undergoing    field testing.      The work in the UI area
is also discussed     in the Office     of Investigation's     section
on page 67 and in this section        on page 16.

In addition    to developing     statistical    models/profiles      of
program   data, we have developed       complex   statistical     sampling
plans for use in our audits.          Such plans enable us to pro-
vide nationwide     audit coverage     with reduced     resource    (per-
sonnel   and travel)    expenditures.      In our current     Job Corps
project,    the application    of statistical      sampling   will result
in reducing    audit costs by $3 million.


Future   Initiatives

We have developed   an 18-month   audit plan to provide     coverage
of specific  ADP systems   or initiatives   within   the Depart-
ment.   As the plan is translated     into specific   audit pro-
posals,  the involvement   of OIG in departmental     management
and control   of ADP resources  will become    pronounced.

Finally,    to fully address     the requirements       of OMB Circular
A-123,   Internal    Controls,   we plan to rapidly        expand the
technical    expertise    and capability    within    the division.       In
addition    to our commitment     to recruit ADP auditors         and
specialists     and mathematical     statisticians,      we will also
integrate    economics    theory  and operations      research    analysis
into the division's       staff.    These two disciplines,        coupled
with existing      capabilities,    will improve     OIG's capability
not only to model data but also to simulate              programs    and _
delivery    systems,    identify   internal   control    deficiencies,
and determine      cost effective    breakeven    points    for funding
levels.




                                 -54-
   0IG   ACCOUNTING     AND    AUDITING    PROGRAM

  During Fiscal   Year 1984    0IG established     the Accounting    and
_ Auditing  Program   to provide   program   analysts    (GS-345 series)
  with the accounting    and auditing    knowledge    necessary  to
  function  as OIG auditors     (GS-511 series).

   In the past 2 years,       a number of program      analysts    were hired
   by the Office     of Audit who would otherwise         have been ter-
   minated   by DOL Agencies      experiencing    program    reductions,   and
   some were assigned      to the Office     of Audit as a result of
   reorganization     within   the OIG.     Although   the program
 , analysts   possess    a wealth    of experience    in analyzing     and
   evaluating    departmental     programs   and grantee     operations,
......
   they have little      or no audit training      or experience.

  The    program    consists     of:
  f

         --    a maximum   of 18 semester   hours of college-level
               academic   training   with course work in accounting
               and auditing    designed  to emphasize   the knowledge
               needed   for OIG audit assignments     and

         --    work experience•     including   developmental     work
               assignments•    aimed at giving     program   analysts  the
               specialized   professional     experience    and knowledge
               needed   to convert   to the auditor     series.

  By August 1984, two classes       of program   analysts    had com-
  pleted the 20-week     course   of academic   study.     A third class
  began in September     1984 with a fourth     and final     class
  planned   during  Fiscal    Year 1985.   Beginning    with the second
  class,   the students    included  program   analysts    from the OIG
  of the Veterans    Administration     and Department     of Energy  on a
  cost-reimbursable     basis.

   This program    will thus enable OIG to deploy    the valuable
   experience,    program  knowledge•  and skills of program
   analysts•   many of whom would have been lost to the Depart-
 _.ment, while filling     a critical  need for auditors  with
   diverse   backgrounds   to meet heavy audit demands   in the
  Department     of Labor.


  SAVINGS     ON   COST-REIMBURSABLE        CONTRACTS

  During   this reporting   period we implemented       a program    to
  allow our cost-reimbursable       contractors     (CPA firms)    to use
  Government   contract   airfares,   which   are substantially      lower
  than regular   airfares,    when traveling     on official    Government
  business.    Although   the Federal    Airline   Contract   contained    a


                                          -55-
clause   specifying    that cost-reimbursable      contractors   could
use Government     contract    airfares, only   in the last year have
the airlines    accepted    the idea and the    General   Services
Administration     promoted    ito

For the first 3 months     in use, savings  of $161,051    have
resulted°    If projected   over a 12-month   period,   OIG could
realize   an annual  savings of approximately     $640,000  which
will be used for priority      audit work°




                                -56-
                           OFFICE     OF     INVESTIGATIONS




This reporting     period   has shown a significant       increase   in
the number    of indictments     and convictions     obtained.     In this
six month period we had 284 indictments           and 141 convictions
which is an increase       of 66 percent    and 34 percent,
respectively,     over the same period      last year.     We have had
sustained    growth during the history       of the Office     of
Investigations.       Our growth    for Fiscal Year '84 is
represented    by an increase     of 65 percent     in indictments    and
48 percent    in convictions     over Fiscal Year '83.        The chart
below outlines     the growth we have experienced         over the past
several   years.     This growth    is attributable     to added
experience    by our investigators      and U.S. Attorneys       in the
various   DOL program     areas.




                    OFFICEOF INVESTIGATIONS
                    INDICTMENTS8 CONVICTIONS
          500F                                                 _   I_)ICTWENTS
             I



          400_

             i


          300F
             I
          200!




          I00,
            L

            I
           oLll __
                 FY IgBl    FY 1982        FY 1983   FY 1984




Monetary   returns  in the form of recoveries,    restitutions,
and fines are increasing.      We have been making    a special
effort   to regain funds wherever   possible  through   both the
criminal   and civil process,   and we will continue    to do so.
The graph outlined    below gives an indication    of our monetary
returns   for Fiscal Year '84.




                                       -57-
                             OFFICEOF INVESTIGATIONS
                              INVESTIGATION
                                          RESULTS

                                                                    C0STEFFICIENCIES
                  51                                          INn   RECOVERIES

             u-)41                                            _     RESTITUTIONS


           ._J

           _3L




                 ,i
                 0[--_
                                       NATIONAL
                                              TOTAL




Following    are the most active    program areas                 where we are
giving   investigative   attention   and a sample                 of the types         of
investigations     we are conducting.


EMPLOYMENT               STANDARDS   ADMINISTRATION

As in our last report,       the Employment  Standards
Administration     (ESA) case load continues     to require    the
heaviest   resource    commitment  in the area of claimant      fraud
investigations     interspersed   with some significant     employee
integrity   cases.


                                       Claimant       Fraud

Claimant    fraud cases continue        to require     a heavy commitment
of OIG resources°        These cases usually         involve   the
concealment     of earned    income   based on employment        or
self-employment.        It is this gainful        employment    that
indicates     to the program     that the claimant        is no longer
totally    disabled   and, if reported,        would result     in a
reduction    or termination      of benefits.       This situation
existed    in one particularly       significant      case (9____L99__a
D_Ig_a_JI_     D. Idaho)   which has had an impact on other
claimant    fraud cases during       this reporting      period°      It was
the Dorey case and its resulting            Court of Appeals       decision
that was the subject       of a seven-day       report issued to the
Secretary    of Labor by the Inspector          General    and forwarded     to
Congress    in August    of this year.       For continuity      and ease of
understandinge      a more detailed      description     of the Dorey
investigation     and the resulting       seven-day     report   is found in


                                            -58-
the Office   of Resource     Management     and   Legislative
Assessment's   sectiono

Cases involving       such concealment     of employment      generally
 involve   false statements      by Federal     Employees _ Compensation
Act (FECA) recipients         who are classified      as temporarily
totally    disabled     (TTD)o   In cases after _Dor_ey, the
Government     argued    that, notwithstanding       the _Dorgl_ decision,
other    statutes   of the UoS. Code should         suffice   in similar
investigations°        However,   another    FECA reporting      case
prosecuted     under the mail fraud statutes,           9__S___v___Pa_l__.
__b         (N. D. California),      resulted    in acquittal     when the
court,    relying   upon Dor_y,    ruled that false statements           in
reports    filed by long-term      FECA recipients       were not material
and, therefore,       the Government     could not prosecute        such
recipients     for mail fraud.

In June of 1974, Raditch         allegedly    sustained    a lower back
injury while he was employed          by the U.So Post Office.
Raditch   was also classified        as TTD and remained       so because
he did not report any employment            on the forms sent to him by
the Department,      yet he worked      as a retail    clerk in a liquor
store from December       1977 to August      1978.    Following     this
employment,     Raditch   worked    as a driver/loader       at a produce
company   from August     to October     of 1978o     OIG's   investigation
disclosed    that during both periods         of employment,      Raditch
claimed   lower back injuries        and was awarded      state workers'
compensation     benefits.     For these back injuries,          Raditch
received   over $13,000,      while he was continuing         to collect
FECA benefits.       Finally,    in February     1982, Raditch     was
employed   at a gambling      casino    and again,    he failed to report
his employment,      yet he earned      over $19,000     in 1982 alone.
From December      1977 through     May 1983, Raditch       received    over
$60,600   in FECA compensation         benefits°

Raditch   was acquitted    in May 1984, when the court,       relying
upon the Dor_ey decision,      ruled that the false statements
made by Raditch     in reports   filed with OWCP were not
material.     It was this court decision      and the subsequent
dismissal    of still another     indictment,  _____RgD_lg_QI_D
 (W. D. Washington),    in the Ninth Circuit      that prompted    the
Inspector   General's   report to the Secretary       on August   15,
1984.

Some other    significant    claimant     fraud   cases   are   highlighted
below.

     --    A federal    employee,   who sustained    a traumatic
           on-the-job    injury   in February   1981, was indicted
           along with her husband      for fraudulently     submitting
           medical   bills totaling     $35,563  to the Department


                                 -59-
     for   reimbursement         when,,    in   fact,    the     medical
     expenses     were   previously     paid   by the husband's
     private    insurance      carrier.      In June    1984,   both   pled
     guilty    to one count       of conspiracy      and making     false
     statements.       Then,    on August     6, 1984,     they  appeared
     for   sentencing     and the employee        was placed     on two
     years'    probation     while   her husband      received     three
     years'    probation     with   the   stipulation      that he
     reimburse     the Federal      Government.       _U__S.__vx__Abr_o_e
     (Eo Do Washington'.)

--   In July     1975,    a licensed      vocational       nurse    claimed
     an injury      to her lower       back while       she was employed
     at a Veterans        Administration        Hospital.        Between
     that   date    and August      1983,    she received
     approximately        $60,200     in disability        compensation
     from   OWCP    while    she concealed        being    employed     by
     three   different       employers      and had received
     approximately        $87,,000    in earnings.         She had used
     false    social    security      numbers     to conceal      these
     earnings     from    OWCP.     On September        i0, 1984,      the
     nurse   pled    guilty     to one    count    of an indictment
     which    charged     her with     mail    fraud,    stemming     from
     the false      reports     she submitted       to OWCP      in
     connection      with    her   claim    for continued        FECA
     benefits.       _U__S___v__M_ar_s_ha!!    (Co D. California)

--   A recipient      of FECA     survivor°s       benefits     signed     a
     consent    order    on June     13, 1984,      in which      she agreed
     to repay     the U. So Government           $98,170     and to
     relinquish      her rights      to the lump       sum payment       of
     approximately       $42,000.       This    consent     order    was   in
     response     to a civil      action     filed    against     her after
     an OIG    investigation       determined       that    she had
     entered    into    a common     law marriage        relationship        and
     failed    to report     this    remarriage       to OWCP.       She
     began   collecting      FECA    benefits      in 1975     after    the
     death   of her husband,         a federal      employee      who   died
     of injuries      he sustained       in an automobile          accident
     while   in official      duty    status.       Our investigation
     determined     that   in 1977      she effected        a common     law
     marriage      based   on    state     statute.          This  remarriage
     would    have    limited     her     benefits      to    a single   lump
     sum payment°




                                -60-
     Criminal   prosecution   was waived    in favor of civil
     action   in this case due, in part, to a weakness        in
     Form CA-12    (Claim for Continuation     of Compensation)
     which did not specifically       address  the iss,ue of a
     commom   law marriage   relationship.     OIG, however,    on
     the basis of this and a recent Fourth         Circuit  case
     on the effect of common law marriage         (_S__v_
     D_XX_DS_!   718 F. 2d 1279) made certain
     recommendations     to OWCP to strenghten     this and
     several   other compensation     related  forms, which the
     program   has agreed   to institute.     U_S__y__Epple    (N.
     D. Georgia)

--   A former   aircraft    mechanic    at Hill Air Force Base,
     Utah, was sentenced       on April 3, 1984, to three
     years'   imprisonment,     suspended,    fined $2,000,
     placed on probation       for five years,     and ordered to
     make full restitution        in the amount of $80,442.     He
     had previously     pled guilty     to making   false
     statements    and to making     false statements      to
     receive   FECA benefits     while concealing      his
     self-employment     from OWCP during April 1979 to
     January   1983.   _Z__X___!H_n          (D. Utah)

--   An Information     was filed on May 17, 1984, in New
     Mexico   charging   an employee     at a U.S. Naval Ammo
     Depot with three counts of making           false statements
     to obtain    FECA benefits.      The investigation
     disclosed    that, while receiving       FECA benefits     for
     an alleged    total disability,      this employee     operated
     a septic tank cleaning       service   and a bar, thereby
     receiving    compensation    he was not entitled       to.   An
     overpayment     of approximately     $94,000    has been
     declared    in this case.     __Y___D_               (D. New
     Mexico)

--   On April 23, 1984, a former        boiler plant operator
     at Clear Air Force Station,        Alaska,    was convicted
     in U.S. District     Court, Anchorage,      Alaska,    on one
     count of making     a false statement      in connection
     with his FECA claim for temporary          total
     disability.     He had been indicted       in November     1983
     on three counts of filing false statements             with
     DOL.   From March 1976 through        April 1983, he
     received   approximately     $173,155    in disability
     compensation.     Our investigation       established    that
     this individual     owned and operated      a sawmill     and an
     international    fish and fish egg selling         business,
     travelling    to such places     as Canada,    France,    and
     the Phillipines     in his business.       In 1981 alone, he
     had reported    earnings   of approximately       $578,000.


                          -61-
            On May 22, 1984, he was sentenced         to a term of 90
            days'   imprisonment,    placed  on two years'    probation,
            and ordered    to make restitution     of $40,000.     A
            civil suit to recover       the FECA benefits   paid this
            individual    during  1978-1981    is being considered.
            H__y___lark       (D. Alaska)


                              Employee    Fzaud


During   this reporting      period OWCP employee       fraud and
corruption    were the subject      of major investigations         in two
different    programs.      The first investigation        involved    a
fiscal   payment    clerk in the Chicago       District    Office   of the
Division   of Federal     Employees'    Compensation      (DFEC), who
created   fraudulent     compensation     and medical     reimbursement
vouchers   and caused the subsequent         Treasury    checks   to be
sent to herself      and her two accomplices°         The second
investigation     involved    the discovery     of yet another      claims
examiner    in the Charleston,      WV, office     of the Division       of
Coal Mine Workers'       Compensation     (DCMWC) who had processed         a
claim for Black Lung benefits          and solicited     a "kickback"
from the beneficiary        to be made payable      to the claims
examinerOs    wife°    These two investigations         are highlighted
next.

     --    On August    I0, 1984, Maggielean       President,     the
           fiscal payment      clerk in the Chicago      District     Office
           of DFEC, entered       a plea of guilty     to a 58 count
           indictment     charging   her with mail fraud, theft of
           government     money,   and income tax evasion.
           President    was sentenced     on September    20, 1984, to
           serve four and one-half        years   in prison    and five
           years'   probation     to run consecutively      with her
           imprisonment°       Also charged     in this scheme were
           President's     sister,   Janice   Delridge,   and a friend,
           Carrie Lyons°       Ms. Lyons was sentenced       to five
           years'   probation    and is to serve 90 days in a work
           release   program°      President's    sister  is still
           awaiting    trial°

           In the President     case, all of the defendants        had
           used the money    they jointly    stole to acquire
           assets°   OIG's   investigation    was able to identify
           these assets,    and a civil suit was filed against
           all three   individuals    under the Federal     False
           Claims Act°    A summary    judgment   was issued     in Uo S.
           Federal  District    Court, and the personal       assets of
           the defendants    were attached°      The assets    included
           one semi-tractor     and refrigerated     trailer,   one


                                 -62-
           automobile,    one residence,     and all of the monies
           the defendants     had in their personal      bank
           accounts.     The Government    will auction    off these
           assets   and will recover     at least $410,000.       Of this
           amount,   $236,000    has already   been received    by OWCP.
           The Court also assessed       President,   Delridge,    and
           Lyons in the amount      of double   the damages    assessed
           against   each.    _=_S.__v___Px9_i_d_eDt_e_t___l. (N.D.
           Illinois)

As we previously  reported    in our last semiannual   report,
three claims examiners   in the Charleston,    WV, office   of
DCMWC issued fraudulent    benefit  checks to accomplices    who
then cashed the checks and kicked backed      a sum to the claims
examiner.

     --    A fourth   claims examiner,    William    McFarland,   was
           identified   as having   solicited    $3,500 from a Black
           Lung claimant    for approving    her award.     McFarland
           attempted   to conceal   this payment by directing        the
           claimant   to make a cashier's     check payable     to his
           wife.

           On May 8, 1984, McFarland        and his wife were
           indicted    by a Federal    grand jury.      They were
           charged   with bribery,     aiding   and abetting,    and
           conspiracy.      McFarland's    wife signed a pretrial
           diversion    agreement    on September     5, 1984.
           McFarland    pled guilty     to one count of receiving       an
           illegal   supplement    to his salary.      He was sentenced
           on October    4th to six months'       incarceration    along
           with five years'      supervised    probation    and ordered
           to make restitution       to the miner's     widow.   _.__
           _c__arl_aD_s (S.D. West Virginia)

DCMWC's   assistance    was instrumental       in identifying     those
Black Lung benefit      payments    which proved     to be fraudulent      in
their Charleston,      WV, office.       DCMWC  is continuing      to insure
that claims approved       by that office      are legitimate      through
the use of a claims       review task force.       As we reported       in
the last semiannual       report,    over 4,500 case files were
removed   from the Charleston,        WV, District    Office    for review
by this task force.        It was from these files that DCMWC_
working   with OIG, was able to identify          those fraudulent
claims authorized      by the four claims examiners          who obtained
the illegal     "kickbacks".      More recently,     this review      has
identified    a significant     number    of approved    claims    that
involved   these same four claims examiners,           and an element      of
doubt exists     as to the validity       of the evidence      used to
establish    eligibility     for benefits.      Predominately,      this
group of claims was approved          for benefits,    but reportedly


                                 -63-
the evidence     contained   in the claim files either did not
support   sufficient    years of coal mine employment      or the
medical   evidence    did not meet technical    specifications    to
establish    that the claimant    had pneumoconiosis    and was
totally   disabled.     The task force   is continuing    its review
of the case files and all cases which may indicate           fraud are
being forwarded      to OIGo

As a result of these and other investigations         conducted by
OIG, OWCP has made a commitment       to train their supervisors
in Fraud Awareness    and their employees     on the Standards  of
Conduct   for Federal  Employees°     OIG is assisting    in
developing   and in presenting    these training   sessions.

Some other examples   of significant   investigations     under       ESA
during this reporting   period  are highlighted    below°

          --    As a result of an investigation            conducted   with
                the cooperation      and assistance       of the Wage and
                Hour Officer     Tulsa, Oklahoma,        on April 20,
                1984, a co-owner      and a manager       of an oilfield
                service   company    were placed on a Pre-Trail
                Diversion    for twelve months        for requiring
                employees    to "kickback"      back overtime     wages
                paid them as a result of a previous             Wage and
                Hour investigation       of violations      of the Fair
                Labor Standards     Act    (FLSA)o     In the previous
                investigation,     Wage and Hour had allowed          the
                owners to bring the company           back into
                compliance    with the FLSA by certifying           to the
                payment   of back wages to their employees.
                However,   after the certification          was received
                by Wage and Hour showing         payments    were made,
                some employees     complained      that they were
                required   to return the money to the company             or
                lose their jobs.       During plea negotiations
                resulting   from the subsequent         investigation,
                the company    has entered      into a formal
                agreement   with Wage and Hour to pay back and
                overtime   wages in excess of $46,000 to
                employees   through    the Department°        __S.__v___C__&
                __Qi!__e!_d__S_ervice_      (W. Do Oklahoma)

    --    In a similar matter,       on September   5, 1984, a
          Federal   grand jury in Honolulu,       Hawaii,   returned    a
          79 count Indictment      against   a construction     company,
          its president,     and the secretary/treasurero         The
          indictment    charged   the officers    and the corporation
          with criminal     conspiracy,    false statements,     mail
          fraud, false claims,      and income tax evasion       during
          a scheme to defraud      the Government     on military


                               -64-
     construction    projects.     The indictment      is the
     result of an 18-month       investigation     by OIG, FBI,
     IRS, and the Naval Investigative          Service    (NIS).  A
     joint OIG and NIS investigation         into the wage
     payments   disclosed    that the employees      were not paid
     anywhere   near the prevailing      wage rate nor were the
     wage rates or hours properly        reflected     on payroll
     certifications.      Both corporate     officers    were
     arrested   on September     6, 1984, entered      initial
     pleas of not guilty,       and were released      on bond.
     Trial is pending.       _U._S___v___Atl_anti_c___oD_r_u_t_D
     _omp_Dy     (D. Hawaii)

--   During   and subsequent      to the trial of two
     individuals     for violations      of the Davis Bacon Act
     in the course of their performance            of a public
     works contract     with the City of Philadelphia            in
     1979 and 1980, information          was developed     which
     implicated    a third man in a conspiracy           to defraud
     the United    States.      Further    investigation
     determined    that this individual,         a vice-president
     of an alleged minority         firm, submitted      false
     statements    concerning     the minority     status of his
     firm and regarding       wages   paid employees      working   on
     a $384,752    federally     funded contract      limited    to
     minority    enterprises.       On June 27_ 1984_ he pled
     guilty to one count of making           a false statement      and
     one count of conspiracy         and was sentenced       to three
     years'   probation    on each count and fined $2,500.
     __S._y.__a_s__maD      (E.D. Pennsylvania)o

--   On September     19, 1984, a Black Lung lay
     representative     was sentenced      to six months'
     supervised    probation     and ordered    to pay full
     restitution    of $5,405 after she pled guilty           to one
     count of a three count Information            charging   her
     with solicitation       and/or   acceptance    of unauthorized
     fees for representing        Black Lung claimants.        In the
     July 1984, issue of Ladi_es Home __o_r_n_al,she was
     cited as an "American        Heroine"   for her "good deeds"
     in lobbying    for the passage       of Federal    legislation
     granting   Black Lung benefits.         The investigation
     determined    that she had accepted        unauthorized     fees,
     representing     10 percent    of the lump sum awards
     given to claimants,        for her assistance      in obtaining
     benefits   while    employed   at a Department      of Health
     and Human Services       subsidized    clinic. _.__v.
     _o__e!! (S. D. West Virginia)




                           -65-
--   In another    employee    integrity   matter,    on May II, 1984, a
     secretary   with the Bureau       of Labor Statistics       (BLS)
     resigned   her position      in anticipation     of the rendering
     of an OIG Investigative        Memorandum    after criminal
     prosecution    had been declined      due to the dollar       amount
     of fraud involved.        The Investigative      Memorandum     charged
     the secretary    with false claims against          the Government
     and unauthorized      alterations    of her timekeeping       records
     amounting   to $3,869.78°       Management    within   BLS had
     indicated   that they would have settled          for nothing     less
     than the employee's       termination    or resignation      and full
     restitution    of all fraudulently       obtained    funds.
     Administrative     action    is still pending     on the
     restitution    issue.     _DQ_L__v___S_al
                                           adid i.


                                FECA     Project


AS part of our efforts        to maintain     a "pro-active"      approach
in identifying     and eliminating       fraud,   waste,    and abuse in
the FECA program,      and based on the results          and findings    of
the "National     FECA Project,"      which was discussed        in previous
semiannual    reports,    OI intends     to initiate     a I00 percent
file review     of FECA periodic      roll claim files maintained          at
the OWCP District      Office,    Jacksonville,     Florida,     for
claimants    residing   in that state.        As part of this review,         a
match of FECA recipients        against     Florida   State wage data
will be made to identify        instances     of possible     fraud for
further   investigation.       There are approximately         2,600
claimants    receiving    compensation     or related     FECA benefits
residing   in Florida.       It is hoped that other Federal
agencies   will provide     assistance      in this project     much like
they did in the "National        FECA Project,"       and that file
review   field work will begin in November            1984.


EMPLOYMENT    AND   TRAINING   ADMINISTRATION


Unemployment    Insurance    (UI) and job training      program   (CETA
and JTPA) fraud cases comprise        the majority    of ETA-related
work conducted     by the Office    of Investigations.       During  this
reporting   period    the Employment    and Training    Administration
 (ETA) encouraged     the State Employment     Security   Agencies
(SESAs) to utilize      our investigative     resources    in fictitious
employer/employee      UI schemes,   fraud/theft/embezzlement       by
SESA employees     and UI claimant    fraud cases.      Our increased
attention   to fraud in the UI program        is evidenced    by the
following   case statistics:



                                  -66-
                          UI   Fraud   Investigations


      _E_D_         Period                    Cases     Qpgned   Indic_m@D__

      October     1982   - March   1983                 27          i0

      April     - September     1983                    64          43

      October     1983   - March   1984               265           81

      April     - September     1984                  448          212


 The Inspector     General's    principal     concern   remains   the
 vulnerability     of the multi-state       UI program     to the
 potentially    high dollar losses        associated    with fictitious
 employer/employee      schemes.     Work is continuing       on a joint
 Office   of Audit and Investigations          project   to perfect    a
 Computerized    screening    methodology      for the detection      of
 fictitious    employers/employees        using information      in the SESA
 data bases.     The resulting      profile    was tested    in one state
 andisbeing       refined   based on the findings.          Our primary
 objective,    with the full support         of state UI directors       and
 ETA officials,      is to ensure     that fictitious
 employer/employee      schemes    are adequately      detected,
 investigated    and prosecuted.

 In the area of job training         programs   the number     of reported
 instances    of fraud has been low since the inception             of
 JTPA.    Although    ETA has an incident      reporting    procedure     in
 place, we feel that the states have not been reporting
 instances    of fraud, abuse,      or other criminal      activity    as
 required    by the program     regulations    and ETA procedures.         We
 have encouraged      ETA to develop     an incident    reporting
 procedure    sufficient    for the states to communicate         an
 alleged   instance    of wrongdoing     to ETA and OIG within       one day
 of discovery.       In January   1984, the Deputy      Assistant
 secretary     (ETA) personally     advised   the Assistant     Inspector
'General    for Investigations      that he would communicate        the
 JTPA incident      reporting   requirement    directly    to the governor
 of each state.       In August    ETA drafted    a notice    to state JTPA
  units to accomplish      this goal, but the document         has not yet
  been issued.




                                       -67-
             Fictitious     Employer/Employee       UI   Schemes


 In a case referenced        in the last Semiannual        Report,    a
 retired   carpenter    was sentenced     on August     6, 1984, to five
years    imprisonment    to be followed      by five years probation
and ordered     to pay restitution       in the amount of $2,000.            The
sentence    was the result of a guilty plea to three counts of
an ii count indictment         on February    23, 1984o       Investigation
revealed    that he devised       a scheme in which 13 state
unemployment     insurance     programs   were defrauded       of
approximately      $75,000.      He accomplished     this fraud by
establishing     a network     of 23 fictitious      employer     accounts,
manipulating     over 100 aliases,       60 addresses,      and 22 bank
accounts    throughout     the following     states:     New Mexico,
Arizona,    Colorado,    Iowa, Kansas,     Nevada,    Wyoming,     North
Dakota,    Nebraska,    Wisconsin,    Indiana,    Oklahoma,     and Utah°
At the time of his arrest          on February    23, 1984, he was in
posession     of 59 state unemployment        checks from various
states,    numerous   pieces of identification,          various    bank
records,    and over $9,600 in cash.          It was projected        that had
he been allowed      to continue,     $463,000    would have been
fraudulently     obtained     from the aforementioned        states°      _S_
X___D_       (D. New Mexico)

     --    On August    24, 1984, a Houston,       Texas,   couple was
           charged   in separate     indictments    with a total of 42
           counts of mail fraud.         The subjects     of the
           indictment    established     two fictitious     employer
           accounts   with the Texas Employment         Commission    for
           the purpose    of fraudulently      obtaining    $12,966    in UI
           benefits.     Incident    to the investigation,        it was
           determined    that the couple was also being
           investigated    for a similar     scheme    in the State of
           New York, and the case has been referred             to the
           U.S. Attorney     Eastern   District    of New York°      The
           loss to the State of New York is estimated              to be
           over $140,000.      Both of these cases will be more
           fully explained     in the next semiannual        report°

     --    We are currently    investigating    two other fictitious
           employer/employee    schemes°     One involves    over I00
           false claims by more than 30 individuals;          the other
           involves   a suspect who established     ten fictitious
           employee   accounts  and began collecting      UI
           benefits.    These cases will be discussed        in detail
           in the next semiannual     report°



                                  -68-
UI   Claimant   Fraud

 Successful    prosecution    of UI fraud concerning      singl,e
 claimants   has been accomplished      through   the clustering      of
 cases.    This approach    has helped U.S. Attorneys       focus on the
 magnitude    of fraud in the program.       The resultant     multiple
prosecutions     have increased     the deterrent    impact of our
 attention    to UI claimant    fraud.    By themselves    these cases
 do not represent     a large loss; however,      when "clustered,"
 losses   range from $7,000 to approximately         $20,000.     This
 approach   has been highly     successful   in one region and is
 being vigorously     pursued   in the other regions.

Highlighted   below are examples  of UI claimant            fraud cases
presented   for prosecution  using the clustering            concept:

      --    On September    28, 1984, 20 felony        complaints     were
            filed before a U.S. Magistrate          in Phoenix,     Arizona,
            charging   20 individuals      with one violation       each of
            the mail fraud statute.         At the same time the
            Arizona   State Attorney      General's   Office    filed 20
            felony complaints      in State District       Court charging
            an additional    20 individuals      with one count each of
            theft.    These individuals      were identified       as a
            result of the OIG coordination          efforts    with the
            State Attorney     General's    Office   and investigators
            attached   to the Arizona      Department    of Economic
            Security.     As a result of this investigation,
            additional    attention    will be provided       through    the
            coordinated    effort.     Based on information        provided
            by officials,     it has been determined        that
            approximately     $496,000    in fraudulent     payments     were
            made in the first half of 1984, and that over $1.6
            million   was fraudulently      obtained    during    1983.     We
            intend to actively      pursue    these cases jointly        with
            state officials.

      --    A Federal  Grand Jury in the Western   District   of
            Texas indicted   12 individuals on September    18,
            1984, charging   each with three to five counts of
            mail fraud and one count each of theft of
            Government  funds.

      -,    Criminal   Informations    were filed in the District           of
            New Mexico on September       17, 1984, charging    five
            individuals   with one count each of mail fraud.
            These fraudulent     claims resulted     in collectively
            over $9,000 being unlawfully        received  by the




                                  -69-
                 individuals°        These    cases    are    presently   awaiting
                 court action°

        --      On June 5, 1984, a Federal         Grand Jury in the
                Northern    District   of Oklahoma     returned  indictments
                charging    five individuals      with 6 to 21 counts    each
                of mail fraud.       Through   filing   false UI claims
                these   individuals     collectively    received  over $9,000
                in benefits.

        --      The Middle    District  of Louisiana  Grand Jury
                indicted   four individuals   with multiple   counts of
                mail fraud on June 6, 1984.       The individuals
                received   over $12,000   in UI benefits   as a result of
                fraudulent    claims.

     --         Fourteen  individuals    were indicted   in the Eastern
                District  of Oklahoma    on May 31, 1984, charging    them
                with 5 to 18 counts of mail fraud.        The individuals
                filed fraudulent    claims for receipt    of UI benefits
                resulting  in unjustified    payments  of over $18,000.

     --         On March 28, 1984, a Federal        Grand Jury in the
                Middle   District    of Louisiana   indicted   seven
                individuals    for multiple    violations    of mail fraud.
                Collectively,     the individuals     received  98
                unemployment    checks   totaling   over $20,000.


Other        Schemes   Perpetrated      Against       ETA    Programs

    --          On February     6, 1984, a Federal       Grand Jury     in the
                Northern    District    of Georgia     returned    a 19-count
                indictment     against    the Labor Commissioner,        the
                former Director       of Corrections,      the Unemployment
                Insurance    Field Deputy,      four Employment      Security
                Area Supervisors,       and an Unemployment        Insurance
                Area Supervisor.        Seven are charged with violating
                the Racketeering       Influenced    and Corrupt
                Organization     Act (RICO), and the remaining
                defendant    is charged with providing          false
                declarations     to the Grand Jury.         The RICO
                indictment    alleges    that the defendants        comprised    an
                enterprise    which engaged      in a pattern     of
                racketeering     activity    for purposes     of (I) obtaining
                money and property       illegally    for the benefit       of the
                Georgia   Labor Commissioner        and the enterprise,        (2)
                misusing   the Georgia      Department    of Labor     (GDOL) for
                illegal   profit    making   activity,    extortion,     and _
                personal   financial     gain,   (3) defrauding      insurance
                companies,    and (4) perpetuating        and maintaining


                                       -70-
            their positions    in office   in GDOL through   criminal
            conduct  involving   conspiracy,   bribery,  extortion,
            and mail fraud.

            The investigation      which was jointly        conducted  with
_           the FBI, the Georgia       Bureau of Investigation,        the
            Georgia   Attorney   GeneralWs     office    and three U.S.
            Attorneys ° offices     disclosed     that GDOL personnel
            participated    in criminal     activity     while being paid
            with Federal    funds.     Specifically,      GDOL personnel
            were used to refurbish        several    yachts   during the
            hours that official      business     should have taken
            place and were used in the alleged            conspiracy   to
            destroy   a vessel   in the Atlantic       Ocean.     The trial
            of the above offenders       is scheduled       to begin on
            October   I, 1984.

            Since October    1982, this investigation        has resulted
            in 29 persons    being indicted    by either     the State of
            Georgia   or a Federal    Grand Jury.     Presently,     15
            defendants   have been convicted.       Also, the Georgia
            Labor Commissioner      appointed  after the indictment
            of the elected    Commissioner    has terminated      33
            employees   based on the investigation.          These
            employees   include:     Nine Area Supervisors       for
            Employment   Security    and Unemployment     Insurance;    the
            GDOL General    Counsel    and his dep%ty;    nine GDOL Area
            office managers;     three Unemployment      Insurance    Field
            Deputies;   and ten GDOL employees.

       --   A 13-count    indictment     on September     20, 1984,
            charged   two JTPA counselors        and three JTPA
            participants     with conspiracy,       embezzlement,   mail
            fraud, false statements,        and bribery.       The
            indictment    came as a result of a four-month          joint
            investigation     by Special    Agents    from the Office     of
            Investigations,      Office   of Labor Racketeering,       and
            the Las Vegas Metropolitan         Police Department.       The
            indictment    alleges    that the subjects      were involved
            in a scheme    to defraud     the Southern     Nevada
            Employment    and Training     Program    by establishing
            fictitious    and/or    non-eligible     employees.
....        Additionally,     the indictment      alleges   the counselors
            and participants      divided   the reimbursement      checks
            paid to the participants        for training.
_           Investigation     is continuing      in this matter    and will
            be more fully explained        during    the next semiannual
            report°




                                 -71-
--   A former Job Counselor        for the Seattle       Indian
     Council   was found guilty on July 3, 1984, of eight
     counts of embezzling       CETA funds.       The counselor
     used previous     client   files to give the appearance
     these same individuals        had reapplied      for supportive
     service.     Through   the falsification       of these
     documents,    the counselor      subsequently     received,
     endorsed,    and cashed CETA checks totaling            $5,370.
     Handwriting    specimens    obtained     from the counselor
     were used to positively         identify   him as the
     endorser   of the checks.        On August    I0, 1984, he was
     sentenced   to a prison     term of two and one-half
     years to be followed       by three years probation.
     $J__y__De_N_or_berga      (E. D o Washington )

--   On July 30, 1984, a former CETA supervisor           and his
     son were ordered     to make restitutions      to GSA and
     DOL totaling    $59,900,   fined $16,000,     and sentenced
     to five years'    probation    each.    The sentencing   was
     the result of guilty pleas entered         on May 18, 1984,
     to five counts of theft of public funds and one
     count of conspiracy.       These individuals     had
     previously   been charged    in a 13 count indictment
     with conspiracy    and theft of CETA funds in the
     amount   of $311,000o    The father,     through  his
     position   as CETA supervisor,      caused the submission
     of 43 false travel     vouchers,    enrollment   of an
     ineligible   CETA participantg      and the use of CETA
     participants   as housekeepers      and employees    of his
     son's business.     U_._S__v___Fu!l_op__Jr___F_u!!_opIII (S.
     D. Illinois)

--   The operator    of a Columbia,      South Carolina,
     Construction    Company    was sentenced   to serve four
     months   in prison,   five years probation,       and fined
     $6,000 on May 24, 1984.         The sentence   was announced
     following    a guilty   verdict   by a jury on March 13,
     1984.    The investigation      revealed  that contracts    to
     operate   a CETA OJT program      were not honored.
     However,    the operator    billed and received     payment
     for this training.       _U_S_.__v___K_e_nn_ero
                                                   (D. South
     Carolina)

--   On April   6, 1984, the former      Executive   Director   of
     the Alleghency     Opportunities    Industrialization
     Center was sentenced      to seven years imprisonment
     and fined    $12,000.    The defendant,    also a
     Presbyterian    minister,    was found guilty of one
     count of embezzling      $89,000  of CETA program     funds
     and two counts of mail fraud.         He was able to
     embezzle   the funds by establishing       a minority


                         -72-
     corporation    and then causing CETA Funds to be paid
     to this corporation.     An accomplice  in this case
     pled guilty prior to the trial and received     a
     lesser   sentence.   _U._S.__v.__Mc_Do_w_e!!___Pbi!l_Rs
                                                       (W. D.
     Pennsylvania)

--   On September     17, 1984, a psychiatrist,        owner of The
     Eikos Therapeutic       Environment,    a half-way    house for
     the mentally     handicapped,     was sentenced    to four
     months    in prison,    eight months    probation    and fined
      $ii,000.    Additionally,      he was ordered    to surrender
     his medical     license    and divest all ownership      of the
     therapeutic     clinic.     He pled guilty    to one count of
     embezzlement     after being indicted       in March 1984 for
     five counts of embezzlement.          During October      1980
     through    February   1981, four counselors       employed
     through    a CETA grant were forced to "kick back" a
     portion    of their salary to the psychiatrist          and
     therapeutic     center.     The director    of the center
     pled guilty     earlier    receiving  a lessor    sentence.
     U_._y.___a!_ak___n_er_           (Do Massachusetts)

--   On May 2, 1984, a DOL employee           entered   a guilty
     plea to a one count information           charging   her with
     false claims.       Investigation     revealed    she had been
     collecting    UI benefits     between    February   1982 and
     January   1983 while being gainfully          employed.     It
     was determined      the employee     began collecting
     benefits    immediately     following    a RIF action    by the
     Department    in January     1982.    However,    she was
     employed   by SEC shortly       thereafter    and continued
     that employment      until late June 1982.         Periodic
     employment    followed    until November      1982, when she
     was reinstated      by the Department.        Following   the
     guilty plea she was sentenced          to five years
     probation    and ordered     to pay restitution       in the
     amount of $8,117.        The employee     has been notified
     of proposed     removal   action;    a final decision     is
     anticipated     in the near future,        i_U._S.__v.__B!__n_(D.
     District   of Columbia)

--   A Branch   Manager    of the Arkansas     Employment
     Security   Division     (AESD) was indicted      by a Federal
     Grand Jury on June 13, 1984, for nine counts of
     violating   the mail fraud statute.          Investigation
     revealed   the employee      defrauded   the State of
     Arkansas   and the United      States Government      of $4,584
     in unemployment     benefits     and $6,636   in
     administrative     funds.     While performing     his duties,
     he submitted    false documents      causing   his son to
     receive   fraudulent     UI payments.     Additionally,    he


                          -73-
            altered   documents    to permit a janitorial     company_
            owned by him_ to receive       a cleaning   contract   for
            the AESD office°       On September   ii, 1984w the AESD
            employee    entered  a guilty   plea to three counts of
            the indictment,     and a sentencing    date is pending°
            __y___Ri_c_      (WoDo Arkansas)

       --   On March 23, 1984, the CETA Grant Officer             for
            Region   X denied    a reimbursement      claim for $1o2
            million   by the Seattle      Opportunities
            Industrialization      Center    (SOIC) Seattle,
            Washington.      The decision     came as the result of an
            Investigative     Memorandumt     dated July 1981,
            recommending     an audit of SOIC accounts        which was
            conducted    by the Washington      Office    of the State
            Auditor°     The results    of the audit combined       with
            the findings     of the OIG investigation        determined
            SOIC failed     to reduce funds provided        through   CETA
            grants   by the amount     received    from the Department
            of Education.


MINE    SAFETY   AND    HEALT_   ADMINISTRATION

On June 21, 1983, seven miners   were killed and           three injured
in a methane  explosion at the Clinchfield   Coal          Company"s
McClure  No. 1 mine in Southwest  Virginia°

In our last semiannual        report,   we reported    that the
preliminary    findings   of the OIG Task Force refuted           the
allegations    made by the United       Mine Workers    of America
 (UMWA) that:    (i) the Mine Safety       and Health   Administration
 (MSHA) had advance     knowledge     of unsafe conditions      at the
mine that could lead to an explosion;            (2) there was laxity
of enforcement     of the Federal      Mine and Safety     Health Act by
MSHA Mine Inspectors      assigned     to MSHA's   District    Number   5
Office;    (3) MSHA gave special       consideration    to the mine
owners   because   former   MSHA officials     were employed      by the
company.

As a result of         the OIG Task Force   investigation,    the IG made
recommendations         to MSHA designed  to improve    their
administrative         operations°   The following    is a summary  of
the corrective         action taken by MSHA, as a result of those
recommendations.

       --   MSHA through   its management   information  system       has
            enhanced  the tracking   of oral, telephone,   and
            written  complaints°




                                    -74-
     --     MSHA has reached     an agreement   with the         UMWA to
            share information     on health   and safety         matters.

    --      MSHA has made considerable      progress   toward
            achieving   a more consistent    interpretation    of           the
            Serious   and Substantial   citations    among its
            inspection   service.

    --      MSHA is revising   and      upgrading   its   Coal    Mine   Safety
            and Health  Manuals°

    --      MSHA has provided     all coal mine inspectors       with a
            copy of the electrical      manual  to insure    that the
            information    is readily   available    to them.    A
            sub-task   force group of Coal Mine Safety         and Health
            Training   Committee   has been established      to
            inventory   existing   electrical    training   and to make
            recommendations     for training°

     --     MSHA has taken action   to ensure   that        requests   from
            the field for information,    guidance,         or assistance
            are answered  properly  and adequately          to questions
            raised°

     --     Coal mine safety      and health    employees    under the
            direct   supervision    of headquarters     management    will
            be assigned    permanent    duty stations     outside  of
            headquarters     (Arlington,    Virginia)   area only in
            extraordinary     circumstances     with the approval     of
            the Administrator      for Coal Mine Safety       and Health.


COMPLAINT    HANDLING   ACTIVITIES

The Office    of Inspector    General    is the focal point for
receiving    reports   of alleged    fraud,   waste,   or irregularities
in Department     of Labor programs.        During this semiannual
reporting    period,   we implemented     an on-line,     interactive
computerized     Complaint  Tracking     and Index System       (CIS).
This System     is capable  of providing       information    and instant
referral   of allegations     among the Office       of the Inspector
General   on a nationwide     basis°

During   this reporting    period   the OIG received      1,409
complaints    nationwide   from the general      public,   departmental
employees,    Congress,   and other    agencies.     These complaints
were made directly      to the OIG National      Office,   Regional
Offices,    and the OIG Complaint     Analysis    Office.     Following
is a breakdown     of the various    sources   of complaints      we
received:



                                 -75-
TOTAL     ALLEGATIONS           REPORTED    :                        1409

              BREAKDOWN          OF ALLEGATIONS

REPORTS     BY SOURCE:

Walk - In                                                            0047
Hotline                                                              0085
Letters   from Congressmen                                           0003
Telephone    Call(s)                                                 0109
Letter(s)    from individuals    or
organizations                                                       0062
Letter(s)    from Non-DOL   agencies                                0335
Letter(s)   DOL agencies                                            0170
Incident   Report(s)   from DOL agencies                            0164
Reported   by agent/auditor                                         0420
Referrals   from GAO                                                0014

BREAKDOWN      OF ALLEGATIONS              REPORTS:

Referred  to Audit/Investigations                                   0690
Referred  to Program   Management                                   0224
Referred  to Other Agencies                                         0027
No further action                                                   0228
Pending  Disposition   at end of                 period             0240



   OFFICEOF INSPECTORGENERAL
  COMPLAINTHANDLINGACTIVITIES
                                                      _   TO AUDIT/INVESTI6ATIO_S




   t                                                  _   To _    _U_NA6B(NT




                  590 - 49.0Z



            DISPOSITION
                     OFALLEGATION




                          -76-
The OIG Complaint      Analysis   Office    serves as a resource    for
employees   and the general      public   to report suspected
incidents   of fraud, waste,       and abuse in Department      of Labor
programs   and operations°       The Inspector    General   Act, of 1978
provides   that employees     and others may report such incidents
with the assurance      of anonymity     and protection    from
reprisal.    The Complaint      Analysis   Office  staff received,
analyzed,   and processed     349 complaints°      Three-hundred    and
fifty-three    calls were received       on the "IG Hotline";
however,of    that number,    only 85 were actual      allegations,    and
the remainder     informational     type inquiries°

The following   are examples    of allegations  handled    by      the   OIG
Complaint  Analysis   Office   that led to improvement     of
Government  management    during this reporting    period:

     --    The Employment     Standards     Administration      responded
           to allegations     received     over the "IG Hotline"       that
           a Department     of Health     and Human Services      employee,
           working   part-time    was continuing       to receive    FECA
           benefits   for a job-related        injury that, in the
           opinion   of her supervisor,        was not medically
           supported    by her present      physical    condition.     An
           impartial    medical    report    indicated   the HHS
           employee's    disability     ceased when she returned         to
           work.    A compensation      order was issued by ESA which
           denied benefits      and terminated      compensation     based
           on the independent       medical    examiners    report.

     --    An internal    inquiry  into allegations     that personnel
           at an OSHA Area Office were misusing         the FTS
           telephone   lines and abusing     the local telephone
           lines was made as the result of a complaint
           received   by the OIG Complaint     Analysis   Office.   The
           allegations    were substantiated    and the employees
           involved   counselled.    Counselling    has resulted   in
           alleviation    of the problem.

     --    An anonymous    "IG Hotline"    caller   stated that an
           individual   did not notify     the Federal    Government   of
           an overpayment    received   and was collecting      interest
           on the money while waiting       for the government      to
           discover   the mistake.     The Employment     Standards
           Administration    reviewed   the payment     history  and
           determined   that an overpayment       in excess of $10,700
           occurred.    Collection    proceedings    were immediately
           instituted.

     --    The OIG Complaint   Analysis   Office  referred   several
           duplicate  black lung payment     cases identified    by a
           computer  match performed    by GAO auditors    to the


                                -77-
         Division    of Coal Mine Workers'       Compensation,    ESA.
         A thorough     review of the cases revealed        overpayment
         in the amount      of $93,683.40    in four cases.
         Recovery    of the overpayments      has been completed      in
         three   cases, and recovery      action    initiated   in the
         fourth   case°    Causes   of the problem      have been
         identified,     and corrective    actions    to prevent
         recurrence    have been taken by ESAo

    --   In a complaint      referred   by the General      Accounting
         Office   Fraud Hotline,      it was alleged     that a
'        contracting     firm was billing      the Department      for
         hours when their personnel         were not in the office.
         A preliminary      investigation     conducted    by OIG
         Atlanta   found weaknesses       in the billing     procedures
         and in the verification        of the accuracy      of the
         billings°     Follow-up    action    by the Employment
         Standards    Administration      Internal   Control    Unit led
         to a systemwide      review of their personnel         service
         billings   and verification°         Subsequently,
         recommendations      to correct    the systemic
         deficiencies     were given to the Contracting
         OfficerUs    Technical    Representatives      for
         implementation°


    --   As a result     of a complaint     received   by the OIG
         Complaint    Analysis   Office    from a commercial
         concern,    an employee    of the Labor-Management
         Services   Administration      made restitution     for misuse
         of Government     facilities    and materials     and, in
         addition,    was issued a letter       of warning   by the
         Department°




                              -78-
                   OFFICE OF RF.SOURC_ _ANAGE_ENT
                     AND L_ISLA_I_E   ASSESS_IENT


The Office   of Resource     Management    and Legislative     Assessment
(ORMLA) helps provide       overall   focus and direction      to the
Office of Inspector      General    (OIG) through    a variety    of
program   and policy    functions.     ORMLA supports     OIG by
fulfilling   several   of the statutory       requirements    of the
Inspector   General   Act, coordinating      OIG-wide    initiatives,
and providing    leadership     in the areas of legislative         review,
policy development,      internal    evaluation,    external   relations,
information    resources,    and administrative      management.

During this reporting      period,   we performed    extensive    work   in
the communications     and awareness     area and instituted      a
number of management      initiatives    to enhance    the efficiency
of OIG operations,     in addition     to our ongoing    legislative
assessment,   ADP management,      and administrative      activities.
We also devoted    effort to a special       study directed     at the
alien certification     process,    which   is covered    in this
section.


CO_UNICATIONSANDAWARENESS

The integrity     awareness   program,    still in its conceptual
stage during    the previous     reporting    period,   is now
established    and demonstrating      promising    results.    This
program   is grounded    in a belief     that most employees      are not
very aware of the basic laws, rules and regulations               that
govern   their behavior     in the workplace;      moreover,   they are
frequently    uninformed    about the consequences--often
serious--of    violating    such standards.

Two approaches     to this end are currently         being used in the
program°    One is a selective,       targeted    effort   aimed at a
specified   group with a particular        set of needs.       Such an
approach   was used in designing       a training     course   for staff
of the Federal     Employees'    Compensation     Act (FECA) program.
The second approach      as a broader     ones designed      to reach
larger audiences     with more generalized        needs.     Special
training   for supervisors      is now being planned,        not only to
help these individuals       better   understand     their   role and
responsibility,     but also to provide       them with the tools they
need to help their employees         as wello     Both approaches     are
discussed   below.




                                 -79-
                          FECA    Pilot   Project

A specialized    training course designed    specifically for the
FECA program    was pilot tested in May in Washington,    D. Co,
New York City, and Kansas City°      In all, more than 150
employees   took part in the sessions,    which were jointly
delivered   by the FECA progr_a  and the OIGo

The primary    goal of the training      was to increase      employee
awareness   and understanding      about issues     involved   in such
areas as standards      of conduct,    ethics on the job, program
effectiveness,     and the problems     of fraud and abuse.
Secondary   goals included     improving    program   efficiency    and
building   public trust.     Results were measured        through   pre-
and post-course     surveys  of participants.

Overall,    employees    showed significant     changes    in under-
standing   or awareness--and      even in attitude--in       several
important    areas.     Most notable were changes       in the reporting
of wrongdoing     through    the Department's    hotline    or through
supervisory     channels,    the requirements     governing   outside
employment    and conflict     of interest,    and the area involving
representation      before   the Federal   Government.

In terms of measured    effectiveness     of the training,   two
issues  stand out in assessing      the overall   effort.   One had
to do with the participation       of higher level officials     in
the training  sessions°     Respondents    overwhelmingly,   80
percent  in fact, thought    these officials     should be involved,
and a great many suggested      they should    be full participants
with much both to gain and to offer in the sessions.

The second significant     area had to do with whether        the
course   should be required    for other employees      of the
Department.      The vast majority--76    percent--said    that all
employees    should be required    to take the course°      A smaller
number   indicated   that the course should be encouraged         but
not required.

Following   the training    effort,  OIG undertook     complete
analysis   and evaluation    of the training,     including
recommendations     for follow-up   and changes    as needed.    By and
large these have been or now are being implemented.             All
training   materials    have been finalized;    the complete    program
has been packaged     and transmitted   to the agency for
implementation.      FECA will assume   responsibility      for
delivery   of the training    to all offices    not involved    in the
pilot sessions.      OIG will provide   assistance     and guidance   as
needed.




                                 -80-
Moreover,  discussions   are under way regarding     design   and
delivery  of similar   training   to the other program    areas of
the Employment   Standards   Administration   (ESA).


                         Training     for   Supervisors

Limited   training    for supervisors,    discussed   in the last
semiannual    report,    is now being expanded     to include more
in-depth   and intensive     coverage  of the subject     area
specifically    relevant    to individuals    with supervisory
responsibilities.       Two courses   are being planned.

One is an expanded      version   of the session      included    in Core
Training   for Supervisors,      offered    regularly   by the Office     of
the Assistant     Secretary    for Administration      and Management
 (OASAM).    Instead   of a brief lecture       on the Office     of
Inspector    General   and related matters,       an expanded     seminar
will be conducted      on topics    relating    to both the
Deparhment's     internal   control   program    and issues    of
integrity,    ethics and fraud,      waste,    and abuse.

In addition,    a special    half-day    session    is being planned
with more intensive     examination     of the issues and problems
concerning   supervisors    and managers.        Case studies,
discussion   groups,   and role playing       exercises    will be used
to help participants      gain practical      knowledge    and experience
in handling   difficult    matters    under their jurisdictions.

Both sessions   are scheduled  to become part of the formal
training  program  OASAM makes available   to its regional
offices  for similar   courses in all parts of the Department.


OTHER   COMMUNICATIONS      EFFORTS

As part of our overall        awareness   initiative,    we also
produced    a poster publicizing       the IG Hotline     number that has
been distributed      throughout    the Department     and to its
grantees.     The poster    emphasizes    those positive      aspects   of
the OIG mission,       such as efficiency,      economy,   integrity,
along with the other aspects          of investigation,     abuse, waste,
and audit.      OIG management     has also become more involved         in
communications      and outreach    efforts.     For example,     the
Deputy   Inspector    General   delivered    a major address      to the
National    Pension   Forum of the ERISA Advisory        Council     in June
on the need for protection         of American    workers'    pension
funds and the need for a vigorous          enforcement     role by the
Department.      Other major addresses       are also being planned.




                                    -81-
LEGISLATIVE     A_D   REGULATORY     ASSESS_NT

In addition  to these newer outreach   efforts,   traditional
analysis  and review continued  on several   fronts°

Section   4(a) of the Inspector       General   Act of 1978 requires
that the Inspector      General   review existing    and proposed
legislation    and regulations_      and make recommendations     in the
semiannual    report concerning     their   impact on the economy    and
efficiency_    and on the prevention       and detection   of fraud and
abuse   in departmental     programs°

Mindful   of this responsibility       and its importance,
particularly    from the perspective       of preventing     fraud,
waste,   and abuse   in agency    programs    and operations,     we have
reviewed    302 proposed   bills,    reports_    and regulations    during
this six-month    period°    Several     of the more significant
issues   of concern   to the OIG are described        below°


                             Seven    Day   Report

The Employment      Standards    Administration    (ESA) received
considerable     attention    during this reporting       period,
particularly     in legislative      and regulatory    areas°     Most
important    of our efforts      in this program    was a report,      sent
through   the Secretary      of Labor,    under Section    5(d) of the
Inspector    General    Act°    The report concerned      the Federal
Employees'    Compensation      Act (FECA), the workers'
compensation     law for Federal      employees,   administered     by the
Office   of Workers"     Compensation     Programs   (OWCP)o    Section
5(d) of the Inspector        General   Act is very seldom      invoked;    it
stipulates :

    Each Inspector     General    shall report immediately        to
    the head of the establishment          involved    whenever   the
    Inspector    General   becomes    aware of particular
    serious   or flagrant     problems,    abuses,   or
    deficiencies     relating   to the administration        of
    programs    and operations     of such establishment°         The
    head of the establishment         shall transmit      any such
    report   to the appropriate       committees    or
    subcommittees     of Congress    within    seven calendar
    days,   together   with a report by the head of the
    establishment     containing    any comments     such head
    deems appropriate°

The matter    leading   to our reliance  upon Section    5(d) was a
significant    deficiency   in FECA that has arisen    from a Ninth
Circuit   Court of Appeals    decision  and subsequent    court
interpretations     of that decision,   entitled  United   States Vo


                                   -82-
        L_
             L




             {711 F.2nd 125 (gth Cir., 1983)}.           The decision     has
     allowed   certain    recipients    of workers'    compensation     under
     FECA to escape      criminal   prosecution    after making     false
     statements    to the Government,      and (as of September       1984) had
    •placed   approximately      164 criminal   cases involving      FECA
     claimants    in jeopardy.      The effect   of the decision      may
     similarly    permit    other individuals    to improperly      collect
     compensation     without    any fear of prosecution.        In our
     report,   we urged quick legislative        action    to amend FECA to
     reverse   this trend.

     As the discussi0n       in the section of the Office         of
    Investigations       notes, FECA claimant      cases arising      from false
     statements    have tended to involve        FECA recipients     who were
     temporarily     totally   disabled.     After D_Q_,      the Government
    unsuccessfully      _argued that the _           decision   was
     distinguishable      and that other provisions        of criminal     law
     sh0uld   rule. • Thus, the decision        in _       could affect many
     cases.    Since the _          decision,    courts   in the Ninth
     Circuit have dismissed        indictments    in two similar      cases, and
     a united   states Attorney       has refused    to accept    one other
     FECA reporting      case for prosecution.        As of September      1984,
     some 40 other cases in the Ninth Circuit             in various     stages
    of investigation       were in jeopardy.       The potential      impact
    would   be wider     if the _        rationale    were accepted     by other
     Circuits,    possiblyaffecting       124 additional      cases   (as of
     September)    in investigation.        An unknown    number   of similar
     cases currently      under investigation       by Federal    employing
     agencies   could also be affected.

     While   the economic     impact of the _        decision   and its
     aftermath    cannot be precisely     determined,    the loss of
     criminal    sanctions   may well affect the behavior       of many
     long-term    FECA recipients.     There are approximately      27,000
•   totally    disabled    FECA recipients    receiving   about  $400
     million   annually.

     The problem     that the _         case has caused would        be solved
     by a legislative       proposal   the Department      of Labor    sent to
     Congress   on July 27, 1983.         The proposal     would make
     comprehensive      amendments    to FECA.     One section     of that
     proposa ! , Section     8106a, would clarify        the requirement     that
     periodic   reporting      by totally    disabled   Federal    employee
     compensation     recipients     is necessary.       Unfortunately,
     however,   the Department's       proposed    amendments    to FECA did
     not receive•a     sponsor    in the 98th Congress.         We understand
     that the proposal       will be resubmitted       at the start of the
     99th Congress,      and we fully support       that action.       We will
    continue    working     with the program      and interested     members   of
     Congress •to bring about legislative            reform to FECA,
     including    the amendment      of the reporting      requirement    to


                                      -83-
alleviate    the problems       we   have   encountered      as   a result   of
the D__      decision.


                  Longshore      Act    Amendments     (S. 38)

Another   legislative    matter    on which we were involved       was the
recently    enacted  amendment     to the Longshoremen's       and Harbor
Workers   Compensation     Act, a program     also administered      by
OWCP.    The amendments,      which the President      signed   into law
on September     28, would tighten      eligibility    requirements     for
benefits,    establish    a more precise     formula   for assessing     the
liability    of individual     employers,    authorize   the Secretary
of Labor to debar medical         providers   who abuse their
responsibilities     under the Longshore       program,    enhance
controls   over medical     treatment    and payments,     strengthen
criminal   penalties,    establish     civil penalties     for violating
reporting    requirements,     and make other changes       to improve
the administration      of the Act°


                   Labor-Management    Reporting  and
                       Disclosure   Act (So 2971)

In the area of labor-management          relations,     we commented    upon
a bill, introduced      late in this session        of Congress,     to
amend the Labor-Management         Reporting    and Disclosure     Act
 (LMRDA).   LMRDA is administered        by the Office      of
Labor-Management     Standards     Enforcement,     formerly   a component
of the Labor-Management        Standards   Administration       (LMSA).
The bill, S. 2971, would be amended           to strengthen      procedures
for bringing    labor organizations       into trusteeship,       establish
certain   responsibilities      for fiduciaries,       and clarify    the
Secretary   of Labor's     authority    to bring civil suits under
the LMRDA.     We expect that legislation          similar   to S. 2971
will receive    attention    in the 99th Congress,         and we will
take an active     interest    in developments      in this area.

         Labor   Racketeering        Amendments      (H.J.   Res.   648)

Shortly   after the close of this reporting     period,  the
President    signed an appropriations   bill that included    labor
racketeering     amendments.  This anti-racketeering    package   was
part of the Comprehensive     Crime Control   Act of 1984 attached
to the funding     bill, which keeps Federal   agencies  operating
in Fiscal Year 1985.




                                     -84-
We had previously    supported   the need for these amendments
which contribute    greatly   to our program of combatting
organized  crime in the labor-management     field.   The three
key provisions   are listed    below:

     --    The amendments     would increase    the penalty,    from a
           misdemeanor     to a felony,   under the Taft-Hartley       Act
           for violations     involving   a payment   from an employer
           or person acting in the interest         of an employer     to
           a union official.       Violations   would be punishable
           by imprisonment     of up to five years and $15,000         for
           payments    exceeding   $i,000 of value.      Payments   of
           $i,000 or less continue       to be misdemeanors.

     --    The amendments     would also disqualify        individuals
           convicted   of certain     enumerated     crimes,   at the time
           of their conviction,       from holding positions       in
           unions,   employee    benefit   plans,    and labor relations
           posts in companies      for 13 years,      following   the date
           of sentence    or end of imprisonment,         unless  the
           convicted   person    can persuade     the sentencing     court
           to reduce the prohibition        to a lesser period,       which
           may not be less than three years.

     --    Finally   the amendment    would also confer on the
           Labor Department     authority    to investigate   criminal
           violations    related to the regulation      of employee
           pension   and welfare    plans, as well as other related
           crimes,   without   delegation    of investigative
           authority    by the Justice    Department.


                     Law   Enforcement   Authority

In another   legislative  area, we have continued     to support
the need for law enforcement     authority   for our special
agents assigned    to the Office  of Labor Racketeering      (OLR).
During  this reporting   period,  we have worked    to clarify    many
of the misperceptions    held by opponents    of S. 2090, a bill
that would grant limited     law enforcement   authority   to our
special  agents.

The need for law enforcement        authority    is consistent   with
placing   the responsibility     for combatting     labor racketeering
in the Office     of Inspector   General.     The Secretary    of Labor
personally   supports    such authority    and has asked the
Administration     to reconsider    its opposition    to this critical
legislative    proposal.




                                -85-
                 •Paperwork    Reduction Act Amendments
                              of 1984 (S. 2433)

 0nanother     legislative   front, we proposed     that an additional
 amendment    be added to the Paperwork     Reduction    Act Amendments
 to exciude    the Offices of Inspector     General    from provisions
 of that Act.      Our suggestion   was consistent    with our
 longstanding    position   on this matter,    which has been
highlighted     in previous   semiannual   reports.

The addition    of our suggested     amendment    would provide     an
exclusion   similar   to that already     provided    for the
activities    and operations    of the General     Accounting    Office
and would   resolve   an issue of grave      impact to this OIG ands
We believe,    to the entire    Inspector   General    community°      This
critical   issue involves    the need for clarification         of the
Paperwork   Reduction   Act vis-a-vis     the independence      and
autonomy   intended   in the Inspector     General    Act of 1978o      The
specific   issue involves    coverage    of OIG audit guides.

 The question     of whether     audit guides     are covered     under the
Paperwork     Reduction    Act received      considerable     attention   in
 the OIG community,       even as OMB was drafting         the implementing
 regulations     for the Act.      At that time, OMB sought to
 include   audit guides      under the "collection        of information"
 provisions    of that Act.       As a result of the strong         concerns
 raised by the Inspector         General   community,    OMB agreed to
 omit the reference       to audit guides      in the final
 regulations.       However,   OMB's operational       position    has been
 that audit guides are covered           under the provisions       of the
 Paperwork    Reduction    Act and subject       to OMB clearance°

The impact of OMB's interpretation       on the concept   of an
independent    audit function   is immense.    The power to clear
anaudit    guide carries   with it the power to determine      the
content   of an audit as well as the thrust of an audit and,
ultimately,    whether  the audit can be conducted     at allo

 This apparent     conflict   between   the independence     of the OIG
 and OMB's    interpretation     of the Paperwork    Reduction   Act must
 be resolved.      We cannot,    in good conscience,     submit audit
 guides   to OMB for clearance      and continue   to remain
independent     and in accord with the concept        of the Inspector
 General   Act or the GAO audit standards.         One vehicle    for
 accomplishing     our recommendation     to exclude    IG's from the
 requirements     of the Paperwork    Reduction   Act is through     an
 amendment    to that Act specifying      the exclusion°      We continue
 tO support    that position.




                                 - 86-
                       Awards   for   Cost Savings
                       Disclosures      (H.R. 5646)

The Inspector   General    testified   at two legislative     hearings
during  this reporting    period.     These involved    a bill to
extend  indefinitely    OIG authority     to make awards for cost
saving  disclosures    and a hearing    to assess    the potential   for
agency  budget and personnel      resources   processes   to impede
the independence     of the OIG's    (discussed   under the next
heading) .

We supported     the intent   of this bill that would     extend
indefinitely     the authority   to make awards for cost saving
disclosures    established    by Section  1703 of the Omnibus
Budget   Reconciliation    Act of 1981 (P.L. 97-35)o       The 1981
legislation    that authorized    this program   included   an
expiration    date for the program     of September   30, 1984o

Because   of limited    government-wide     experience    in making
awards   under this program,      we favored    only a limited
three-year    extension   of the bill to allow time to evaluate
the effectiveness     of the awards     program    in identifying   cost
savings   measures.

We also stressed    the need for greater     publicity    for the
program   and for ensuring   that the staff receiving       such
complaints   be well trained   and able to instill      confidence         in
complainants   that their charges     of waste,   fraud, or abuse
would be taken seriously.       During the closing     days of the
98th Congress,    H.R. 5646 failed to be enacted       into law.


         The    Potential  of the Budget Process   to Impair
               the Independence  of the Inspectors   General

Another   matter    of serious   concern    to us involves      the very
independence     of Inspectors     General.     As a follow-up     to a GA0
review,   the Committee     on Government     Operations,     Subcommittee
on Legislation     and National     Security,    held hearings     on the
budget   process'    potential   impairment    to the independence        of
the Inspectors     General.     Chairman    Brooks   raised   a concern,
shared   by other members      of the subcommittee,       that the budget
process   gave the capability       to agency    officials,
particularly     those below the level of Secretary           or Agency
Administrator,     whose programs      are subject     to OIG audits    or
investigations,      to make recommendations        about OIG resource
levels.    The chairman     stressed    the critical     need to maintain
the level of IG independence          desired   by 'the Congress.      Mr.
Brooks also wished       to assure    that the agencies      recognize    the
unique   status of the IG's.



                                 -87-
Inspector    General   Hyland testified     that, while the potential
certainly    exists to use the budget process         to exert control
over the IGs, this has not been the experience             in this
Department.      He attributed     this situation   to the strong
Support   of the Secretary      and Under Secretary     for the OIG_s
goals,   programs,   and independence°       Nevertheless,    he
indicated    that future    relationships    and agreements     will
depend   upon both the continuation        of the present    working
relationship     and on the will of future parties°          He
concluded    his testimony     by stating   that the continued
existence    of a number of preexisting        rules and procedures
governing    the Federal    budget   and personnel   process    in the
Executive   Branch   continue    to apply and may continue       to raise
issues about the full extent of IG independence°


                     Alien   Certification    Project

One of the most significant          projects    commanding    our
attention    was a special      effort to examine      the alien labor
certification      program   in the Employment       and Training
Administration       (ETA)o   Our work involves       a review of the
Immigration     and Naturalization       Act, ETA's regulations       for
permanent    labor certification,        aspects   of program
operations,     and studies    and other documents        concerned   with
immigration     and labor certification        issues°     The labor
certification      program   affects   both immigrants      coming to the
United   States    under permanent     certifications      and
non-immigrant     workers    coming under temporary        certifications;
because   of the long-term       impact of immigration        policy,  we
are concentrating       our study on permanent        certifications
only.    At the close of this reporting           period,   our study was
near completion;       it will be a topic for the next semiannual
report.


GAO   LIAISON   FUNCTION

The Inspector      General    is designated    as the Department's
control   official     for all GAO reports      and correspondence
received    from the Congress      and other governmental        agencies
relating    to GAO report matters.          As such, the Office       of
Resource    Management     and Legislative     Assessment    within    OIG is
responsible     for coordinating      GAO activities     within    the
Department,     including    ensuring    that appropriate     departmental
clearances    are obtained      and monitoring     the implementation      of
accepted   GAO recommendations°          In addition,    part of our
liaison   responsibilities       requires    us to ensure    that Agencies
submit written      responses    to the Senate Committee        on
Governmental     Affairs,    the House Committee      on Government
Operations,     and the Committees      on Appropriations       of the


                                 -88-
Senate and the House concerning  actions           taken by the
Agencies with respect to recommendations            contained  in GAO
reports.

A majority    of GAO's work performed      in the Department _ is by
special   congressional    request and a small amount is
self-initiated    in GAO.    During this reporting     period,  GAO
issued 5 draft reports      and 15 final reports     to 8 of the 15
organizational    Agencies   within   the Department.     They also
began 17 surveys     and reviews    during this period,    some with
completion   dates in Fiscal Years 1985 and 1986.


ADP   INITIATIVES

In Fiscal Year 1983 the Inspector          General    launched    an
aggressive    and coordinated     effort    to use computer      technology
to support    its audit and investigative         activities.      Our
entire ADP effort      is driven and controlled        by the OIG ADP
Master   Plan, which was developed        and implemented      as the
cornerstone     of OIG's information      resource    management
process.     The Master Plan identifies        a need for auditors        to
access   and transfer    information     from auditee     computers    to
the OIG minicomputers      for in-depth      analysis    by OIG
auditors.     The Plan also identified        the need for improving
productivity     by using general     purpose    computers    for coupling
ADP and word processing       functions    supported     by
tel ecommuni cations o

The Division   of Information       Resources  (DIR) was established
to upgrade   the ADP function       and to centralize  and focus OIG
ADP responsibilities.

In February   1984, after a procurement        cycle spanning    almost
three years,    a contract   was awarded    providing   for a
complement   of minicomputers     with state-of-the-art      software
for electronic    office   functions,   hardware    and software   for
supporting   network   communications     functions,   and complete
facilities   for information     systems.

As we indicated    in the prior semiannual      report,  we have
acquired  25 portable   microcomputers     and trained   52 auditors
and investigators.     These microcomputers      are now in the
hands of these field personnel.        Dramatic   benefits   are being
realized  from OIG's investment     in microcomputer     technology.




                                 -89-
                             Minicomputers

Since   the last reporting    period,    minicomputers   were
installed    at the OIG headquarters      and in the Atlanta    and
Dallas   Regions.   Minicomputers     are scheduled    to be installed
in San Francisco,    New York_ Philadelphia,        and Chicago
Regions   during the next reporting       period.

A data base management      system  has been procured    and will be
used to reduce     costs by bringing    existing   OIG information
systems   in-house   that currently    run on contract   supported
mainframes.     In addition   to converting    these systems,    OIG
will upgrade    the information    systems   to current
technological    levels.

A Value   Added Network   (VAN) , which will link the seven minis
in a tight communications      environment,    is in the final
stages of the procurement      process.     The VAN provides  the
telecommunications    facility    for OIG minicomputers    to "talk"
to each other.

OIG has taken a conservative,       economical,    and prudent
approach   in configuring    the minicomputers     by starting    with
an initial   operating   capability    that easily    supports
immediate   needs,  essentially    electronic   office    functions.
Hardware   upgrades  and new software     will be phased-in      and
guided   by the OIG ADP Master     Plan.

OIG has launched      the Agent Computer     Tools    (ACT) project,
which   is targeted    for the minicomputers.        The project     is
examining    agent computer     requirements    in three general
areas--evidence      inventory   and analysis,     grand jury
preparation,     and trial preparation.        The portable
microcomputers     have proven to be very effective           tools for
agents   in these three areas.        However,    the more powerful
minicomputers     are often required      for large investigations.
The goal is to provide       menu driven applications,         using
screen   painters,    that the agent can easily        modify   as
requirements     evolve.

To further    emphasize    the importance    of the OIG ADP
enterprise,    the Inspector    General   established    the ADP
Executive   Steering    Committee,   chaired   by the Deputy
Inspector   General   and a membership     comprised    of all
Assistant   Inspectors    General.    The Committee     has fundamental
responsibility     for OIG ADP policy     and for reviewing     ADP
priorities,    initiatives,    and modifications     affecting   the OIG
ADP Master   Plan.




                                -90-
                            Mi cr ocomput er s

The portable    microcomputers   continue to add significant
value  in our work in the areas of labor racketeering,
investigations,     and audit functions.

A number   of successful    applications    of OIG microcomputers
have been discussed     in previous    semiannual   reports.
Additional   applications    are currently    in progress.     A
summary   of several   categories   of applications     currently
being used follow.

    --    Case/Project   Management:     Automating   interview
          logs, schedules,    diaries,   expenses,   potential
          witnesses,   and investigation     issues;

    --    Document/Evidence     Inventories:     Drafting,   storing
          and tracking    subpoenas   and warrants,    transcripts
          and depositions,     document   source and current
          locations,   document/evidence      links to investigation
          issues   or allegations;

    --    Information/Data    Analysis:     Capturing   and analyzing
          financial   transactions,    telephone   tolls,
          surveillance/intercepts,      transcripts/depositions,
          and intelligence     data;

    --    Trial/Exhibit     Preparation:     Automating   a trial
          preparation    data base by organizing       and indexing
          document    and exhibit    locations   that will be
          provided   when offered     at the trial;

    --    In-Trial  Support:   As the trial progresses,
          allowing  for quick  revisions,  indexing  new issues
          and materials,   and rapid inclusion   and analysis  of
          new evidence •as the need arises.

A few representative     examples   of successful       OIG
microcomputer   applications    follow.

    --     In the Atlanta     Region,    a financial     investigation     is
          being conducted      by agents     in an employee     benefit
          fraud case examining        fraudulent     claims against     an
          employee    benefit    plan.    Union membership      rolls are
          currently    part of the microcomputer          data base.     The
          agents   have found fictitious        members    and duplicate
          or fictitious     social    security    numbers.     In addition
          to capturing     membership     rolls,    the agents   are
          capturing    claim transactions        against   the employee
          benefits    plan.    This case would have been far more
          difficult    to investigate      without    the
            microcomputer.      The microcomputer has identified
            relationships    that would have been close to
            impossible    if done manually.

       --   In another    case detailed     in the previous    semiannual
            report,   agents are using the microcomputer          to
            prepare   for the trial.      A data base reflecting       an
            inventory    of evidence    and exhibits    has been
            established.      This has been helpful       in controlling
            documents    and locating    exhibits°    The data base
            allows   sorting   by date, witness,     check-payee,    and
            account   number.     Trial attorneys    have been very
            impressed    and supportive     of the use of
            microcomputers.       Microcomputers    are viewed    by
            attorneys    and agents from other agencies        in the
            Strike   Force as enhancing      and solidifying    the
            credibility     of the investigation°

       --   Auditors    in Atlanta   are using the microcomputer     in
            conjunction    with a SESA project.      Existing  SESA
            applications     appear  to be transferable    to other
            SESA projects     in the future.    For examples
            spreadsheets     and data base files can be prepared
            beforehand    and variables   entered  when the audit is
            started°     This could result in considerable      time
            savings o

Portable   microcomputers    have allowed   the OIG to increase
productivity    and improve   and broaden   our analytical
methodologies     in field and remote operations.       These
microcomputers     have helped and will continue     to help agents
facilitate    field activity    and investigative   activities  where
portability    is essential.


PCIE

During   this period we have continued         support  for the DOL
Inspector    General   in his role as co-chair       of the PCIE Long
Term Computer     Matching    Project°    We have also continued      our
strong involvement       in PCIE activities,     particularly     in the
area of applying      computer    technology   to up-front    screening
of benefit    and similar     direct payment    claims,   front-end   ADP
systems   evaluation     techniques,    and the application     of
microcomputer     technology    to OIG activities°

Most importantly,     perhaps,   we have seen almost all of the
recommendations    from the Computer     Matching   Project   during
its first two years implemented        in the Deficit    Reduction   Act
of 1984o    The Projects    recommendations    with regard to
front-end   automated   eligibility    screening   and verification,


                                -92-
wage reporting,    and standard   data exchange    formats   were
included   in the Grace Commission     report  and implemented     by
Congress   in this omnibus   bill.    DOL OIG expects    to play a
lead role on the Task Force, which has been created           by the
Office   of Management  and Budget    to coordinate    implementation
of the requirements.

During this reporting      period DOL-led     computer   matching
efforts   have resulted    in the publication      and distribution    of
the first comprehensive       "Inventory    of Federal   Computer
Applications    to Detect/Prevent     Fraud, Waste and
Mismanagement.   " This compendium       contains   synopses   of over
200 Inspector    General   and program    agency applications.      An
update of this inventory       is scheduled    for release    during the
fall/winter    of calendar   year 1984.

We have also completed       our efforts with the Inspector
General   of the Department      of Health     and Human Services,
co-chair   of the Computer      Matching    Project,   to contract  out
the continued    publication     and distribution      of the Computer
Matching   Newsletter.      Agreement    has been reached with the
Council   of State Governments        (COSG) to begin publication
with the Fall 1984 issue.          The DOL and HHS Inspectors
General   will retain editorial        authority   over the content    of
this most popular      publication,     which now has a mailing     list
of nearly 1,000 state, Federal          and local government
agencies.

DOL OIG staff has also played a strong role in three
computer-related efforts being led by the HHS IG.

     --    We have continued  to assist HHS staff in monitoring
           the pilot test of the Standard    Matching  Formats°
           These formats  and the pilot test results    will form
           the basis for the standard    data exchange  formats  to
           be prescribed  by the Secretary   of HHS under the
           Reconciliation  Act requirements.

    --     Strong support      has also been provided       to the
           HHS-Ied   efforts    to identify    automated    front-end
           eligibility    verification     and screening     techniques
           being used in four major federally           funded and state
           administered     benefit   programs.     The results    of this
           project   should also have a major impact on the
           implementation      of the Reconciliation      Act
           requirements     through   identifying    effective
           automated    techniques    already   in place in State
           Unemployment     Insurance,    Welfare,   Food Stamp, and
           Medicare/Medicaid      programs.




                                -93-
      --    DOL OIG staff have also worked          closely   with the HHS
            IG effort    to design a guide for Federal         OIG efforts
            to evaluate     security   and controls     in major ADP
            system   design and modification        activities.     This
            project,   which has had the involvement          of the major
            ADP systems     users and standards      producers    such as
            the Department      of Defense   and the National      Bureau
            of Standards,      is identifying    the major    stages in
            ADP systems    development     activities,    the responsible
            actors,   documentation     that should be available        or
            produced,    and the EDP auditor's       role in each stage.

 Finally,   we have also continued       our support   for the PCIE
 Computer   Committee    chaired   by National   Aeronautics     and Space
Administration      Inspector    General  June Brown.     DOL OIG staff
 have assisted    with the organization       of the Microcomputer
Users Group sponsored        by this Committee    and made a major
 contribution    to the preparation      of the recently     published
Users Manual.


OIG   MANAGEMENT   INITIATIVES

During   the past six months    the OIG has continued      its efforts
in administrative     and management    areas to ensure    economy  and
efficiency   in our own operations.       We have also implemented
agreements   with departmental     management    that we believe
enhance   the OIG's independence      and that should   significantly
improve   our control    over personnel    activities  and budget
development   and execution.

The OIG internal      inspection    program,    highlighted    in the last
semiannual    report,    is continuing.      This program     is designed
to ensure   the highest      standards   for program     execution    in our
operating   offices    and to identify     areas of administrative
and management     support    where  efficiency     can be improved.
Items identified      during   the inspections      are tracked    until
concrete   actions    to resolve    them have been completed.

One of the most significant         OIG accomplishments      in the
administrative      area over the past six months        has been a
substantial     reduction    in OIG space usage.       In our
headquarters     offices   we have reduced     space utilization     by
2,200   square feet.      In our regional     offices,   we have been
implementing     a program    to collocate   OIG audit and
investigative     staff and expect     similar    reductions   in space
usage.    Another    area where significant       economies   have been
achieved    is vehicle    management,   in which we have eliminated
I0 leased vehicles.        In addition,    new procedures     requiring




                                 -94-
that OIG contract   audit firms use Government   contract
carriers  are expected   to result in savings  of several
hundred  thousand  dollars  during Fiscal  Year 1985.

The OIG has also continued       its efforts    to ensure    the
independence    of our budget and personnel       activities.
Historically,    all OIG budget     and personnel   activities     were
considered    as simply  another   part of Departmental
management.     Although  the Department     has always    provided
full support    to OIG activities,     this situation     provided    at
least the appearance     of the potential     for OIG budget     and
staffing   needs to be determined      and manipulated     by agencies
subject   to our direct audit and investigative         authority.

Beginning   with Fiscal Year 1985, the Inspector      General   will
be the legal recipient      of all OIG resources.    While this
will not substantially      affect OIG operations,   because   of the
full support    received  from the Department    in the past, it
does ensure    the continued    independence and integrity    of the
OIG budget.

In the personnel      management     and suitability     review areas, we
have implemented      highly    successful    agreements    with the
Department    that also enhance       the OIG's independence.        OIG
now has a completely        dedicated    staff of personnel
specialists,     housed    in OIG space to service       OIG needs.
While  administratively        reporting   to the Department's      new
National   Capitol    Service    Center,   these staff work
exclusively    with OIG management        nationwide    on a day-to-day
basis.    Similarly,     in the suitability       review area, all
background    checks    and suitability      investigations     are being
coordinated    and evaluated      within   the OIG.




                                -95-
                         OFFICE   OF   LABOR   RACKETEERING


Traditional    and emerging   organized   criminal    elements
continue   to threaten    the delicate   balance   that should exist
between   management   and labor°    To more accurately      depict our
mandate   in this broad field, we have changed         our unit's
organizational     name from the Office     of Organized    Crime and
Racketeering    to the Office    of Labor Racketeering      (OLR).

Labor racketeering     in the 1980's means pension         and welfare
fund racketeering     and exploitation,      sophisticated     computer
schemes   involving   complex   economic   and financial      crimes,
criminal   monopolies    of whole industries,      and the more
traditional    crimes of extortion,      illegal payments,      bribery,
and kickbacks    as well.     We continue    to focus our resources
in these areas, employing       every legislative      and technical
tool available.      Since employee    benefit    funds have
increasingly    become vulnerable     to abuse, we are devoting
approximately    70 percent    of our efforts     to investigating
benefit   plan corruption°

During this reporting       period,   the OLR opened 28 new cases.
Investigative     efforts   resulted   in the indictment    of 52
individuals,     while 61 individuals      were convicted   of various
labor related     crimes°    These statistics     do not focus
exclusively    on labor union officials°        A high percentage    of
our cases involve      management    officials,   employee  benefit
plan officials,      and providers    of services   to employee
benefit   plans.

In addition    to removing    racketeers   from unions or employee
benefit   plans, our efforts have resulted        in monetary
recoveries    as well.    During this period court ordered        fines
amounted   to approximately      $135,000.   Additionally,    court
ordered   restitution    will result in $90,000 being returned         to
benefit   plans.    Finally,   tax penalties    and liabilities
amounted   to $130,000o

Summaries     of   our   significant      cases   follow.


BENEFIT     PLAN   VIOLATIONS

Employee   benefit    plans provide     American   workers  and their
beneficiaries    with various      forms of medical     and life
insurance   as well as retirement        income.    Benefit  plan
violations    include    embezzlement    of plan funds; kickbacks     to
influence   the operation      of a benefit    plan; and falsification
of benefit    plan related     records   and reports.



                                       -97-
  Teamsters   Local   837 Health    and Welfare    Fund
  Philadelphia.    Pennsylvania.

   On September    5, 1984, John Martorano,       owner and chief
   executive   officer   of AMMA Health Center,       Inc., was sentenced
  to three years in prison        and fined $10,000.       Martorano   was
   found guilty on June 26 on one count of making false
   statements   on documents    required    by the U.S. Department      of
  Labor under     the Employee    Retirement    Income Security    Act
   (ERISA) o   In entering   sentence,     the U.S. District     Court
   Judge took judicial     notice    of Martorano's    long and close
, association    to high echelon      organized   crime figures.

  Martorano    inflated   expenses    in a statement     of income and
  expenses   of AMMA, which is a provider          of medical   service    to
 ithe Teamsters     Local 837 Health and Welfare         Fund, to justify
  his request    for increased     premiums    paid by the fund to
 AMMA.     Through   the false representations        by Martorano,     AMMA
  received   a premium    increase    from the fund of $1.50 per month
  for each of the 2,000 participants           for approximately     one
  year until the fund terminated          the contract    with AMMA.
  These false representations         resulted    in overpayments    in
  excess of $35,000      to AMMA.

 Martorano's    conviction    establishes     a significant    legal
 precedent°     It is the first conviction         of a service    provider
 for falsifying     records   required    to be maintained     under
 ERISAo     It also is significant       because   of the court's
 acceptance    of the view that the health maintenance
 organization--service       provider    in the conviction--was      an
  "insurance   carrier   or other organization"        for purposes    of
 ERISA reporting     and that documentary        statements  to the plan
 were considered     records    required    to be kept under ERISA.

 The judge stated that by imposing     a three-year    prison
  sentence   on Martorano  he wanted to "...send   out a message
  that his court will not tolerate    anyone attempting     to abuse
  the health   and welfare  funds of the working   class. "

 The Pennsylvania     Crime Commission    and the U.S. Postal
 Inspection   Service   assisted   the Philadelphia    field office        of
 the OLR in this two-year      investigation.     U.S.v.    Martorano
  (EoDo Pennsylvania)




                                   -98-
International    Shield     of   Labor      Alliances
Ridgewood.    New York

Frank Roman,     President,    International     Shield   of Labor
Alliances    (ISLA); Ivan Roman,      former Secretary-Treasurer,
ISLA; and Miriam      Kuiland,   former officer      manager,  were
charged   in a federal     indicment    with racketeering     and
embezzling    from employee     benefit    plans and a federal     credit
union°    These charges     were developed      from an investigation
conducted   by the New York field office           of OLR.

During   a June 1984 trial in Federal        District   Court,   Eastern
District    of New York, Kuiland      pled guilty    to one count• of a
violation    of the Racketeer     Influenced    Corrupt  Organizations
(RICO) statute,     while Frank Roman and his nephew, . Ivan, pled
guilty   to the entire     indictment    as charged.    Kuiland's    plea
agreement    provides   for forfeiture     of $13,094; a lifetime
prohibition    on union acitivty;      and a period of incarceration
not to exceed     seven years.                   •

In October,    Frank Roman filed a motion with the court
withdrawing    his guilty    plea.    In £he motion,   Roman claims
that he was "crazy" when he pled guilty.            The court's
decision    on Frank Roman's     motion  and sentencing    for Kuiiand
and Ivan Roman,      the other two defendants,     is scheduled    for
November    5, 1984.

Frank Roman was the president        of Produc£ion,      Industrial,
Technical,    Miscellaneous     and Amalgamated     Union Local• 481 in
1977 and 1978.       In June 1978, following      a Labor Department
investigation,     Roman pled guilty to violating         the
Taft-Hartley     Act by accepting    illegal    payments    from
companies    employing   members   of his union.      Roman,    as a
condition    of probation,    agreed   to a five-year     prohibition
from engaging     in union activities.       The OLR investigation,
however,   established    that Roman assumed      control    of ILSA
through   the establishment      of the ILSA Credit Union shortly
after his 1978 plea.        u.s.v.   Roman;   Roman_    andKuiland
(S.D. New York).

Teamsters    Local   436   Pension     and Welfare      Fund
Cleveland.    Ohio                                       •     •

An investigation     by the Cleveland     field office of the OLR of
the Teamsters    Local 436 Pension     andWelfare     Fund resulted    in
the September    13, 1984, indictment      by• a Cuyahoga   County .
grand jury of Common     Pleas Judge James J. McGettrick,         for
submitting   fraudulent   medical   claimS•of    $2,440 and $6,303 to
the Local 436 Welfare     Fund.    Judge McGettrick      is awaiting   a
trial on a separate     indictment   by the county grand jury that
charged   him with accepting    a bribe to influence       the outcome


                                     -99-
of murder    cases   against   members   of   an outlaw   motorcycle
gang.

The grand theft      indictment     returned   by the Cuyahoga      County
grand jury is the result of evidence            developed     by OLR in its
continuing     investigation     of Teamsters     Local _Union 436 and
its employee     benefit    plans.     The indictment     is part of a
coordinated     effort    by OLR, the Cleveland       Strike   Force,   the
Cleveland    Police    Department,     and the Cuyahoga      County
prosecutor's     office.     It is the fourth      indictment     to be
returned   in this two-year        investigation.      Our semiannual
report for the period        ending March 31, 1984,         (page 134)
describes    the prosecution       of the other defendants.

Defendant   Angelo    T. Regalo,    former business      agent of local
436 and trustee     of the pension      and welfare    fund, previously
pled guilty     to a two-count     information.      He was sentenced     on
September   26, 1984, by a federal         district   court to one year
confinement    on each count to run concurrently°             The
information    had charged    him with soliciting        and receiving
approximately     $7,000 with the intent        to be influenced     with
respect   to his actions,     decisions,     and other duties
concerning    the Teamsters    Local 436 benefit       plans in
violation   of 18 U.S.C.     1954.     Cuyahoga   County    v. M¢_ettrick
and U.S.v.     Regalo   (N.D. Ohio).

Prince  Carpentry. Inc.
New York. New York

In our last semiannual        report we summarized      a joint
investigation     by the New York field office         of the OLR, the
FBI, and the IRS involving         the owners    and employees    of
Prince Carpentry,      Inc.    The investigation      disclosed   a scheme
by Kenneth    Gladstone    and Lucille    Gladstone,    owners  of Prince
Carpentry    to defraud    the IRS, the New York City District
Council    of Carpenters    benefit   funds,   and the New York State
Unemployment     Insurance   Division.     This was accomplished       by
hiring   "cash" and "piece work" carpentry          employees   without
making   the required    tax withholding      deductions     or
contributions     to the Carpenters      benefit   plan and by
certifying    claims   for unemployment      insurance    for employees
while   they were employed.

On May 9, 1984, Kenneth       and Lucille    Gladstone    were sentenced
to one year and one day with execution           of sentence
suspended,    three years probation,      and fined    $31,000   each.
Kenneth   Gladstone    was given 90 days imprisonment         and Lucille
Gladstonewas      given 2,000 hours of community        service.     They
also have repaid the New York City District            Council
Carpenters    benefit   fund $320,000;    paid the IRS $280,000;        and
paid the New York State Department         of Labor Unemployment


                                 -i00-
Insurance     Fund $63,468.75.     Additionally,     during this
reporting     period,  27 employees    of the company     have pled
guilty to     filing  false Federal     tax returns.     The convicted
employees     have received   sentences    to perform    community
service,     ranging from a minimum      of one year to a maximum      of
two years     and 150 hours.     U.S.v.    Gladstone   et al. (E.D. New
York).

_nternational     Industrial     Production     Employees__
New York, New     York

Eileen Murphy was indicted         by the Federal      grand jury in
Brooklyn,    New York, on August       29, 1984,     for committing
perjury   and obstruction      of justice.      Murphy    is the secretary
of the International       Industrial     Production    Employees    Union.
On March 2, 1984, following         an investigation       by the New York
field office    of the OLR, the president          and former president
of the union were indicted         for embezzlement      from the union
severance   plan; extortion;       obstruction     of justice;    and
racketeering.      Murphy,   who has been the secretary         of the
union and its affiliated        local unions and severance         fund for
ten years,    is charged with committing         perjury    in her
testimony   before    the grand jury investigating          the charges
that led to the March 2, 1984,          indictment.       She also is
charged with obstructing        justice    by instructing     a witness    of
the grand jury to commit perjury           and fabricating     a record in
an attempt    to conceal    embezzlements      committed    by the union's
president    (see semiannual     report ending March 31, 1984, page
132 and 133, U.S.v.        Lasky).     No trial date has been set.
U.S. v Murphy    (E.D. New York).

Teamsters     Local 274   and   Local   310   Welfare   Trust   Fund
Phoenix,     Arizona

Investigation    by the Las Vegas   field office  of OLR resulted
in the conviction     of Dean H. Enabnit,   owner of Enabnit
Insurance   Brokerage,   Phoenix,  Arizona,  and administrator  and
sole signatory    of the Teamsters   Local 274 and Local 310
Welfare   Trust Fund.

On July     23, 1984, Enabnit     pled guilty to embezzling            $76,500
through     15 cashier checks     drawn on the trust fund.

Enabnit was sentenced     by a U.S. District   Judge in Phoenix to
three years supervised     probation,  fined $5,000, and ordered
to make restitution    of $76,000.    He was also ordered    to
forfeit    his Arizona State insurance   license   and numerous
civic and community    posts he held.    U.S. vs. Enabnit    (D.
Ar iz ona)




                                  -I01-
LABOR-MANAGEMENT      RELATIONS    VIOLATIONS

Federal   labor laws balance      labor-management     relations    to
safeguard   the rights of American       workers    and protect    the
interests   of employers.      Violations    of labor-management
relations   include   prohibited    payments    from employers     to
union representatives      who represent     or are seeking     to
represent   the company's     employees.     Violations    also include
extortion   by union representatives        of employers.      Such
violations    compromise   the entire collective       bargaining
process.

Eleuter_o   "L_rry"    Marzilli
Providence.   Rhode    Island

Eleuterio    "Larry" Marzilli       was found guilty on July 25_
1984,   in U.S. District       Court of violating        the Federal    law
prohibiting     interstate     travel    for the purpose      of obstructing
or interferring      by force or threats         the exercise     of rights
of self-organizing       and collective       bargaining     by employees.
This is the first reported          decision     involving    the Interstate
Transportation      of Strikebreakers        Federal    statute.    The jury
convicted    Marzilli    on the charge       that he planned      and carried
out the beating      of the general       manager    of Amalgamated
Clothing   and Textile      Workers    Union in Fall River,
Massachusetts.       The union official        had been acting on behalf
of the members     of his local union during labor contract
negotiations     and disputes      with Fall River textile         plants°
The Government      charged    that textile      companies    retained   a
labor consultant      who employed      Marzilli     for the purpose     of
beating   the union official        with a baseball       bat in order to
gain an advantage       in the labor-management          negotiations    over
the dispute.

Co-defendant    Albino Folcarelli    was acquitted    on both counts
of this indictment.      Marzilli   is awaiting   sentencing°     No
date has been set.      The investigation     was conducted   jointly
by OLR's Hartford,     Connecticut,    resident  agent and the FBIo
U.S.v.    Marzilli   and Folcarelli    (D. Rhode Island)

Teamsters    Local 200
Milwaukee.    Wisconsin

Michael   A. Enea, a former business        agent of Teamsters    Local
200, was indicted     on July i0, 1984, for violating        the
Taft-Hartley     Act that prohibits     a union representative      from
requesting    and/or  receiving    anything   of value from a
business   that employs     or might employ members      of the
representative's     union.    Also included     in the indictment    are
charges   that Enea made false statements         to influence   the
actions   of federally    insured lending     institutions.


                                  -102-
Specifically,    Enea is charged    with soliciting    a loan in 1979
from the owner of the Milwaukee        Cheese Company.    He also is
charged   with having    requested  and received   a $12,000  loan
from the manager     of a bakery   supply company   that was
organized    by Teamsters    Local 200.

Additional    counts   in the indictment   charged   that between
1979 and 1982 Enea submitted       to a commercial    bank and to a
credit union,     various  loan applications    that understated   his
liabilities.      Trial is scheduled    for November   13, 1984.   The
investigation     that led to these charges was conducted       by the
OLR resident    agent in Milwaukee    with assistance     from the
FBI.   U.S. V, _nea (D. Milwaukee)

Teamsters  Local 41
Kansas City. MissQuri

An investigation     of internal  union violence    by Special
Agents  of the OLR in Kansas     City, Missouri,    has culminated
in the filing    of an information    on June 26, 1984, in the
U.S. District    Court, Western   District   of Missouri,   against
James T. Moretina,     business  agent of Teamsters    Local 41.

According    to the information,      Moretina    is charged with
employing    force and violence      to deprive    individuals     of
rights guaranteed      under the Labor-Management        Reporting     and
Disclosure    Act (29 U.S.C. 411 (a) (i) and (2)).             The rights
at issue being the right to express           views,   arguments,     and
opinlons,    as to local 41, and the right to meet and assemble
freely with other members        of the union.       The information
specifically     charges   that Moretina     threatened    and assaulted
a member   of local 41 with a wooden         baseball   bat shortly
after a grievance      meeting,   which was sponsored       and conducted
by local 41, in which the member          participated.       Trial is
scheduled    in October.     U.S.v.    Moretina    (W.D. Missouri)

Federico    Trucking  Company
Edison.    New Jersey

On September    12, 1984, Biagio Federico,        President   and Chief
Executive   Officer,    Federico    Trucking  Company,    pled guilty to
an information     charging    his company   with one count of filing
a false corporate      Federal    income tax return    for the year
1978.   Federico    was fined $5,000.

Federico   had been indicted      on July 15, 1982, along with
James Paone,     Recording   Secretary,   Teamsters   Local 863, and
Thomas   Pecora,   General   Manager,   Federico  Trucking   Company,
on charges    of conspiring    to violate    the Racketeer   Influenced
and Corrupt    Organizations     (RICO) statute.     The indictment,


                                -103-
which  is summarized     in our semiannual     report for the period
ending   September    30s 1982s   charged  that from November       1972
until approximately      December   1981, Federico     Trucking   had
"no-show    employees"   on its payroll    to generate     approximately
$255_000    in kickbacks    to Paone and others with intent to
obtain their influence       as representatives     within   Teamsters
Local 863°

On January   10s 1984s a Federal        District    Court judge in
Newarks   New Jerseys    severed    Federico    from the trial of Paone
and Pecora   because   Federico    'was claiming     health   problems°
On March 15s 1984s      after nine weeks of trials          Paone and
Pecora were convicted      of conspiracy       to violate    the RICO
statute   and violating    the RICO statute°         A summary     of the
convictions    is contained    in our semiannual        report ending
March   31s 1984_ pages 130-1311 (,.U°Sov. Pecora)o             On
September   12s 1984s the two-count         RICO indictment      of July
15s 1982s against     Federico    was dismissed      following     his plea
to the information°       Paone and Pecora       are scheduled      for
sentencing   in October°      The ,investigation      of this case was
conducted   by the Newark     field office      of OLR with assistance
from the New Jersey      State Police°       The tax case was
developed   by OLR and the IRSo         U.S° v° Federico       (Do New
Jersey)

Laborers  Local 69_
Baton Rougeo   Louisiana

A joint investigation        by OLR's New Orleans      resident    office
and the Labor-Management         Services  Administration      of the UoSo
Department     of Labor resulted      in an indictment     of Rayburn
Doyles   business     agent and executive     board members     Laborers
Local 692s and his brothers          Leo Doyle°    They are charged
with extortions       accepting   illegal   payments   from employers
 (Taft-Hartley     Act)s   and falsifying    documents    required   by the
Employee    Retirement     Income Security    Act (ERISA)o      The
indictment     returned    by the Federal    grand jury in Shreveports
Louisianas     on August    21s 1984s is the second       in this joint
investigation°

The first indictment   resulted in the conviction    of Tommy
Odoms former local 692 president°     He was fined   $4s000 and
placed  on five years probation  on January   17_ 1984s   after
being convicted  of falsifying  documents   required  under the
ERISAo

The indictment     charges  the Doyles with extorting     wages for
fictitious    services   and coercing  the Haw-Knobs    Inco s to hire
unwanted   labor   by threatening   to delays  obstructs    and
interrupt   the construction     of oil and gas pipeline
facilities    and right of ways in the State of Louisiana°


                                -104-
Rayburn   Doyle also is charged with diverting         required
employer   contributions     for the Laborers    National   Pension
Fund and for the Louisiana       Health   and Welfare   Plan to his
personal   use.    Leo Doyle is charged with aiding and abetting
his brother    in the extortions     plus one separate     count of a
Taft-Hartley    Act violation.      An October   1984 trial is
scheduled.     U.S.v.    Doyle and Doyle     (W.D. Louisiana)


OTHER   SIGNIFICANT    CASES

Laborers   Local 383
Phoenix,   Arizona

On July ii, 1984, John Moya, Sr., an assistant           business
representative    of Laborers    Local 383, was indicted      on three
counts   of extortion   and four counts of embezzlement        of union
funds.    The indictment    charges   that when Moya was the
business   agent and secretary-treasurer        of local 383, he
threatened   the elected members      of the union's    executive
board with loss of their salaried         positions  as assistant
business   representatives     unless they voted as directed      by
him to approve    expenditure    of union funds.

According   to the indictment,      Moya violated     the Federal
extortion   statute   by discharging     three of the local's
assistant   business   representatives      from their union
positions   and thereby    causing   their wages and livelihood       to
stop because    they failed to vote in executive          board meetings
as directed    by Moyao    The indictment     further    charges Moya
with embezzlement     of union funds in that he subsequently
succeeded   in using union funds for non-union           related
expenditures.     The indictment     was returned     following   a
one-year   joint investigation      by the Las Vegas resident
office   of OLR and the FBI.       No trial date has been set.
U.S. v_ Moya     (D. Arizona)

Laborers   Local 872
Las Vegas.    Nevada

A Federal    grand jury in Las Vegas,      Nevada,   returned   a
multi-count     indictment   on July 3, 1984, charging      Bernard
Hawkins,    president    of Laborers  Local 872, and George       Osley,
Jr., secretary-treasurer        of the local with embezzlement        of
approximately     $15,000   from the union; recordkeeping       and
reporting    violations;    and obstruction    of justice.

The embezzlement   charges   involved  the improper   use of union
paid labor and materials     that were diverted   by Hawkins  and
Osley to construction    work on Osley's    home, while the union
was paying for construction      of the local's  union hall.


                                -105-
Additional     embezzlement     charges    involved   the improper
payment   of campaign     expenses     relating    to a recent election
of local 872 officers°          To accomplish      the embezzlement    and
withhold    the information      from the membership       and the
Department     of Labor,    false records      were maintained    and
false reports      submitted    to the Department      of Labor.    The
obstruction     of justice     charges   arose from the defendants'
failure   to produce     records    subpoenaed*by     the Federal   grand
juryo    After a subpoena       had been served for records,        a fire
in the union office       that was determined        to be arson
destroyed    subpoenaed     records..

The investigation,      which was conducted      by OLR's resident
agents   in Las Vegas,     Nevada,   determined   that Osley was
appointed   by the Laborers      International    Union of North
America   to manage    the affairs    of the local union following
the local°s    release    from trusteeship     by the International°
The trusteeship     had been imposed      on the local union after
the local's    previous    president   had been convicted    of
bribery°    H_So V, Hawkins      and Osley    (D. Nevada)

De,an Marketing   Corporation
Newark.  New Jersey

A former   official     of the A&P supermarket      chain and three
other individuals      were indicted     on August   2, 1984, by a
Federal   grand jury in Newark_        New Jersey,   on charges     of
defrauding    A&P by violating      the Racketeer    Influenced     and
Corrupt   Organizations      (RICO) statute    and commiting     mail
fraud°    Indicted    were James To Gow of New Jersey,          a former
A&P senior vice president;         Salvatore   J. Profaci;    Gus
Spatafora;    and Joseph    Fo Derrico.      The latter    three men are
principals    of New York and New Jersey        business    entities
known as Deran Marketing,         Inc., Amco Fiber,     Inc.,
Metropolitan     Marketing,    Inco, and E.O.D.     Services,    Inc.

The indictment     describes    an intricate      financial     arrangement
whereby   the defendants     defrauded     A&P in connection       with its
disposal    of waste   corrugated     cardboard.      Derrico,    Spatafora_
and their hidden      partner,    Profaci,    owned and operated       a
variety   of corporations      that provided      services    for A&P under
different    and sometimes     conflicting     duties    and
responsibilities°       The indictment       charges    that the
defendants    devised   a scheme whereby       Gow would cause A&P to
enter   into an exclusive      contract    with a brokerage       company
controlled    by Profaci,    Derrico,     and Spatafora      in return for
bribe payments     disguised    as "consulting       fees. " At the time,
Gow was responsible       for A&P's cardboard       waste    disposal
program   throughout    the United     States    and Canadao




                                 -106-
The indictment     charges    that Gow received     approximately
$100,000   in bribe payments       related   to the contracts     and that
following    the signing     of the exclusive     contract,   Profaci,
Derrico,   and Spatafora      caused A&P to enter into contracts
with the other corporations         controlled    by them.    According
to the charges,     each of the defendants        defrauded   A&P in
utilizing   Gow's insider      position    of trust to profit     secretly
from the various      contracts.     Under these contracts,       the
defendants    received    inflated   commissions    and kickbacks     on
equipment    purchases°      Over a period of years, A&P paid the
various   Profaci-controlled       companies   approximately     $3.5
million.

The 16-month    joint investigation     which led to the charges
was conducted    by OLR's Newark    field office,  the FBI, and the
IRS.   U.S.v.    Profaci  et al (D. New Jersey)




                                -107-
                        MONEY OWED TO THE
                       DEPARTMENT OF LABOR


In accordance    with a request    in the Senate Committee     on
Appropriations     report on the Supplemental    Appropriation    and
Rescission   Bill of 1980, the chart on the following        page
shows unaudited     estimates  provided   by the Agencies   of the
Department   of the amounts    of money owed, overdue,     and
written   off as uncollectible     during  the 6-month  reporting
period.




                              -109-
                   SUMMARY     OF ESTIMATED   DEPARTMENT           OF
                               LABOR RECEIVABLES
                             (Dollars  in thousands)


                                 Outstanding       Delin-    Adjustments              &
Program                          Receivables      quencies    Write-offs
Name                                9/30/84  _/   9/30/84 2/    9/30/84              _/


Employment    Standards
Administration
Federal   Employees'
Compensation    Act
- beneficiary/provider
  overpayments                     $ 22,474       $     8,307           $    1,818
Black Lung Program
- responsible     mine
  operator    reimburse-
  ment; beneficiary/
  provider    overpay-
  ments                             165,483            47,657                2,240

Employment     &
Training
Administration       _/
- disallowed      costs;
   outstanding      cash
   balances;     grantee
   overpayments                     257,526           252,653               37,948

Mine Safety & Health
Administration
- mine operator
   civil penalties                     8,716            6,537                2,409

Pension    Benefit
Guaranty    Corporation
- plan assets subject
   to transfer;     employer
   liability;    accrued
   premium    income                135,612            29,807               35,324

All   Other    Agencies            __!!_,               9_8_     ...... 2_

 Total    _/                       _91_!91____3_2_              .... __92_II



See   following    page    for    footnotes,



                                     -Ii0-
_/   Includes    amounts  identified  as contingent    receivables
     that are    subject  to an appeals  process   that can
     eliminate    or reduce the amounts   identified°

2/   Any amount more than     30 days overdue  is delinquent°
     Includes  items under    appeal  and not in collection   mode°

_/   Includes   wrlte-offs   of uncollectible     receivables   and
     adjustments    of contingent    receivables   as a result of the
     appeals   process   and reclassification     of disallowed   costs
     based on documentation      submitted   after audit resolution°

_/   Approximately 75 percent    of the    total is currently      under
     appeal to an Administrative    Law    Judge°

_/   Agencies   of the Department      estimate   that actual
     recoveries    of accounts    receivable    for the perlod    are
     $138,752,722.      Approximately     85 percent   of the total
     represented    cash collections.       Other recovery    methods
     may include    offset,   stand-in    costs_ and in-kind
     services.     Recoveries    of accounts    receivable  does not
     include   approximately     $50 million    in cash voluntarily
     returned   by CETA recipients      as a result of the
     contract/grant     closeout   process°




                                -Iii-
APPENDIX




-113-
                             SELECTED     STATISTICS


Audit    Activities

    --         Reports   issued on DOL activities   .......              466
    --         Audit exceptions                 . . .   $70.8       million
    --         Reports   issued for other Federal   agencies                6
    --         Dollars   resolved    .........        $162.9        million
                   Allowed   ............             $100.3        million
                   Disallowed     ..........            $62°6       million


Fraud    and    Integrity    Activities

    --         Cases opened     ................                         702
    --         Cases closed     .                                 . . 385
    --         Cases referred     for prosecution     [ [ [ [ [ . . 328
    --         Individuals    or entities    indicted   ......           284
    --         Individuals    or entities    convicted     .....         141
    --         Cases referred     for administrative     action   . .     63
    --         Civil  actions     . . ..........                . . .       9
    --         Fines and penalties       . .     .....          $1,157,163
    --         Settlements    and judgments"     . ....         $3,183,245
    --         Restitutions    ............                     $   826,7 95
    --         Recoveries   . . . ..........                    $3,403,494
    --         Cost efficiencies       .........                $2,006,560


Labor    Racketeering       Investigation     Activities

    --         Cases opened   ...........                                 28
    --         Cases referred   to _J/others       ........               29
    --         Individuals  indicted     ............                     52
    --         Individuals  convicted    ..........                 . .   61
    --         Fines        ..............                         $135,000
    --         Restitut[ons    .............                       $ 90,000




                                    -115-
             _          OP AUDIT _VlT_     OF DOL _
                   April I, 1984 to September  30, 1984


                                                                 _mmt
                                               _moumt of       Re_mmen_%4
                     Reports Grant/Contract    Questioned         for
                     Issued _mmant Audited       Oosts         Disallowance


Employment and
  Training
  Administration        418   $5,064,104,717   $50,539,459      $20,068,575

Bureau of Labor
  Statistics              6          511,250         -                -

Employment
  Standards
  Administration          7       93,501,382         -                -

Labor-Management
  Services
  Administration          1           -              -                -

_lineSafety and
  Health
  Administration          5       1,078,093          -                -

Occupational
  Safety and
  Health
  Administration          6       3,894,793         99,376                158

Office of the
  Assistant
  Secretamy for
  Administration
  and Management        22        ,9,678,905             880         43,974

Veterans '
  Employment
  and Training
  Services                _           -              -                -

   Total            ___/____95_I/_I__9,715,,                    $20,112,707




                                      -117-
                 SIJI_,R_ OF AUDI'T ACTI'VI'I_ OF g'/_
                     April 1, 1984 to _r           30,1984


                                                                    _mzxa'fc
                                                   /_oun¢ of      PB:x:lmlmm_led
Program              Reports   Grant/(3ontract    Questior_d         for
                     issued            Auaited        Costs       m sall,wa.

Agency
  Administration           2   $          -       $       -        $      -

JTPA Grantees              i              -                -               -

     Recipients         272     3,162,845,443      38,147,324       15,639,586

Native Americans          40        78,452,746        4,275,906        1,767,110

Migrants                   1           372,564            -                -

Job Corps                 32    1,380,871,632         6,469,728        1,653,263

Older Workers             12        29,257,059          168,599          175,614

Policy,
  Evaluation and
  Research                 1           947,844          264,127           16,719

Special Targeted
  Progra_s                25        54,581,600          604,414          799,716

State Employment
  Security
  Agencies                31       356,489,426          609,361           16,567

Bureau of
  Apprenteship
  and Traniing             i           286,403    ,       -                -

     Totals             418    $5,064,19_4_17     $50,539,459      $20,068,575




                                         -119-
                          OF ADDIT RESC_OTICN ACTIVIT_
                   April 1, 1984 to September 30, 1984


                               April i, 1984              Issued
                               Balance Unresolved       (Increases)
     _.ncy/Program             Reports Dollars    // _-_orts Dollars


Employment and Training
  Acbdm _c_ation
  Agency Administration         -    $        -          2   $        -
  JTPA Grantees                 -             -          1            -
  CETA Recipients:
     Prime Sponsors            264    119,888,815     272        53,786,910
     Native Americans           15      1,579,556      40         6,043,016
     Migrants                    1        149,045       1             -
     Job Corps                  46     11,919,501      32         8,122,991
     Older Workers               1        116,060      12           344,213
     Policy, Evaluation &
       Research                  1           -          1          280,846
     Special Targeted Pgms      19       1,800,278     25        1,404,130
     Bureau of Apprentioe-
       ship and Training        -             -          1           -
  State Employment
    Security Agencies            9       7,977,671     31          625,928

Bureau of Labor Statistics      -             -          6           -

              Standards
 /%_ministration                 3            2,057      7           -

Labor-Fanagmmm_t Services
  Administration                -             -          1           -

     SafetyandHealth
 Ac]ministration                 2         202,989       5           -

oouupatiml safetyand
  Health Admdm/stration          4           45,193      6          99,534

Gffice of the Asst Secy
  for Admin and Mgmt            5          593,635     22           44,854

Veterans'
        m lu1..ent
                and
 Training Servioes              ]            16,931      ]           -

 Total   3/                    371   $144,291,731     466    $70,752,422


Foonotes follow.



                                     -120-
              Resolved 2/                         S_ember 30, 1984
              (Decreases)                         Balam_e Unresolved
l_orts         Allowed Disall_ed                  _x_rts     Dollars




  -       $           -       $        -                  2   $         -



 442          85,728,734          47,908,340             94       40,235,116
  22             125,103           3,031,711             33        4,465,758
  -                 -                  -                  2          149,045
  55           5,794,324           8,945,888             23        5,302,280
  i0              217,974             88,433              3           153,866

  -                   -                -                  2           280,846
  26                580,795        1,927,171             18           696,442




  12           7,363,624             613,483             28           626,492

                      ....




      5               1,554                503            5             -


                      ....




      6             200,843            2,146              1             -



      9             137,815            4,913              1             1,999



  15                144,662           19,943             12           515,248



      1        ..     6,765           10,166              1             -

 610      $100,302.193        _62,552o697            227          $52,427o092




                                                 -121-
i/   "Dollars"  signifies   both questioned     costs  (costs that
     are inadequately   documented   or that require     the grant
     officer's  interpretation    regarding   allowability)   and
     costs recommended    for disallowance     (costs that are in
     violation  of law or regulatory     requirements).

2/   Audit resolution    occurs when the program       agency and the
     audit organization     agree on action     to be taken on
     reported   findings   and recommendations.       Thus, this table
     does not include     activity   subsequent   to the final
     determination    such as the appeals     process,    the results
     of the program    agency debt collection      efforts,   or
     revision   of prior determinations      which may result in the
     reduction   of the amount     reported  as disallowed    costs.

_/   The differences   between   the beginning   balances   in this
     schedule  and the ending balances      in the schedule   of the
     previous  semiannual   report result from adjustments
     required  during  the reporting    period.




                                -123-
-124-
-125-
-126-
I/   Twenty-four    of the 25 unresolved     audit reports were
     precluded   from resolution    pending   the conclusion  of
     investigations    ($6,038,849).     One preaward   audit is
     pending   the result of contract     negotiation   for
     resolution   and, in accordance     with OMB Circular   A-50,   is
     not subject    to the 180-day   time limit°




                                 -127-
1        l i
         ?    77        7_    777          777         777777777
                                                                             iil
         _    0"1 ¢¢1         0"_ ¢_ l"e'l ¢_ f¢'l _   _ re) f¢1 ¢¢1 ¢"11"¢_ 0") 0"_ O'l




         _? ??o ?
                o             ooo
                              77?          ooo
                                           777         o77ooo?oo
                                                       ??_'°_'°°°
                                                           I I I I I              I   I


         (D   O0        0     000          000         000000000




    g-
                             -128-
-129-
                      SUMMARY  OF AUDIT          REPORTS   ISSUED
                   DURING   THE CUPd_NT          REPORTING   PERIOD



DEPARTMENT        OF LABOR

  Employment        and    Training        Administration

    Agency Administration                                                      2
    Job Training    Partnership   Act Grantees                                1
    CETA Recipients:                                                        383
       Prime Sponsors                                                 272
       Native Americans                                                40
       Migrants                                                         1
       Job Corps                                                       32
       Older Workers                                                   12
       Policy,  Evaluation    and Research                              1
       Special  Targeted   Programs                                    25
    Bureau   of Apprenticeship    and Training                                1
    State Employment     Security   Agencies                                 31

  Bureau     of    Labor    Statistics                                        6

  Employment        Standards     Administration                              7

  Labor-Management           Services        Administration                   1

  Mine    Safety     and    Health     Administration                         5

  Occupational        Safety     and       Health    Administration            6

  Office   of Assistant   Secretazy   for
     Administration    and Management                                        22

  Veterans'        Employment        and    Training    Services            __i

  Subtotal                                                                  466

OTHER    FEDERAL     AGENCIES                                               ___

 Total                                                                      472




                                             -131-
    ?       ????????????????????

    ?       I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I

        '    '''AAA_AAAAAAAAAAA_A




            ooooooooooooooo
_   0       O000QO000000000000_O

                                -133-
                                                                                                  I-4




    l        i
        iii i! illilli i
•       /-I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I




                                              -134-
-135-
                                        i!
    0   0_000_0000_00000000_000000




    ?   ??_???_??????_????????????
        _oooooooooo?_?ooooo?oooo?




_   0   O00_QQ_OOOOOOOOOOOOOOQO000

                                -137-
7   I   I   I   I   I   I   I   I   I   I   I   I   I   I   i   I   I   I   I   I   I   I   I




??????777777777777Y777777777




                                        -137-
_OQQQ_O   O   Q       O   O_QQQQ_Q_OQQO




_??????   _   ?       ?   ??????????_???
??????o   ?   ?       o   oooooooooooooo




                  -139-
    0000000000000000                                                  0       0       000           000




    ?   I   I   I       I   '   '   I   I   I         I   i   I   '       I       i    I    I   i   g     i   I




    _   I   I   I   I   I   I   I   I   I   I     I   I   I   I   I       I       I    I    I   I    I    I   I
    O_O000000000C_O00                                                 0       0       000           000




_   0000000000000000                                                  0       0       000           000

                                                -J. 44-
                                   N_oB_   m   N




O0   0   00000000000000000000000




_    _
_    _ ???????????????????????
       _oooooooooo_oo_oooo_o
            ' ' ' ' ' ' '_&___&_
     o   _ooooo?oooooooooooo?o




                       -145-
                                                                           o

9997777                797779977979                                    ?   ?????

   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I   I




                           -ld9-
_??????????????????????????

          I   I   I   I   I     I     I      I   I   I   I   I   I   I   I   I   I   I   I   I
                          IIIIIIIIIIIIIIII




as_aa_aaaaaaa_asaa_a_aa8




                      -J_50-
                                            H


                                                            H




    I
    0   0       0   0   0   0      O0   0   0   O0   0000




    ?   ,       , ?     ,   , ?,        ,   , _&     ''''

    T, ?, T, 7, T, T, YT
                      ,,                _, 7,   _    __




_           .
                                -151-
                                  FOOTNOTES        USED  IN    LIST
                           OF    FINAL  AUDIT       REPORTS     ISSUED



IThe        Regions     are:
       02       New    York
       03      Philadelphia
       04      Altanta
       05      Chicago
       06      Dallas
       09      San Francisco
       II      Washington
       15      Division         of   Administration,          Benefits     and   Regulatory
               Compliance
       16      Division         of   Advanced      Audit     Techniques

2The Agencies     are:
    BLS       Bureau   of             Labor     Statistics
    ESA               Employment     Standards    Administration
    ETA               Employment     and Training     Administration
    LMSA              Labor-Management       Services    Administration
    MSHA              Mine   Safety    and Health    Administration
    OASAM             Office    of the Assistant      Secretary     for
                      Administration
   OSEC               Office    of    the Secretary    of Labor
   OSHA               Office    of    Safety   and Health   Administration
   VETS               Veterans'       Employment    and Training    Service

   EPA                Environmental     Protection    Agency
   HUD                Housing    and Urban   Development
   HHS                Health   and Human    Services
   USDA               United     States       Department      of   Agriculture

3The   types          of programs     audited   are:
    ACCTG             Accounting
    ADMIN             Agency   Administration
    BAT               Bureau   of Apprenticeship              and Training
    BLSG              Bureau   of Labor    Statistics            Grantees
   CETA               Comprehensive      Employment       and Training      Act
                      recipients
   CEUW               Multiprogram      audits    of CETA,      SESA,   UIS and WIN
   CMSH               Office   of Coal     Mine   Safety     and Health
   DCMWC              Division     of Coal    Mine Workers'        Compensation
   COMP               Comptroller
   DFREP              Division     of Farm    and Rural      Employment     Programs
   DINAP              Division     of Indian     and Native      American     Programs
   DIT                Directorate     of Information         Technology
   DOWP               Division     of Older    Worker     Programs
   FCM                Office   of Financial       Control     and Management
   FECA               Federal    Employees'      Compensation       Programs
   GRTEES             Departmental      grantees      (general)


                                                  -152-
JTPA     Job Training    Partnership    Act grantees
MSHAG    Mine Safety and Health Administration         grantees
OCD      Office of Cost Determination
OJC      Office of Job Corps
OPER     Office of Policy,     Evaluation    and Research
OP       Office   of Procurement
OSHAG    Occupational    Safety and Health Administration
         grantees
OSTGM    Office   of Space and Telecommunications       Management
OSTP     Office   of Special   Targeted   Programs
OT AGY   Agency   other than DOL
SESA     State Employment     Security   Agency
UIS      Unemployment    Insurance   Service
WHD      Wage Hour Division
WIN      Office of Work Incentive       Programs




                             -153-
          DiEPAI_Ti_IE_TOF _OR
               ODGHOTLI_E
        357-0227(Washington Dialing Area)

(800) 424-5409(Toll Free--outside Washington Area)

The OIG Hotline is open 24 hours a day, 7 days a
week to receive allegations of fraud, waste, and
abuse. An operator is normally on duty on work-
days between 8:15AM and 4:45 PM, Eastern Time.
An answering machine handles calls at other times.
Federal employees may reach the Hotline through
FTS. The toll-free number is available for those
residing outside the Washington Dialing Area who
wish to report these allegations. Written com-
plaints may be sent to:

             Hotline
             PO Box 1792
             Washington, D.C. 20013
U.S. Department of Labor        Postage and Fees Paid
Office of Inspector General     U.S. Department of Labor
Washington, D.C. 20210
                                Third Class Mail
Official Business
Penalty for private use, $300   Lab 441
                  Q
